No. 20In the

Supreme Court of the United States
Maria Pappas, Treasurer and ex-officio
Collector of Cook County, Illinois
and the County of Cook,
Petitioners,
v.
A.F. Moore & Associates, Inc., J. Emil
Anderson & Son, Inc., Prime Group
Realty Trust, American Academy of
Orthopaedic Surgeons, Erling Eide, FOX
VALLEY/RIVER OAKS PARTNERSHIP, SIMON
PROPERTY GROUP, INC. AND FRITZ KAEGI,
ASSESSOR OF COOK COUNTY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Cathy McNeil Stein
Kimberly M. Foxx
A ssistant State’s Attorney Cook County State’s Attorney
Chief, Civil Actions Bureau 500 Richard J. Daley Center
Chicago, Illinois 60602
Paul A. Castiglione*
(312) 603-2350
A nthony M. O’Brien
paul.castiglione@cookcountyil.gov
A ssistant State’s Attorneys
Of Counsel
Counsel for Petitioners
* Counsel of Record
297284

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether the Equal Protection Clause mandates
that a real estate taxpayer seeking a refund based on an
over assessment of real property be able to challenge the
methodology that the assessing official used and to conduct
discovery on such assessment methodology, where that
methodology is not probative to the refund claim that State
law provides and where State law provides a complete and
adequate remedy in which all objections to taxes may be
raised.
2. Whether the decision below improperly held
that the Tax Injunction Act and the comity doctrine did
not bar federal jurisdiction over Respondents’ equal
protection and due process challenges to Illinois’ system
for seeking real estate tax refunds based upon error in the
assessment of real estate, where: (1) Illinois law provides
an action based upon equal protection principles to recover overpaid real estate taxes and interest and (2) under
Illinois law, the assessment of real property at or above
its true fair market value warrants a refund based upon
the Uniformity Clause in the Illinois Constitution, where
assessing officials have systematically under-assessed
other, similar properties in its class.

ii
LIST OF PARTIES
The parties to the proceeding below were petitioners
Maria Pappas, Treasurer and ex-officio Collector of Cook
County, Illinois and the County of Cook (“Petitioners”)
and respondents, A.F. Moore & Associates, Inc., J.
Emil Anderson & Son, Inc., Prime Group Realty Trust,
American Academy of Orthopedic Surgeons, Erling Eide,
Fox Valley/River Oaks Partnership and Simon Property
Group, Inc. (“Respondents”), as well as respondent Fritz
Kaegi, the Assessor of Cook County (the “Assessor”).1

1. The Assessor intends to separately file a petition for a
writ of certiorari in this action.

iii
STATEMENT OF RELATED PROCEEDINGS
Woodfield Realty Holding Company, LLC v. Pappas,
No. 05 COTO 3938,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
In re Level of Assessment Litigation,
05 COTO 3938, et al.,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
A.F. Moore & Associates v. Pappas,
10 COTO 4715,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
J. Emil Anderson & Son, Inc. v. Pappas,
10 COTO 4665,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
Prime Group Realty Trust Management Agent v.
Pappas,
05 COTO 4016,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.

iv
American Academy of Orthopedic Surgeons v. Pappas,
09 CO 6182,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
Eide v. Pappas,
05 COTO 3967,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
Property Tax Management, LLC, v. Pappas,
08 COTO 3814,
Circuit Court of Cook County, Illinois, County
Department, County Division
Case is pending; no judgment has been entered.
A.F. Moore & Associates v. Pappas,
18 C 4888,
United States District Court for the Northern District
of Illinois
Judgment entered on April 19, 2019.
A.F. Moore & Associates v. Pappas,
19-1971 consolidated with 19-1979,
United States Court of Appeals for the Seventh Circuit
Judgment entered on January 29, 2020, petition for
rehearing denied on April 9, 2020.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONST I T U T IONAL A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Applicable Illinois Law  . . . . . . . . . . . . . . . . . . . . . 3

II. The Federal Litigation And Related State
Litigation.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
REASONS FOR GRANTING THE WRIT . . . . . . . . . 18

vi
Table of Contents
Page
I.

T HE P E T I T ION FOR W RI T OF
CERTIORARI SHOULD BE ALLOWED
BECAUSE THE DECISION BELOW
CONFLICTS WITH THE DECISIONS
OF OTHER UNITED STATES COURTS
	OF APPEALS AND THIS COURT . . . . . . . . . 19
A. The Decision Below Conflicts With
The Second Circuit’s Decision In
Long Island Lighting Co . . . . . . . . . . . . . . .20
B. The Decision Below Conflicts With The
Decisions Of This Court, The Illinois
Supreme Court, The Third Circuit
And Various Other Circuit Courts . . . . . . . 22
C. The Decision Below Would Federalize
Illinois SPO’s And Would Countermand
Illinois Policy For Collecting Real
Estate Tax Revenue And For Providing
A Full And Complete Remedy For
Refund Actions Based Upon Alleged
Overassessment Of Real Property  . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

vii
TABLE OF APPENDICES
Page
App e n di x A — o p i n io n o f t h e
united states court of appeals
for the seventh circuit, dated
	january 29, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — MEMORANDUM OPINION
OF UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, FILED
APRIL 30, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16a
Appendix C — denial of rehearing
of the united states court of
appeals for the seventh circuit,
filed april 9, 2020 . . . . . . . . . . . . . . . . . . . . . . . 31a
App e n d i x D — RELE V A N T
CONSTITUTIONAL AND STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33a
App en di x E — Am en ded Or der
of Consolidation for Certa in
Di s c o v e r y P u r p o s e s , I n r e
Level of Assessment Litigation,
05COTO3938, 07COTO1618, 07COTO0779,
0 8CO T O570 0, 0 9 CO T O 6 2 5 8 , Circuit
Court of Cook County, Illinois,
C ou nt y De pa r tm ent, C ou nt y
	Division, issued January 22, 2013 . . . . . . .41a

viii
Table of Appendices
Page
APPENDIX F — MEMORANDUM OPINION
AND ORDER IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS COUNTY
DEPART M EN T, COU N T Y DI V ISION,
DATED JULY 19, 2011 . . . . . . . . . . . . . . . . . . . . . . . 59a
APPENDIX G — MEMORANDUM OPINION
AND ORDER IN THE CIRCUIT COURT
OF COOK COUNTY, ILLINOIS, COUNTY
DEPART M EN T, COU N T Y DI V ISION,
	DATED JUNE 2, 2011 . . . . . . . . . . . . . . . . . . . . . . . 78a
Appendix H — Report of the Task
Force on Reform of the Cook
County Ta x Appeals Process as
Revised and Adopted by the Real
Estate Ta x Committee of the
Chicago Bar Association dated
February 22, 1995, as adopted by
the Chicago Bar Association Real
	Estate Committee on March 2, 1995 . . 150a

ix
TABLE OF CITED AUTHORITIES
Page
CASES
Allegheny Pittsburgh Coal Co. v.
County Commission,
488 U.S. 336 (1989) . . . . . . . . . . . . . . . . . . . . . . . passim
A.F. Moore & Associates v. Pappas,
385 F. Supp. 3d 591 (N.D. Ill. 2019) . . . . . . . . . . .  13, 17
A.F. Moore & Associates v. Pappas,
948 F.3d 889 (7th Cir. 2020) . . . . . . . . . . . . . . . . passim
Aluminum Co. of America v.
Department of Treasury,
522 F.2d 1120 (6th Cir. 1975) . . . . . . . . . . . . . . . . . . . 19
Arkansas v. Farm Credit Services,
520 U.S. 821 (1997) . . . . . . . . . . . . . . . . . . . . . . . . 19, 22
Ayers v. Polk County,
697 F.2d 1375 (11th Cir. 1983)  . . . . . . . . . . . . . . . . . . 19
Balazik v. County of Dauphin,
44 F.3d 209 (3d Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . 19
Bank of New England Old Colony, N.A. v. Clark,
986 F.2d 600 (1st Cir. 1993)  . . . . . . . . . . . . . . . . . . . . 19
Brooks v. Nance,
801 F.2d 1237 (10th Cir. 1986) . . . . . . . . . . . . . . . . . . 19

x
Cited Authorities
Page
Burris v. Little Rock,
941 F.2d 717 (8th Cir. 1991)  . . . . . . . . . . . . . . . . . . . . 19
California v. Grace Brethren Church,
457 U.S. 393 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Caperton v. A. T. Massey Coal Co.,
556 U.S. 868 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Coors Brewing Co. v. Méndez-Torres,
678 F.3d 15 (1st Cir. 2012) . . . . . . . . . . . . . . . . . . . . . .20
County Collector v. Ford Motor Co.,
131 Ill. 2d 541 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fair Assessment in Real Estate Ass’n v.
McNary,
454 U.S. 100 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Garrett v. Bamford,
582 F.2d 810 (3d Cir. 1978) . . . . . . . . . . . . . . . . . . 11, 22
Gass v. County of Allegheny,
371 F.3d 134 (3d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 19
Gee v. Planned Parenthood of Gulf Coast, Inc.,
139 S. Ct. 408 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Givot v. Orr,
321 Ill. App. 3d 78 (1st Dist. 2001) . . . . . . . . . . . . . . . . 5

xi
Cited Authorities
Page
Henderson v. United States,
135 S. Ct. 1780 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . 21
Jerron West, Inc. v.
California State Bd. of Equalization,
129 F.3d 1334 (9th Cir. 1997) . . . . . . . . . . . . . . . . . . . 19
Jorgensen v. Berrios,
2020 IL App (1st) 191133 . . . . . . . . . . . . . . . . . . . . . . 29
Kraebel v. New York City Dep’t of Housing
Preservation & Dev.,
959 F.2d 395 (2d Cir. 1992) . . . . . . . . . . . . . . . . . . . . . 19
LaSalle Nat’l Bank v. County of Cook,
57 Ill. 2d 318 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Levin v. Commerce Energy Inc.,
560 U.S. 413 (2010)  . . . . . . . . . . . . . . . . . . . . . 19, 29, 30
Long Island Lighting Co. v.
Town of Brookhaven,
889 F.2d 428 (2d Cir. 1989) . . . . . . . . . . . . . . . . . passim
Marvin F. Poer & Co. v. Counties of Alameda,
725 F.2d 1234 (9th Cir. 1984) . . . . . . . . . . . . . . . . . . . 19
Marks v. Vanderventer,
2015 IL 116226 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

xii
Cited Authorities
Page
McDonald v. Village of Winnetka,
371 F.3d 992 (7th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 8
Nat’l Private Truck Council, Inc. v.
Oklahoma Tax Comm’n,
515 U.S. 582 (1995)  . . . . . . . . . . . . . . . . . . . . . . . passim
People ex rel. Devine v. Murphy,
181 Ill. 2d 522 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Perez v. Ledesma,
401 U.S. 82 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Reno v. Newport Township,
2018 IL App (2d) 170967 . . . . . . . . . . . . . . . . . . . . . . . . 5
Rosewell v. Chicago Title & Trust Co.,
99 Ill. 2d 407 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Rosewell v. La Salle Nat’l Bank,
450 U.S. 503 (1981)  . . . . . . . . . . . . . . . . . . . . 6, 7, 19, 26
Rosewell v. United States Steel Corp.,
106 Ill. 2d 311 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Thompson v. Keohane,
516 U.S. 99 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

xiii
Cited Authorities
Page
United States v. Davila,
569 U.S. 597 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Walsh v. PTAB,
181 Ill. 2d 228 (1998) . . . . . . . . . . . . . . . . . . . . . . passim
Statutes, Rules and Constitutional
Provisions
U.S. Const. Amendment XIV, Section 1  . . . . . . . . . . 2, 22
Sup. Ct. Rule 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Sup. Ct. Rule 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Federal Rule of Civil Procedure 23 . . . . . . . . . . . . . . . . 29
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1341  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1988  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Ill. Const. Art IX, § 4(a) (1970)  . . . . . . . . . . . . . . . . . . 2, 4
Ill. Const. Art IX, § 4(b) (1970)  . . . . . . . . . . . . . . . . . 4, 12
Illinois Supreme Court Rule 20 . . . . . . . . . . . . . . . . . . . 26

xiv
Cited Authorities
Page
35 ILCS 200/16-95 (2020)  . . . . . . . . . . . . . . . . . . . . . . . 2, 5
35 ILCS 200/16-115 (2020) . . . . . . . . . . . . . . . . . . . . . . . 2, 5
35 ILCS 200/16-120 (2020)  . . . . . . . . . . . . . . . . . . . 2, 5, 11
35 ILCS 200/16-125 (2020)  . . . . . . . . . . . . . . . . . . . . . . . . 2
35 ILCS 200/21-75  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
35 ILCS 200/23-5 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 2
35 ILCS 200/23-15 (2020)  . . . . . . . . . . . . . . . . . . . . passim
35 ILCS 200/23-15(b) (2020) . . . . . . . . . . . . . . . . . . . . . 2, 3
35 ILCS 200/23-15(b)(1) (2020) . . . . . . . . . . . . . . . . . . . . . 7
35 ILCS 200/23-15(b)(3) (2020) . . . . . . . . . . . . . . . . .  14, 17
Code of Ordinance of Cook County, § 74-60 . . . . . . . . . 12
Code of Ordinance of Cook County, § 74-63 . . . . . . . . . 12
Code of Ordinance of Cook County, § 74-64 . . . . . . . . . 12
Property Tax Code article 16 . . . . . . . . . . . . . . . . . . . . . . 9

1
Maria Pappas, Treasurer and ex-officio Collector of
Cook County, Illinois (the “Collector”), and the County of
Cook respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Seventh Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals for
the Seventh Circuit (Pet. App., infra, 1a-15a) is reported
at 948 F.3d 889 (7th Cir. 2020). The opinion of the United
States District Court for the Northern District of Illinois
granting petitioner’s motion to dismiss (Pet. App, infra,
16a-30a) is reported at 385 F. Supp. 3d 591 (N.D. Ill. 2019).
STATEMENT OF JURISDICTION
The opinion of the United States Court of Appeals for
the Seventh Circuit from which petitioners seek review
was issued on January 29, 2020. (Pet. App., infra, 1a-15a.)
On February 12, 2020, Petitioners filed a petition for
rehearing or rehearing en banc pursuant to Federal Rule
of Appellate Procedure 40. On April 9, 2020, the United
States Court of Appeals for the Seventh Circuit denied
this petition for rehearing. (Pet. App., infra, 31a-32a).
This petition was timely filed within 150 days1 of the
issuance of the April 9, 2020 order denying the petition
for rehearing or rehearing en banc.
1. On March 19, 2020, this Court issued an order stating “that
the deadline to file any petition for a writ of certiorari due on or
after the date of this order is extended to 150 days from the date
of the lower court judgment, order denying discretionary review,
or order denying a timely petition for rehearing.”

2
The jurisdiction of this Court to review the decision of
the Court of Appeals is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The text of the Fourteenth Amendment, §1 to the
United States Constitution, as well as 28 U.S.C. § 1341,
35 ILCS 200/16-95 (2020), 35 ILCS 200/16-115 (2020), 35
ILCS 200/16-120 (2020), 35 ILCS 200/16-125 (2020), 35
ILCS 200/23-5 (2020) and 35 ILCS 200/23-15 (2020), are
reproduced in the appendix. (Pet. App., infra, 33a-40a).
STATEMENT
In Illinois, the right to a property tax refund is purely
statutory, a right that the Illinois Property Tax Code (the
“Property Tax Code”) and the Illinois Constitution govern.
See 35 ILCS 200/23-5, et seq. and Ill. Const. Art. IX, §4
(1970). By statute, each year on January 1, real estate taxes
become a first lien on property and relief from real estate
taxes may be obtained only through the Property Tax Code.
See 35 ILCS 200/21-75 and 35 ILCS 200/23-15.
Taxpayers who timely and properly file a tax objection
according to the Property Tax Code may contest their
property taxes, assessment or levy of taxes on any basis.
35 ILCS 200/23-15(b). The Property Tax Code provides
a complete remedy for any claims against real estate
taxes. Id.
While Illinois law requires taxpayers seeking refunds
to establish that their property was incorrectly or illegally
assessed, Illinois law does not allow taxpayers to prove
such claims through a challenge to the methodology that
the assessing official used. Id. Respondents contend

3
that the Equal Protection Clause mandates that they be
allowed to conduct discovery on assessment methodology
and to prove their claim through a challenge to such
methodology.
Respondents filed objections to their tax assessments
in an Illinois court for the exact same properties and tax
years for which they seek relief for in this matter. The
State Court found that Illinois law did not provide for
discovery on assessment methodology and because Illinois
law provides taxpayers with a complete and adequate
remedy for tax refunds on over assessed property, the
Equal Protection Clause did not warrant such discovery.
Pet. App., infra, at 145a-147a.
After more than ten years of litigation in Illinois,
Respondents filed a substantially similar complaint
in federal court. In both Illinois and federal court,
Respondents alleged violations of Illinois law and the
United States Constitution.
This litigation presents numerous issues of federal law
- - application of the comity doctrine, the Tax Injunction
Act (the “TIA”) and the relief available under 42 U.S.C. §
1983 (“Section 1983”) - - that turn on the proper application
of Illinois law. The decision below misapplied Illinois law.
I.

Applicable Illinois Law.

Illinois maintains a system of ad valorem property
taxation that the Illinois Constitution governs. The Illinois
Constitution provides that real property can be broken
down into categorical classifications for taxation purposes.

4
(R. 96.)2
Article IX, §4(a) of the Illinois Constitution states
that “[e]xcept as otherwise provided in this Section, taxes
upon real property shall be levied uniformly by valuation
ascertained as the General Assembly shall provide by
law.” Ill. Const. 1970, Art. IX, §4(a). The uniformity
clause in Article IX, §4(b) of the Illinois Constitution (the
“Uniformity Clause”) states that:
Subject to such limitations as the General
Assembly may hereafter prescribe by law,
counties w ith a population of more than
200,000 may classify or continue to classify
real property for purposes of taxation. Any
such classification shall be reasonable and
assessments shall be uniform within each class.
The level of assessment or rate of tax of the
highest class in a county shall not exceed two
and one-half times the level of assessment or
rate of tax of the lowest class in that county.
Real property used in farming in a county shall
not be assessed at a higher level of assessment
than single family residential real property in
that county.
Ill. Const. 1970, Art. IX, §4(b). Consequently, classifications
of real property for taxation purposes must be reasonable,
and assessments need to be uniform within each class
and the assessment level of the highest class in a county
2. Citations to the record in the district court in the Northern
District of Illinois in A.F. Moore & Associates v. Pappas, 18 C
4888 will be to “R.__.”

5
may not exceed two and a half times the assessment
level of the lowest class in that county. (R. 96.) Illinois’
Property Tax Code provides two separate remedies for
taxpayers seeking refunds based upon an overassessment
of their real property: an action in the circuit court under
Section 23-15 of the Property Tax Code, 35 ILCS 200/2315 (“Section 23-15”), or an administrative action in the
Property Tax Appeals Board (“PTAB”) under Sections
16-95, 16-115 and 16-120 of Property Tax Code. 35 ILCS
200/16-95; 35 ILCS 200/16-115 and 35 ILCS 200/16-120.
Through its broad but plain language, section 2315 authorizes taxpayers to object to an assessment as
incorrect or illegal on any grounds, including objections
based on constitutional claims. See Reno v. Newport
Township, 2018 IL App (2d) 170967, ¶ 26 (holding that
section 23-15 provides a complete and adequate remedy
for a taxpayer seeking tax refunds on the grounds that he
was denied his constitutional right to vote on a tax levy);
Givot v. Orr, 321 Ill. App. 3d 78, 89 (1st Dist. 2001) (“section
23-15 is a codification of the long-standing principle that
the tax objection proceeding provides the taxpayer with
an adequate remedy at law and that equitable remedies
should not be implied.”). By its terms, section 23-15 places
no limitation as to the type of objection that can be made
to an assessment. It begins with a wide-open invitation,
stating that a tax-objection complaint “shall specify any
objections that the plaintiff may have to the taxes in
question.” Illinois’ tax-objection procedure, therefore,
supplies taxpayers like Respondents a vehicle for raising
an equal protection or any other constitutional objection
to an assessment, tax or levy.
Not only does section 23-15’s language capture “all”

6
objections to an assessment, including equal protection
challenges, so too does its legislative history. Section 2315 was added to the Illinois Property Tax Code through
a series of amendments in 1995. Before 1995, Illinois’
existing tax-objection procedure was widely understood to
accommodate constitutional objections to an assessment.
See LaSalle Nat’l Bank v. County of Cook, 57 Ill. 2d 318,
323-325 (1974). Indeed, in Rosewell v. La Salle Nat’l Bank,
450 U.S. 503 (1981), this Court reviewed Illinois’ pre-1995
objection procedure and found that it provided taxpayers
a full hearing and judicial determination on their federal
constitutional right to equal protection and due process.
Id. at 514–15. In replacing the prior procedure with Section
23-15, the legislature intended to retain the remedy for
constitutional objections to an assessment:
[T]he reformed ta x objection procedure
will preserve the broad scope of the remedy
under existing law. Thus, not only incorrect
assessments, but also . . . constitutional
violations . . . and any other legal or factual
claims not exclusively provided for in other
parts of the Property Tax Code, will fall within
the ambit of a tax objection complaint.
See Task Force Report, 3 Pet. App., infra, at 155a. This
legislative history goes on to discuss Rosewell and state
that section 23-15, like its predecessor provisions, will
3. The Civic Federation Task Force on Reform of the
Cook County Property Tax Appeals Process (the “Task Force”)
proposed the 1995 amendments to Illinois’ tax objections
procedures. The Illinois Supreme Court adopted the Task Force’s
report (the “Task Force Report”) as the “legislative history” of the
current tax-objection provisions in Illinois. People ex rel. Devine
v. Murphy, 181 Ill. 2d 522, 535 (1998).

7
continue to provide an adequate state remedy for all
constitutional objections to a tax:
[Section 23-15(b)(1)] emphasizes that tax
objections are intended to provide a complete
remedy. The broad scope of the tax objection
remedy is an essential feature of the reform
scheme. In its review of the Cook County
objection process some fifteen years ago, the
U.S. Supreme Court held that the taxpayer
must be afforded “a full hearing and judicial
determination at which she may raise any and
all constitutional objections to the tax” in order
for the process to pass muster under federal
law. Rosewell, 450 U.S. at 514, 516, n.19 (1980).
Id. at 16, Pet. App., infra, at 174a.
Against this legal backdrop, the decision below
misperceived and misapplied relevant Illinois law
regarding statutory claims for refunds based upon the
overassessment of real property in three key respects.
First, the decision below described Plaintiffs’
complaint as the “rare case in which taxpayers lack an
adequate state court remedy.” A.F. Moore, 948 F.3d at
891. That statement assumes that Respondents’ objections
are unlike other cases seeking a tax refund. They are not.
Each objection is a specific objection case (or “SPO”) in
which Plaintiffs challenge allegedly improper assessments
and seek refunds for overpaid real estate taxes. In other
words, they are typical SPOs, among the thousands of
SPOs filed in Cook County every year. The proper remedy
in this case is the remedy in all SPOs: a refund of real

8
estate taxes paid due to an overassessment plus interest
in an action against the Collector in State court.
Second, the decision below misperceived Illinois law,
particularly the decision of the Illinois Supreme Court
in Walsh v. Property Tax Appeal Bd., 181 Ill. 2d 228
(1998). In Walsh, the taxpayer Walsh alleged that he was
entitled to a refund under Illinois law even though his
real property was assessed at the proper value because
similarly situated properties were assessed at a lower
value, and the owners of those other properties paid less
tax. The Illinois Supreme Court agreed with Walsh and
held that he pled a violation of the Uniformity Clause that
can be pursued under the Property Tax Code. Walsh, 181
Ill. 2d at 237 (stating that to reject Walsh’s claim “would
sanction assessed valuations on different proportions of
like properties in direct contravention of the uniformity
clause”).4
Despite this plain holding in Walsh, the decision below
wholly misperceived this important point of Illinois law,
stating:
[Respondents’] particular constitutional
objection is that the Assessor violated the Equal
Protection Clause by valuing their properties
correctly under the Cook County ordinance
but cutting everyone else a break with a lower
de facto rate. [Citation omitted.] If Section
4. While a traditional equal protection violation requires
proof of intentional conduct, McDonald v. Village of Winnetka, 371
F.3d 992, 1005, n. 7 (7th Cir. 2004), a lack of uniformity claim under
Section 23-15 merely requires proof of the disparity itself. See 35
ILCS 200/23-15.

9
23-15 limits taxpayers to challenging only the
correctness of the valuation under Illinois law,
then they have no state forum for that cognizable
constitutional claim. What’s more, a taxpayer
attempting to prove an Allegheny Pittsburgh
Coal claim under the Equal Protection Clause
must demonstrate that there is no rational basis
for the disparate tax treatment—a burden
that generally requires engaging with the
legitimacy of the policy’s stated purpose.
A.F. Moore, 948 F.3d at 895. As an initial matter, the
decision below did not account for the holding in Walsh
and thus overlooked that taxpayers may pursue a refund
where their assessment is correct when viewed in isolation
but is still subject to challenge under section 23-15 because
it is unlawful when compared to similar properties that
were assessed at lower rates. The decision below missed
the mark on Walsh. Indeed, Walsh provided the very
remedy that Respondents sought and that the decision
below declared unavailable under Illinois: a refund based
upon the lower rates at which the other similarly situated
properties were assessed.
While the claim in Walsh was an administrative one
under Article 16 of the Property Tax Code (“Article 16”)
and not a SPO under Section 23-15, the Illinois Supreme
Court grounded its holding in Walsh on the Uniformity
Clause, which applies to Article 16 administrative claims
as well as SPOs brought under Section 23-15. And the
decision below overlooked another point of Illinois law:
when plaintiffs establish Uniformity Clause violations,
they automatically establish Equal Protection violations
as well. Marks v. Vanderventer, 2015 IL 116226, ¶29.

10
It is axiomatic in Illinois that a SPO based on the
Uniformity Clause is, by extension, also based on the
Equal Protection Clause. Walsh, 181 Ill. 2d at 236-237.
And a property owner whose real property was assessed
at the proper value is entitled to a refund where similarly
situated properties are assessed at a lower value. Id. And
the amount of that refund is the difference between what
the property owner paid and what it should have paid given
the lower values assigned to other similar properties. Id.
Prior to 1995, Illinois taxpayers who filed a SPO had
to prove that an assessing official engaged in fraud when
assessing the taxpayer’s property. County Collector
v. Ford Motor Co., 131 Ill. 2d 541 (1989). The 1995
amendments to Illinois’ Property Tax Code changed that.
As the Task Force Report stated:
The proposed new language in (Section 2315) also expressly eliminates the doctrine
of “constructive fraud” from the court’s
consideration. (Of course, this is not intended
to affect the general law of fraud, actual or
constructive, outside of the context of real
property tax matters.) Further, the new
language negatives the judicial requirement,
enunciated in the Ford case, that in order
to prevail the taxpayer must prove that the
assessing officials or their staff made some
specific and demonstrable error in arriving at
the assessment.
See Task Force Report, Pet. App., infra, at 176a.

11
When it enacted the 1995 amendments, which removed
the Assessor as a defendant in SPOs and eliminated the
requirement that the taxpayer prove constructive fraud
against the Assessor, Illinois made a policy choice: it
decided that a taxpayer did not have to assume the burden
of proving that an assessing official engaged in fraud when
assessing the taxpayer’s property. The 1995 amendments
to Section 23-15 focused not on the methodology of the
assessment but the results. If taxpayers simply show that
their property was assessed too high, in isolation or when
compared to similar properties, they can obtain a refund.
Taxpayers merely had to show that the assessment - - the
end result of the assessing process - - was not uniform
with respect to similarly situated properties. 5
Third, Section 23-15 provides for a full and complete
remedy of a refund plus interest for taxes paid due to an
incorrect or illegal assessment. In administrative actions,
Article 16 provides the same remedy. See 35 ILCS 200/16120. Consequently, under this Court’s decision in Nat’l
Private Truck Council, Inc. v. Oklahoma Tax Comm’n,
515 U.S. 582 (1995), Section 1983 provides no remedy to
taxpayers challenging the taxes they paid based upon the
value of the assessment of real property in Illinois.6
5. As discussed below, the Third Circuit has held that an
equal protection claim alleging lack of uniformity in assessment
practices can be vindicated for purposes of the TIA through
a state’s constitutional requirement for uniform assessments.
Garrett v. Bamford, 582 F.2d 810, 815–16 (3d Cir. 1978) The
decision below cannot be squared with Garrett.
6. The decision below repeatedly stated that the County
Defendants conceded that no constitutional claim was available
under Illinois law. (Pet. App., infra, at 2a, 12a and 13a.) This
is incorrect. The County Defendants made no such concession

12
W hen the decision below ignored these three
fundamental points of Illinois law, it not only misapplied
both the TIA and the comity doctrine, but it also created
substantial splits with the Second and Third Circuits.
II. The Federal Litigation A nd Related State
Litigation.
To satisfy the requirements that the Uniformity
Clause of the Illinois Constitution imposed, see Ill. Const.
1970, Art. IX, § 4(b), the County enacted the Cook County
Real Property Assessment Classification Ordinance
(“Classification Ordinance”), Code of Ordinances of
Cook County § 74-60 et seq. The Classification Ordinance
separates properties into single-family residential,
not-for-profit, commercial, and industrial classes, as is
relevant here. Code of Ord. § 74-63. The Classification
Ordinance mandated that the Assessor assess singlefamily residential properties at sixteen percent of their
market value; not-for-profit properties at thirty percent;
commercial properties at thirty-eight percent; and
industrial properties at thirty-six percent. Code of Ord.
§ 74-64.
In both their federal and State court complaints,
Respondents alleged that from 2000 to 2008, the Assessor
allegedly undervalued most, but not all, single family
residential, commercial, and industrial property in the
and, instead, argued that under Nat’l Private Truck Council,
Respondents could not rely upon Section 1983 as a vehicle for
their proposed equal protection claims. Illinois provides a full
and complete remedy and thus Section 1983 offered no remedy.
Saying that a Section 1983 action does not lie is not the same as
“conceding” that no constitutional claim was available.

13
County. (R. 96.) According to Respondents, this practice
brought the assessment levels to approximately nine
percent for single-family residential properties, twentyfive percent for commercial properties, and twenty percent
for industrial properties - - rates far below the level
required by law. (Id.) Based on these assessment levels,
the Collector issued tax bills and collected taxes from
property owners. Respondents allege that the assessment
rates actually utilized were concealed from the public. (Id.)
Respondents allege that they are taxpayers whose
properties were assessed at or above the level required
by law, as opposed to the widely utilized underassessment
rate. (Id.) This valuation discrepancy, they contend,
caused them to pay taxes at a higher rate than most other
taxpayers in the same class and above the maximum
level permitted by Illinois’ laws and constitution. (Id.)
Respondents claim to have overpaid property taxes by the
following amounts: A.F. Moore by $805,019; Anderson by
$755,611; Prime Group by $8,648,343; AAOS by $458,263;
Eide by $1,199,006; and Fox Valley and Simon Property
by $16,434,354. (Id.)
Initially, Respondents filed their complaints in
an Illinois court. Those State court cases, as well as
other related lawsuits seeking refunds for alleged
overassessments, have been pending for over a decade.
A.F. Moore & Assocs. v. Pappas, 385 F. Supp. 3d 591,
599 (N.D. Ill. 2019). As the district court observed, “[d]
ecade-long litigation is not a feature of the tax-objection
procedures, but rather an unfortunate product of the
tactics employed in this case.” Id. Those “tactics” include
Respondents’ efforts to conduct discovery on the Assessor
and his assessment methods. This proposed discovery

14
was not probative of the statutory refund action in which
Section 23-15(b)(3) expressly excludes methodology as
relevant to a refund claim. See 35 ILCS 200/23-15(b)(3)
(stating that “[i]f an objection is made claiming incorrect
valuation, the court shall consider the objection without
regard to the correctness of any practice, procedure, or
method of valuation followed by the assessor, board of
appeals, or board of review in making or reviewing the
assessment”). Under Section 23-15, discovery must focus
on the end result - - i.e., the assessment itself - - and not
on methodology employed in arriving at the assessment.
Nonetheless, Respondents sought discovery on
methodology based upon equal protection claims that they
filed in State court, insisting that inquiry into these topics
was necessary for establishing their constitutional claims.
The state court dismissed Plaintiffs’ equal protection
claims brought under Section 1983 on the grounds that
Illinois’s Property Tax Code provides Respondents an
adequate remedy for adjudicating their federal equal
protection rights, even though the Property Tax Code
prohibits discovery into the Assessor’s methods and
intent. Specifically, the State court found that:
Illinois’ Property Tax Code provides an
adequate remedy at law for adjudicating a
claim under the United States Constitution’s
Equal Protection Clause because, if and when
a taxpayer demonstrates that, over time, other
similarly situated property was underassessed
in light of objective, market-based measures of
fair market value, as it must, the taxpayer has
already efficiently proven that it was singled out
for disparate treatment relative to other class
members, i.e., illegal discrimination. In this

15
unique area of the law, the taxpayer can prevail
by simply showing such a disparate impact as
a proxy for the unlawful (general) intent to
discriminate otherwise required.
State court order of June 2, 2011 in Woodfield Realty
Holding Co. v. Pappas, No. 05 COTO 3938, Pet. App.,
infra, at 145a-146a.7 See also State court order of July
19, 2011 in Woodfield Realty Holding Co. v. Pappas,
No. 05 COTO 3938, Pet. App., infra, at 68a (noting that
the Court previously ruled that the general-intent-to
discriminate element of the federal constitutional claim
could simply be inferred from any evidence showing that
the taxpayer’s assessment level created a disparate impact
on its property compared to the remainder of the same
class. See also Long Island Lighting Co. v. Brookhaven,
889 F.2d 428, 432 (2d Cir. 1989)).
The State court then followed the Second Circuit’s
decision in Long Island Lighting Co. and found that
Illinois’s tax objection procedures are adequate for
adjudicating equal protection claims even if they forbid
inquiry into the assessing official’s methods and subjective
intent:
7. The State court proceedings involve more than 100 cases
filed on behalf of various property owners, including Respondents.
To simplify the proceedings, the State court designated one case
- - Woodfield Realty Holding Co. v. Pappas, No. 05 COTO 3938
- - as the “test” case, and so decisions made on the “test” case
would apply to all other cases, including those that Respondents
filed in state court. In addition, the State court consolidated all
of the lawsuits challenging the level of assessments, including
Respondents’ complaints, for purposes of discovery. State court
order of January 22, 2013 under the caption In re Level of Assessment
Litigation, No. 05 COTO 3938, Pet. App., infra, at 41a-58a.

16
And further, because this required showing
is also sufficient without an inquiry regarding
methodology used to create the previous
assessments for the class at issue, the Illinois
remedy is adequate even if the taxpayer is
not permitted to discover all of the evidence
it would have other w ise desired, due to
countervailing interests. As this Court has
previously indicated, in resolving the potential
dilemma created by Section 23-15, it follows
(the Second Circuit’s approach in Long Island
Lighting).
Id., Pet. App., infra, at 146a. In this regard, the State court
quoted the following language from Long Island Lighting:
Intentional discrimination also follows from
evidence that the assessing authority repeatedly
applied greatly disparate assessment ratios to
similarly situated properties in violation of state
law. (citation omitted) Thus, because proof that
the assessment method results in disparate
treatment of similarly situated taxpayers is
all that is required for LILCO to succeed in
a declaratory judgment action on its equal
protection claim, see Allegheny Pittsburgh Coal
Co. v. County Commission, 488 U.S. 336, 345346 (1989) and (citation omitted), and because
such proof not only may be presented, but is
essential to success in such an action, the issue
of subjective intent as a separate inquiry simply
evaporates.
Pet. App., infra, at 146a-147a, citing Long Island Lighting
Co., 889 F.2d at 432.

17
The Second Circuit held that “[n]otwithstanding New
York’s rule against questioning assessors about their
subjective attitudes, therefore, New York’s declaratory
judgment remedy is adequate for purposes of comity
and the Tax Injunction Act.” Id. Because a SPO action in
Illinois can be premised on the Uniformity Clause and, by
extension, the Equal Protection Clause, Walsh, 181 Ill. 2d
at 236-237, the State court concluded that Section 23-15
was adequate for purposes of comity and the TIA, even
if section 23-15(b)(3) prohibits inquiry into the Assessor’s
methods and intent for purposes proving a constitutional
claim.
Years later, Respondents filed their federal suit,
which the district court dismissed on the grounds that
the comity doctrine and the TIA barred the exercise of
federal jurisdiction. A.F. Moore & Assocs., 385 F. Supp. 3d
at 599-600. The decision below reversed this decision and
held that Respondents may pursue an Equal Protection
Claim under Section 1983 and conduct discovery on the
methodology that the assessing official used to assess their
real property. See A.F. Moore, 948 F.3d at 895 (holding
that “[i]f Section 23-15 prevents taxpayers from probing
into the Assessor’s methodology or intent, they will not be
able to prove that his tax assessment violated the Equal
Protection Clause”). This holding squarely conflicts with
the Second Circuit’s decision in Long Island Lighting.
As discussed below, the decision below also conflicts
with this Court’s opinions in Allegheny and Nat’l Private
Truck Council, the Illinois Supreme Court’s opinion
in Walsh, the Third Circuit’s decision in Garrett, and
various other circuit decisions interpreting the TIA and

18
the comity doctrine. Consequently, and in accordance with
the criteria set forth in Supreme Court Rules 10(a) and
10(c), this Court should grant this petition.
REASONS FOR GRANTING THE WRIT
“The principal purpose of this Court’s exercise of its
certiorari jurisdiction is to clarify the law.” Caperton v.
A. T. Massey Coal Co., 556 U.S. 868, 902 (2009) (Scalia,
J., dissenting). Indeed, “[o]ne of this Court’s primary
functions is to resolve ‘important matter[s]’ on which
the courts of appeals are ‘in conflict.’” Gee v. Planned
Parenthood of Gulf Coast, Inc., 139 S. Ct. 408 (2018)
(Thomas, J., dissenting from the denial of certiorari),
citing Sup. Ct. Rule 10(a) and Thompson v. Keohane, 516
U.S. 99, 106 (1995).
As the decision of the Illinois court dismissing
Respondents’ Section 1983 claims shows, the decision
of the Seventh Circuit below conflicts with Long Island
Lighting and multiple decisions from this Court and
several circuits.
With regard to real estate tax litigation throughout
the nation, the decision below has created uncertainty
on two vital questions: (1) if a State elects to base real
estate tax refund claims on the assessment itself and
not assessment methodology, does the Equal Protection
Clause mandate discovery on methodology? and (2) can
an equal protection claim alleging lack of uniformity in
assessment practices be vindicated for purposes of the
TIA through a state’s constitutional requirement for
uniform assessments?

19
To leave these issues unresolved will perpetuate
confusion and uncertainty in this important area of the
law. The petition should be allowed.
I.

THE PETITION FOR WRIT OF CERTIORARI
SHOU L D BE A L LOW ED BECAUSE T H E
DECISION BELOW CONFLICTS WITH THE
DECISIONS OF OTHER UNITED STATES
COURTS OF APPEALS AND THIS COURT.

While the decision below conflicts with a series of
cases from this Court and the circuit courts regarding the
general application of the TIA 8 and the comity doctrine,9
8. With respect to the TIA, the decision below conflicts with
the decisions of this Court in Rosewell v. La Salle Nat’l Bank, 450
U.S. 503 (1981), California v. Grace Brethren Church, 457 U.S. 393
(1982) and Arkansas v. Farm Credit Services, 520 U.S. 821 (1997)
and the decisions of the First Circuit in Bank of New England Old
Colony, N.A. v. Clark, 986 F.2d 600 (1st Cir 1993); the Second Circuit
in Kraebel v. New York City Dep’t of Housing Preservation & Dev.,
959 F.2d 395 (2d Cir. 1992); the Third Circuit in Balazik v. County of
Dauphin, 44 F.3d 209 (3d Cir. 1995) and Gass v. County of Allegheny,
371 F.3d 134 (3d Cir. 2004); the Sixth Circuit in Aluminum Co. of
America v. Department of Treasury, 522 F.2d 1120 (6th Cir. 1975);
the Eighth Circuit in Burris v. Little Rock, 941 F.2d 717 (8th Cir.
1991); the Ninth Circuit in Jerron West, Inc. v. California State
Bd. of Equalization, 129 F.3d 1334 (9th Cir. 1997) and Marvin F.
Poer & Co. v. Counties of Alameda, 725 F.2d 1234 (9th Cir. 1984);
the Tenth Circuit in Brooks v. Nance, 801 F.2d 1237 (10th Cir. 1986)
and the Eleventh Circuit in Ayers v. Polk County, 697 F.2d 1375
(11th Cir. 1983).
9. In applying the comity doctrine, the decision conflicts
with the decisions of this Court in Levin v. Commerce Energy
Inc., 560 U.S 413 (2010), Fair Assessment in Real Estate Ass’n v.
McNary, 454 U.S. 100 (1981) and Nat’l Private Truck Council, and

20
this petition will focus on the circuit splits that the decision
below creates with respect to: (1) whether the Equal
Protection Clause mandates discovery on assessment
methodology and (2) whether Section 1983 provides a
remedy for an equal protection claim where a State has
objection procedures that apply uniformity principles and,
based on these principles, taxpayers can obtain a refund
where their property assessment conformed with local law
but similarly situated real property was under-assessed.
A.

The Decision Below Conflicts With The Second
Circuit’s Decision In Long Island Lighting Co.

In Long Island Lighting, the Second Circuit considered
whether a state law prohibiting discovery into an assessing
official’s intent rendered the state law inadequate for
purposes of bringing a Section 1983 equal protection claim
in federal court. Id. at 431. The court affirmed the dismissal
of the Section 1983 claim under the TIA, finding that while
“proof of intent to discriminate has been required [by
the Supreme Court] in other types of situations * * * in
the context of real property tax assessments, evidence of
the assessor’s mental processes need not be proved.” Id.
at 432 (internal citations omitted). This is so, the court
reasoned, because “[t]he requisite unlawful intent follows
the First Circuit’s decision in Coors Brewing Co. v. Méndez-Torres,
678 F.3d 15 (1st Cir. 2012) with regard to: (a) the application of the
comity doctrine to federal claims that encroach on the ability of
local governments to levy and collect real estate taxes and (b) the
availability of declaratory and injunctive relief under Section 1983
in federal challenges to real estate tax collection where Illinois
law provides not only an adequate remedy of tax refunds but also
a refund claim that incorporates principles of the Uniformity and
Equal Protection Clauses.

21
from proof of a systematic overassessment over time of
certain properties as compared to other similarly situated
properties within the same taxing district[.]” Id. It further
added that “[i]ntentional discrimination also follows from
evidence that the assessing authority repeatedly applied
greatly disparate assessment ratios to similarly situated
properties in violation of state law.” Id.
Under Long Island Lighting, the TIA and the comity
doctrine barred an equal protection claim challenging a
state law that prohibits discovery on an assessing official’s
intent, where the taxpayer may prove a uniformity or
equal protection claim through evidence of systematic
undervaluation of similarly situated properties. Id. The
decision below, therefore, conflicts with Long Island
Lighting on the essential question whether a state law
that prohibits discovery into an assessing official’s intent
prevents a taxpayer from fully adjudicating an equal
protection claim. Long Island Lighting holds the assessing
official’s intent can be inferred from the systematic overor under-valuation of a property compared to other
similarly situated property over time. The decision
below holds exactly the opposite: it found that Section
23-15’s prohibition on inquiries into the Assessor’s intent
prevents Plaintiffs from proving their equal protection
claims alleging systematic under-valuation of similarly
properties. A.F. Moore, 948 F.3d at 895-896.
This circuit split on a substantial question of law
presents a compelling ground for the grant of certiorari.
See United States v. Davila, 569 U.S. 597, 603 (2013)
(certiorari granted to resolve a circuit split); Henderson
v. United States, 135 S. Ct. 1780, 1784 (2015) (same).

22
The split between A.F. Moore and Long Island
Lighting is not the end of the circuit splits that the decision
below created. It is only the beginning.
B. The Decision Below Conf licts With The
Decisions Of This Court, The Illinois Supreme
Court, The Third Circuit And Various Other
Circuit Courts.
This Court has recognized that the TIA is first and
foremost a vehicle “to limit drastically federal district
court jurisdiction to interfere with so important a local
concern as the collection of taxes.” Arkansas v. Farm
Credit Services, 520 U.S. 821, 826 (1997).
In holding that a taxpayer could invoke federal
jurisdiction to challenge Illinois’ statutory regime for
collecting real estate taxes, the decision below conflicts
with Garrett. The Third Circuit in Garrett -- like the
Second Circuit in Long Island Lighting - - held that
taxpayers’ equal protection claims alleging lack of
uniformity in assessment practices can be vindicated
for purposes of the TIA through a state’s constitutional
requirement for uniform assessments. See Garrett, 582
F.2d at 815–16 (stating that “we fail to perceive any
relief which appellants can request through a federal
claim bottomed on the Fourteenth Amendment that is
not guaranteed them by” the uniformity provision of
Pennsylvania’s constitution for purposes of TIA). See also
Long Island Lighting, 889 F.2d at 432 (“because proof
that the assessment method results in disparate treatment
of similarly situated taxpayers is all that is required for
[the plaintiff] to succeed in a declaratory judgment action
on its equal protection claim . . . New York’s declaratory

23
judgment remedy is adequate for purposes of comity
and the Tax Injunction Act.”). By failing to recognize
that Illinois, like Pennsylvania, incorporates uniformity
and equal protection principles into its statutory refund
claims based upon the overassessment of real property,
the decision below failed to recognize that the instant case
is very different from Allegheny.
In Allegheny, this Court found that a property
assessment that complies with local law, when viewed in
isolation, may still violate the Equal Protection Clause if
similarly situated property is assessed at a lower rate.
Allegheny, 488 U.S. at 345-346. Allegheny held that
the West Virginia statutory regime for real estate tax
refunds did not provide a remedy for the plaintiffs’ equal
protection claim. Id. at 349-350. But Allegheny differs
from the instant case in three key respects:
• The plaintiffs in Allegheny pursued their equal
protection claims through the West Virginia
courts and ultimately sought relief in this Court;
Respondents here filed an equal protection claim
in State court and when it was dismissed, simply
refiled its constitutional claims in federal court.
Unlike the West Virginia courts in Allegheny,
neither the Illinois Appellate Court nor the Illinois
Supreme Court have had an opportunity to review
the sufficiency of Respondents’ equal protection
claims.
• In contrast to the West Virginia statutory regime
in Allegheny, the Property Tax Code in Illinois
provides not only an adequate remedy of tax
refunds but also a refund claim that incorporates

24
principles of the Uniformity and Equal Protection
Clauses; and
• Unlike the West Virginia Supreme Court, the
Illinois Supreme Court in Walsh held that a
taxpayer was entitled to refund where his property
was assessed at the proper value but similarly
situated properties were assessed at a lower value
and the owners of those other properties paid less
tax.
See Walsh, 181 Ill. 2d at 236-237 (stating that to reject
the plaintiff Walsh’s claim “would sanction assessed
valuations on different proportions of like properties
in direct contravention of the uniformity clause”). The
decision below stated:
Procedures that allow them to challenge only
the correctness of their assessment without
regard to the Assessor’s methods or intent are
of no use to these taxpayers. [Respondents’]
argument, after all, is not that their taxes
were valued incorrectly under the letter of Cook
County law. Rather, they contend that they
suffered an equal protection violation because
the letter of the law was not applied to everyone
else. To prove that claim, they need to conduct
discovery about the Assessor’s methods and
his intent.
A.F. Moore, 948 F.3d at 892-893. In other words, the
decision below found that Section 23-15 did not provide
a remedy for an equal protection violation where real
property was assessed properly and similarly situated

25
other real property was assessed at a lower value and
the owners of the other property paid less tax. The
problem with this holding is that it cannot be squared with
Walsh which held that Illinois’s tax objection procedures
provide refund relief to taxpayers who suffer the same
disproportionate taxation that is alleged in the present
case by way of Illinois’ Uniformity Clause - - and, by
extension, the Equal Protection Clause. Walsh, 181 Ill. 2d
at 236-237. And because the decision below is contrary to
Walsh, it failed to recognize that Respondents’ claim is
distinguishable from the claims in Allegheny. The failure
of the decision below to account for Walsh also led the
Seventh Circuit to misapply this Court’s interpretation
of Section 1983 in Nat’l Private Truck Council.
Under Walsh, Respondents have a remedy under
Illinois law for their disparate treatment claims and, as
a result, this case differs from Allegheny where West
Virginia law did not provide such a remedy. And because
Illinois law provides for a full and complete remedy for a
tax refund claim based on disparate assessments, Section
1983 - - as construed in Nat’l Private Truck Council - provides no remedy to Respondents. The decision below
got this wrong.
The root of the problem in the decision below is its
misapplication of Illinois law regarding the application
of uniformity and equal protection principles in refund
claims alleging non-uniform assessment. This led to
misapplication of the TIA and comity and multiple circuit
splits. In its discussion of Illinois law, the panel below
did not cite or discuss Walsh but rather relied upon an
unpublished and non-precedential decision from the
Appellate Court of Illinois, Friedman v. Pappas, No. 1-2-

26
2685. See A.F. Moore, 948 F.3d at 893. While Friedman
is not law at all, Walsh is the law of Illinois.10 The decision
below conflicts with Walsh.
In contrast to the decision below, this Court concluded
that Illinois’ state tax-objection procedure supplies a
“plain, speedy and efficient” remedy for purposes of the
TIA when it “provides the taxpayer with a full hearing
and judicial determination at which she may raise any
and all constitutional objections to the tax.” Rosewell, 450
U.S. at 514. On that standard, this Court closely examined
Illinois’s former tax-objection procedure, which required
the taxpayer to pay an allegedly unconstitutional tax and
seek a refund through state administrative and judicial
procedures—a process that often took as long as two years
to resolve. Id. at 516–22. After scrutinizing Illinois law, the
Court held that the state remedy was nonetheless “plain,
speedy and efficient” under the TIA, while emphasizing
that taxpayer was “free to raise her equal protection and
due process federal constitutional objections” within the
state procedure. Id. at 515.
Contrary to Rosewell, the decision below failed to
examine essential provisions of Illinois’s tax-objection
procedure in determining whether it provides a “plain,
speedy and efficient remedy” under the TIA and comity
doctrine. As a result, the decision below fails to recognize
10. At oral argument before the Seventh Circuit, Respondents’
counsel urged the panel to certify the question of whether Illinois’
statutory regime protects the equal protection rights of taxpayers
seeking refunds pursuant to Illinois Supreme Court Rule 20.
Petitioner’s counsel not only did not object to this proposed
certification but supported doing so. The panel declined to certify
this question.

27
that Respondents are free to raise equal protection
challenges to their property assessments under Illinois
law.
Indeed, Respondents are free to challenge their
property assessments as non-uniform, and they may use
evidence other than the Assessor’s intent or methodologies
to prove their constitutional objections. A taxpayer may
use various forms of extrinsic evidence to prove disparate
assessments over time, such as a sales ratio study or
expert appraisals. See, e.g., Rosewell v. United States Steel
Corp., 106 Ill. 2d 311, 323 (1985) (Illinois Supreme Court
recognized that in SPOs, “assessment/sales ratio studies
have been used before as evidence of undervaluation of
other properties”). In this case, Respondents, in their
complaint, repeatedly refer to their own sales-ratio study
and expert appraisals and insist that such evidence shows
that the Assessor has intentionally and systematically
assessed their properties at the ratio prescribed by local
law while undervaluing other similar situated properties
in the same class. In order to use a sales ratio study as
evidence in their SPOs, Respondents did not need to ask
the federal courts to exercise subject matter jurisdiction
and upend the policy decisions that Illinois made that
limited to subject matter of SPOs to final assessments
and not assessment methodology.
In improperly applying the TIA and comity, the
decision below created circuit splits and paved the way
for upending Illinois’ policy on real estate tax collection.
That upending is not without consequence.

28
C.

The Decision Below Would Federalize Illinois
SPO’s And Would Countermand Illinois Policy
For Collecting Real Estate Tax Revenue And
For Providing A Full And Complete Remedy
For Refund Actions Based Upon Alleged
Overassessment Of Real Property.

Justice Brennan once observed:
in practical terms, “ the special reasons
justifying the policy of federal noninterference
with state tax collection”: “The procedures
for mass assessment and collection of state
taxes and for administration and adjudication
of taxpayers’ disputes with tax officials are
generally complex and necessarily designed to
operate according to established rules. State
tax agencies are organized to discharge their
responsibilities in accordance with the state
procedures. If federal declaratory relief were
available to test state tax assessments, state tax
administration might be thrown into disarray,
and taxpayers might escape the ordinary
procedural requirements imposed by state law.
During the pendency of the federal suit the
collection of revenue under the challenged law
might be obstructed, with consequent damage
to the State’s budget, and perhaps a shift to
the State of the risk of taxpayer insolvency.
Moreover, federal constitutional issues are
likely to turn on questions of state tax law,
which, like issues of state regulatory law, are
more properly heard in the state courts.”

29
Levin, 560 U.S at 422, n. 2, citing Perez v. Ledesma, 401
U.S. 82, 128, n. 17 (1971) (Brennan, J., concurring in part
and dissenting in part).
The decision below touches on some of the practical
federalism concerns that Justice Brennan listed in his
partial concurrence and dissent in Perez and that this
Court cited with approval in Levin v. Commerce Energy,
Inc., 560 U.S. 413 (2010). As an initial matter, questions
of this specialized area of state law “are more properly
heard in the state courts.” Perez, 401 U.S. at 128, n. 17
(Brennan, J., concurring in part and dissenting in part).
Federalizing SPOs in Illinois would mandate the federal
courts to decide cases grounded in this specialized area
of Illinois law.
The decision below authorizes taxpayers to file Section
1983 claims against the Assessor in place of Article 16 or
Article 23 claims for refunds under Illinois’ Property Tax
Code. That not only federalizes SPOs but leads to all kinds
of procedural differences that upend Illinois’ statutory
regime for property tax collection.
For example, Section 23-15 prohibits the filing of SPOs
as class actions but Federal Rule of Civil Procedure 23
certainly allows them. Illinois’ Property Tax Code does
not provide for attorney’s fees in SPOs but 42 U.S.C.
Section 1988 does so for Section 1983 actions.
Perhaps most importantly, Illinois courts do not
allow refund claims to be filed as actions for declaratory
and injunctive relief. Jorgensen v. Berrios, 2020 IL App
(1st) 191133. Indeed, under Section 23-5 of the Property
Tax Code, when taxpayers pay their real estate taxes,

30
those payments are deemed to be paid under protest and
taxpayers may avail themselves of all remedies available
under the Property Tax Code. However, a federal Section
1983 action would not require the payment of taxes as a
predicate to seeking relief under the Property Tax Code.
The Illinois Supreme Court has long recognized that
“[t]ax revenues are literally the lifeblood of government.”
Rosewell v. Chicago Title & Trust Co., 99 Ill. 2d 407, 416
(1984). Taxpayers who wish to contest an overassessment
can simply file an action for declaratory and injunctive
relief and sidestep the requirement in the Property Tax
Code that taxes must be paid prior to pursuing a statutory
refund action. The federalizing of SPOs, therefore,
threatens to diminish state revenues, a policy concern that
animates the comity doctrine. See Levin, 560 U.S. at 428.
The decision below created splits among the circuits.
These splits come with a cost, one that heightens the need
for this Court to grant this petition and bring uniformity
to this important area of law.

31
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Cathy McNeil Stein
Kimberly M. Foxx
A ssistant State’s Attorney Cook County State’s Attorney
Chief, Civil Actions Bureau 500 Richard J. Daley Center
Chicago, Illinois 60602
Paul A. Castiglione*
(312) 603-2350
A nthony M. O’Brien
paul.castiglione@cookcountyil.gov
A ssistant State’s Attorneys
Of Counsel
Counsel for Petitioners
* Counsel of Record

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
seventh circuit, dated january 29, 2020
IN THE United States Court of Appeals
for the Seventh Circuit
Nos. 19-1971 & 19-1979
A.F. MOORE & ASSOCIATES, INC., et al.,
Plaintiffs-Appellants,
v.
MARIA PAPPAS, Cook County Treasurer,
et al.,
Defendants-Appellees.
Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:18-cv-4888 — Charles P. Kocoras, Judge.
December 11, 2019, Argued
January 29, 2020, Decided
Before F laum , H a milton, and Barrett, Circuit
Judges.
Barrett, Circuit Judge. The Equal Protection Clause
entitles owners of similarly situated property to roughly
equal tax treatment. Allegheny Pittsburgh Coal Co. v.

2a
Appendix A
Cty. Comm’n, 488 U.S. 336, 345-46, 109 S. Ct. 633, 102
L. Ed. 2d 688 (1989). A group of taxpayers asserts that
the tax assessor for Cook County violated that guarantee
by assessing their properties at the rates mandated by
local ordinance while cutting a break to other owners
of similarly situated property. The taxpayers pursued
a refund in Illinois court, where they remain tied up in
litigation after more than a decade. Frustrated, they
turned to federal court for relief, arguing that Illinois’s
procedural rules for challenging property taxes prevent
them from proving their federal constitutional claims in
state court. The district court disagreed and held that the
Tax Injunction Act, 28 U.S.C. § 1341, barred their federal
suit. The Act strips federal district courts of jurisdiction
over challenges to state and local taxes as long as the
taxpayer has an adequate forum in state court to raise
all constitutional claims. This appeal concerns whether
Illinois courts offer a sufficient forum. The issue is made
simpler by the County’s concession that Illinois’s taxobjection procedures do not allow the taxpayers to raise
their constitutional claims in state court. We are left to
conclude that this is the rare case in which taxpayers lack
an adequate state-court remedy. The Tax Injunction Act
therefore does not bar the taxpayers’ federal suit, so we
reverse the district court’s dismissal.
I.
In our review of the district court’s dismissal for
lack of subject-matter jurisdiction, we take as true the
allegations in the taxpayers’ complaint. Scott Air Force
Base Props., LLC v. County of St. Clair, 548 F.3d 516, 519
(7th Cir. 2008).

3a
Appendix A
Cook County prescribes tax assessment rates for
different categories of real estate. Before 2008, a County
ordinance required the County Assessor to assess
single-family residential property at 16% of the market
value, commercial property at 38% of the market value,
and industrial property at 36% of the market value. But
between 2000 and 2008, the Assessor in fact assessed
most of the property in those three categories at rates
significantly lower than the rates prescribed by law.
Cook County officials were candid about the discrepancy
between the de jure rates and the de facto rates. In April
2008, the Assessor proposed an ordinance that would
“recalibrate” the classification system to “more closely
reflect the current relationship between assessment
and market value.” And one of the ordinance’s primary
sponsors on the Cook County Board of Commissioners
advocated for the recalibration in clear terms: “We have
known for years, forever, and pretended that it is not true
[and] that somehow the assessments were at the statutory
levels; they are not. This reflects the actual reality as best
we know it.”
Although most property was assessed at the lower
de facto rates, a minority was assessed at the de jure
rates or even higher. A.F. Moore & Associates and the
other plaintiffs in this case count their properties in
that minority. Their assessment rates may have been
lawful under the letter of the ordinance, but they were
significantly higher than the de facto rates that most other
property owners enjoyed. These taxpayers calculate that
they paid millions of dollars more in property taxes during
the period from 2000 to 2008 than they would have if they
were assessed at the de facto rates.

4a
Appendix A
Believing that discrepancy to be unlawful, the
taxpayers sought a refund in Illinois state court. The
taxpayers followed Illinois’s procedural rules by first
exhausting their remedies with the Cook County Board
of Review and then bringing a suit in the Circuit Court
of Cook County. There they challenged the assessment
under the Fourteenth Amendment’s Equal Protection
Clause, relying on the rule articulated in Allegheny
Pittsburgh Coal Co. v. County Commission: a property
owner whose tax assessment comports with state law may
nevertheless suffer a violation of the Equal Protection
Clause if similarly situated property is assessed at a lower
rate than his. 488 U.S. 336, 345-46, 109 S. Ct. 633, 102
L. Ed. 2d 688 (1989). The taxpayers also alleged that the
assessment violated Illinois statutory law and the Illinois
Constitution.
But the taxpayers have struggled to present the
evidence that they need to make their case; over a
decade later, their state suit remains in discovery. They
attribute the delay to a provision of Illinois law, 35 ILCS
200/23-15, which they say constrains them in several
ways: it limits whom they can name as a defendant, what
evidence they can present, and what arguments they can
raise when challenging property taxes. According to the
taxpayers, section 23-15 has the effect of preventing them
from making their equal protection case in state court
altogether.
Seeking a forum for their federal constitutional
claims, the taxpayers then sued Cook County, the County
Assessor, and the County Treasurer (who serves ex officio

5a
Appendix A
as the County’s tax collector) in federal district court, once
again alleging a violation of the Equal Protection Clause.
They also challenged the Illinois tax-objection procedures
under the guarantees to due process in the United
States Constitution and the Illinois Constitution. Finally,
they alleged additional violations of the substantive
guarantees of equal taxation in the Illinois Constitution
and the Illinois Property Tax Code. The taxpayers sought
declaratory relief and an injunction that the tax collector
refund their overpaid taxes.
The district court held that the Tax Injunction Act
barred the taxpayers’ federal suit. The Act provides that
federal district courts may not “enjoin, suspend or restrain
the assessment, levy or collection of any tax under State
law where a plain, speedy and efficient remedy may be
had in the courts of such State.” 28 U.S.C. § 1341; see also
Hager v. City of West Peoria, 84 F.3d 865, 868 n.1 (7th
Cir. 1996) (explaining that the Act also applies to local and
municipal taxes). Rejecting the taxpayers’ argument that
section 23-15 denied them an adequate state forum, the
district court held that Illinois courts provide a “plain,
speedy and efficient remedy.” The court dismissed the
suit for lack of subject-matter jurisdiction under the Act
and, in the alternative, declined to exercise jurisdiction
under the principle of comity. The taxpayers now appeal,
arguing that Illinois does not offer an adequate remedy
for their constitutional claims.

6a
Appendix A
II.
A.
The taxpayers maintain that several features of
section 23-15 make Illinois courts inhospitable to their
claims, but they focus on one in particular. Paragraph
(b)(3) of the statute provides that relief is available
for assessments that are “incorrect or illegal.” It goes
on to say: “If an objection is made claiming incorrect
valuation, the court shall consider the objection without
regard to the correctness of any practice, procedure, or
method of valuation followed by the assessor ....” 35 ILCS
200/23-15(b)(3). The taxpayers characterize this as the
“Methodology Prohibition.”
The taxpayers argue that the Methodology Prohibition
is incompatible with their constitutional claim. Procedures
that allow them to challenge only the correctness of their
assessment without regard to the Assessor’s methods or
intent are of no use to these taxpayers. Their argument,
after all, is not that their taxes were valued incorrectly
under the letter of Cook County law. Rather, they contend
that they suffered an equal protection violation because
the letter of the law was not applied to everyone else. To
prove that claim, they need to conduct discovery about
the Assessor’s methods and his intent. Not only that, but
the taxpayers want to name the Assessor as a defendant,
since his actions are the focus of their claims. But the
statute only contemplates the collector as a defendant,
see id. 200/23-15(a), so they could not sue the Assessor in
state court or file interrogatories for him to answer, and

7a
Appendix A
he has been free to destroy evidence of unconstitutional
action with impunity. In support of their argument, they
cite a non-precedential decision from the Illinois Appellate
Court that held that constitutional objections “cannot be
raised” in tax objection proceedings because of these
restrictions. See Friedman v. Pappas, No. 1-2-2685, at
*13-14 (Ill. App. Ct. 2004) (Separate App. Pls.-Appellants
194-95). According to the taxpayers, section 23-15 deprives
them of any “remedy” at all in state court—let alone
one that is “plain, speedy and efficient” under the Tax
Injunction Act.
B.
In most cases, a “plain, speedy and efficient” statecourt remedy is easy to identify. For the Act’s jurisdictional
bar to apply, a state need only “provid[e] the taxpayer with
a ‘full hearing and judicial determination’ at which she
may raise any and all constitutional objections to the tax....
The Act contemplates nothing more.” Rosewell v. LaSalle
Nat’l Bank, 450 U.S. 503, 515-16 n.19, 101 S. Ct. 1221, 67 L.
Ed. 2d 464 (1981) (citation omitted). We construe the Tax
Injunction Act’s limitations restrictively because the Act
is meant to dramatically curtail federal-court review of
state and local taxation. See California v. Grace Brethren
Church, 457 U.S. 393, 413, 102 S. Ct. 2498, 73 L. Ed. 2d
93 (1982).
Several cases have applied Rosewell’s standard to
Illinois’s procedures. In Rosewell itself, the Supreme
Court held that certain Illinois procedures for challenging
property taxes satisfied the Act’s “minimal procedural

8a
Appendix A
criteria.” 450 U.S. at 512 (emphasis omitted). At the time,
an aggrieved taxpayer in Illinois first had to pay the
challenged property tax and then seek a refund, which
could take as long as two years to secure. The Court held
that the Illinois remedy nevertheless qualified as “plain,
speedy and efficient.” Id. at 528. The Court emphasized
that the taxpayer was free to raise her federal equal
protection and due process claims before the Cook County
circuit court under Illinois’s procedures. The Illinois
courts’ remedy therefore was sufficient for the Act’s
jurisdictional bar to apply.
Fourteen years after Rosewell, the Illinois legislature
enacted the 1995 Amendments to the Illinois Property
Tax Code, which revised the procedures for tax objections.
The Supreme Court has not revisited Illinois’s procedures
since the Amendments, but our court has had several
occasions to do so. None of those cases, however, dealt
with an underlying constitutional challenge like this one
or an argument about section 23-15—as a brief overview
of our precedents makes clear.
Our first major treatment of Illinois’s procedures for
challenging taxes after the 1995 Amendments was Levy
v. Pappas, 510 F.3d 755 (7th Cir. 2007). (An earlier postAmendments case, Wright v. Pappas, 256 F.3d 635 (7th
Cir. 2001), held only that the Tax Injunction Act applies to
the tax collection practice known as a lien sale.) In Levy,
we drew a distinction between a plaintiff who alleges that
she was singled out for unfair tax treatment and one who
alleges that others were singled out for unfair benefits.
510 F.3d at 762. That distinction is no longer viable, since

9a
Appendix A
the Supreme Court abrogated Levy in Levin v. Commerce
Energy, Inc., 560 U.S. 413, 420-21, 432, 130 S. Ct. 2323, 176
L. Ed. 2d 1131 (2010). Levy did not address section 23-15.
In Scott Air Force Base Properties, LLC v. County of
St. Clair, we considered for the first time after the 1995
Amendments whether the Tax Injunction Act bars an
Illinois taxpayer’s federal challenge to its tax assessment.
548 F.3d 516, 519 (7th Cir. 2008). The taxpayer in that
case believed that it was exempt from certain property
taxes. It had argued that Illinois courts could not provide
an “efficient” remedy for purposes of the Act because
Illinois law required the taxpayer to pursue its exemption
challenge at the same time as it challenged its tax
valuation. Id. at 521. We held that the bifurcated procedure
was not so inefficient as to lift the Tax Injunction Act’s
bar. Id. at 522. The taxpayers in Scott Air Force Base had
not attempted to use the procedures outlined in section
23-15, so we did not address whether those procedures
operated to prevent taxpayers from raising particular
constitutional claims.
We later addressed a different procedure for
challenging Illinois property taxes in Capra v. Cook
County Board of Review, 733 F.3d 705 (7th Cir. 2013).1
1. We decided Capra and the other post-Scott Air Force Base
cases under the principle of comity rather than the Tax Injunction
Act. As we explain in greater depth below, the standards for
analyzing the adequacy of a state forum for purposes of comity
and the Tax Injunction Act are identical. Capra, 733 F.3d at 713.
For that reason, our comity precedents are as relevant as Scott Air
Force Base.

10a
Appendix A
Under 35 ILCS 200/16-160, taxpayers can appeal a
decision from the county Board of Review to the Property
Tax Appeal Board, instead of directly to the circuit court
as the taxpayers did here. In Capra, the taxpayers argued
that they would not be able to present their claims to the
Appeal Board or the Cook County circuit courts under
those procedures because the adjudicators in those bodies
were too corrupt to be able to neutrally review charged
issues. Id. at 715. We rejected the allegations of corruption
and affirmed the district court’s dismissal of the suit. The
plaintiffs in Capra mentioned in their briefs the burden of
proof set forth in section 23-15, but they did not mention
the Methodology Prohibition or argue that it blocked their
constitutional claims.
We have rejected various challenges to other aspects
of Illinois’s procedures as well. In Heyde v. Pittenger, 633
F.3d 512, 521 (7th Cir. 2011), we rejected the argument that
two-year delays in a taxpayer’s Appeal Board proceedings
made them insufficiently “speedy.” In Cosgriff v. County of
Winnebago, 876 F.3d 912, 916 (7th Cir. 2017), we dismissed
an attempt to re-frame a request for a tax refund as a
request for a constitutional forum. And in Perry v. Coles
County, 906 F.3d 583, 589-90 (7th Cir. 2018), we rejected
an argument based on the unavailability of injunctive
relief to remedy procedural errors in the taxing process.
Only in Perry did the taxpayers argue that an aspect of
section 23-15—there, the provision’s bar on class actions—
operated to prevent them from raising constitutional
claims in state court. Id. at 590 n.6. But we rejected that
contention without consideration because the taxpayers
had raised the argument for the first time in their reply

11a
Appendix A
brief. Id. No other taxpayer has argued that section 23-15
operates to restrict federal constitutional claims.
In some of these cases, we used general language to
uphold the adequacy of the challenged Illinois procedures.
For example, in Scott Air Force Base, we painted with a
broad brush when we said that “Illinois taxpayers are
able to litigate their constitutional ... challenges to state
tax matters in the Illinois administrative and judicial
system.” 548 F.3d at 523. And in Capra, we wrote that
“any statutory or constitutional claims” could be raised
through either the Appeal Board or the Illinois county
circuit courts. 733 F.3d at 715. But we had no occasion
in those cases to address whether section 23-15 restricts
taxpayers’ constitutional claims. Our precedents therefore
do not resolve the issue in this case. We consider now for
the first time whether section 23-15 prevents taxpayers
from raising federal constitutional challenges to their
property taxes in Illinois courts.
C.
To avoid the Tax Injunction Act’s jurisdictional bar,
the taxpayers must demonstrate that section 23-15 denies
them a complete hearing on any and all constitutional
objections. Rosewell, 450 U.S. at 514. Their particular
constitutional objection is that the Assessor violated
the Equal Protection Clause by valuing their properties
correctly under the Cook County ordinance but cutting
everyone else a break with a lower de facto rate. See
Allegheny Pittsburgh Coal Co., 488 U.S. at 345-46. If
section 23-15 limits taxpayers to challenging only the

12a
Appendix A
correctness of the valuation under Illinois law, then they
have no state forum for that cognizable constitutional
claim. What’s more, a taxpayer attempting to prove
an Allegheny Pittsburgh Coal claim under the Equal
Protection Clause must demonstrate that there is no
rational basis for the disparate tax treatment—a burden
that generally requires engaging with the legitimacy
of the policy’s stated purpose. See Nordlinger v. Hahn,
505 U.S. 1, 15-16, 112 S. Ct. 2326, 120 L. Ed. 2d 1 (1992).
If section 23-15 prevents taxpayers from probing into
the Assessor’s methodology or intent, they will not be
able to prove that his tax assessment violated the Equal
Protection Clause.
Surprisingly, the defendants do not dispute the
taxpayers’ account of section 23-15 and its operation.
Instead, they argue that those procedures nevertheless
satisfy the Tax Injunction Act. The defendants contend
that when Illinois dispensed with requiring proof of the
Assessor’s methodology or intent, it made the objection
process only more “plain, speedy and efficient.” That may
be true for many claimants. But the defendants ignore
the most crucial procedural criterion under Rosewell:
the availability of a state-court forum to hear “any and
all constitutional objections to the tax.” 450 U.S. at 514.
Efficiency is no good to the taxpayers if it means that they
cannot bring their equal protection claim in state court.
And the defendants agree with the taxpayers that
they cannot. In their brief, the defendants assert that
the taxpayers err in presuming that they can raise their
constitutional claims, sharply admonishing that “[t]hey

13a
Appendix A
are not free to do so.” Instead, the defendants argue, “the
only matter at issue in a Section 23-15 action is whether
the assessment of the real estate property was correct.”
By the defendants’ own admission, then, the section
23-15 procedures provide no forum for the taxpayers to
raise their constitutional claims. Nor have the defendants
been able to point to any alternative channels in which
these taxpayers can raise their federal constitutional
claims in Illinois courts. 2 These concessions make a
potentially complex issue a great deal simpler. Since the
defendants agree that the taxpayers cannot make their
equal protection case in state court, the taxpayers have
no “remedy” at all for their claims—never mind a “plain,
speedy and efficient” one—and the Tax Injunction Act
does not bar their federal suit.

2. An Illinois taxpayer appealing a decision from the county
Board of Review can either do so directly in circuit court under the
procedures outlined in section 23-15, or first through the Property
Tax Appeal Board under the procedures outlined in 35 ILCS 200/16160. See Capra, 733 F.3d at 714-15. At oral argument, counsel for the
defendants was asked whether the taxpayers would have had a forum
for their constitutional claims if they had chosen to pursue relief first
at the Property Tax Appeal Board under section 16-160 instead of in
court under section 23-15. The defendants’ counsel conceded that the
Appeal Board has taken the position that it cannot consider the type
of evidence that would prove that the Assessor did not apply uniform
rates. See Letter to Appellant, No. 06-31627 (Ill. Property Tax App.
Board Aug. 29, 2012) (Separate App. 200). Counsel speculated that
Illinois courts might take a different view but admitted, “We don’t
know ... whether a constitutional claim can be made” at the Appeal
Board (Oral Argument at 23:31-23:40). Such an unclear path to relief
is not a sufficiently “plain” remedy under the Tax Injunction Act.

14a
Appendix A
III.
The district court also abstained from exercising
jurisdiction over the case under the principle of comity.
Comity is a doctrine of abstention, rather than a
jurisdictional bar, but in the state-taxation context it
operates similarly to the Tax Injunction Act. See Capra,
733 F.3d at 713-14. The Act restricts federal jurisdiction
over state-taxation suits for equitable or declaratory relief.
28 U.S.C. § 1341; see also Grace Brethren Church, 457
U.S. at 407-11 (holding that the Act applies to declaratory
relief in addition to injunctions). In Fair Assessment in
Real Estate Ass’n v. McNary, the Supreme Court held that
federal courts are barred from reviewing state-taxation
suits for damages as well, albeit by the principle of comity
rather than the Act. 454 U.S. 100, 116, 102 S. Ct. 177, 70
L. Ed. 2d 271 (1981). Comity requires taxpayers seeking
damages to pursue relief in the state courts, assuming
that state-court remedies are “plain, adequate, and
complete.” Id.
The taxpayers have pursued only injunctive and
declaratory relief in this case. But even assuming that
Fair Assessment bears on this case, comity does not bar
federal jurisdiction here. The Court has explained that the
“plain, adequate, and complete” requirement in the comity
analysis is identical to the “plain, speedy and efficient”
requirement under the Tax Injunction Act. Id. at 116 n.8.
Since the Act does not bar the federal district court from
exercising jurisdiction over this challenge, neither does
the principle of comity.

15a
Appendix A
***
The district court’s dismissal for lack of subject matter
jurisdiction is REVERSED and the case is REMANDED.

16a
Appendix B
APPENDIX B — MEMORANDUM
OPINION OF
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS, EASTERN
DIVISION, FILED APRIL 30, 2019
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
18 C 04888
A.F. MOORE & ASSOCIATES, INC., J. EMIL
ANDERSON & SON, INC., PRIME GROUP REALTY
TRUST, AMERICAN ACADEMY OF ORTHOPAEDIC
SURGEONS, ERLING EIDE, FOX VALLEY/RIVER
OAKS PARTNERSHIP, AND SIMON
PROPERTY GROUP, INC.,
Plaintiffs,
v.
MARIA PAPPAS, COOK COUNTY TREASURER
AND EX OFFICIO COUNTY COLLECTOR,
JOSEPH BERRIOS, COOK COUNTY
ASSESSOR, AND THE COUNTY OF COOK,
Defendants.
April 30, 2019, Decided;
April 30, 2019, Filed

17a
Appendix B
MEMORANDUM OPINION
CHARLES P. KOCORAS, District Judge:
Before the Court is Defendants Maria Pappas
(“Collector”), Joseph Berrios (“Assessor”), and the County
of Cook’s (“County”) (collectively, “Defendants”) motion
to dismiss Plaintiffs A.F. Moore & Associates, Inc. (“A.F.
Moore”), J. Emil Anderson & Son, Inc. (“Anderson”),
Prime Group Realty Trust (“Prime Group”), American
Academy of Orthopaedic Surgeons (“AAOS”), Erling
Eide (“Eide”), Fox Valley/River Oaks Partnership (“Fox
Valley”), and Simon Property Group, Inc.’s (“Simon
Property”) (collectively, “Plaintiffs”) Complaint pursuant
to Federal Rules of Civil Procedure 12(b)(1) and 12(b)
(6). Also before the Court is Assessor’s separate motion
to dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6). For the following reasons, the Court grants in
part and denies in part Defendants’ motion. The Court
also denies Assessor’s motion.
BACKGROUND
At the motion to dismiss stage, the Court assumes that
the following facts from the complaint are true and draws
all reasonable inferences in Plaintiffs’ favor. Murphy
v. Walker, 51 F.3d 714, 717 (7th Cir. 1995); Tamayo v.
Blagojevich, 526 F.3d 1074, 1081 (7th Cir. 2008).
A.F. Moore is an Illinois corporation that held an
interest in a Bridgeview, Illinois property that was
improved with an industrial building. Anderson is an

18a
Appendix B
Illinois corporation with an interest in a Niles, Illinois
property that was also improved with an industrial
building. Prime Group is a real estate investment trust
that held an interest in property in Rolling Meadows,
Illinois that was improved with a multi-tenant office
building. AAOS is an Illinois not-for-profit corporation
with an interest in property in Rosemont, Illinois improved
with a surgical training facility and office building. Eide
held an interest in property in Northbrook, Illinois that
was improved with a retail store. Fox Valley, an Illinois
general partnership, and Simon Property, a Delaware
corporation, held interests in a shopping center in Calumet
City, Illinois.
Collector is the duly elected and acting Treasurer
and Ex Officio County Collector of Cook County. She is
charged with issuing tax bills, collecting taxes, and paying
refunds for taxes that have been overpaid or collected upon
incorrect, illegal, or unconstitutional assessments. She is
sued in her official capacity.
Assessor is the duly elected and acting Assessor of
Cook County. He is charged with assessing all taxable
properties in Cook County for purposes of taxation based
on their market values and at uniform assessment levels
within each property class. He is sued in his official
capacity.
The County is a government entity and is the
Illinois county responsible for funding the Collector and
Assessor’s offices. The County is liable for any monetary
judgment entered against Collector or Assessor in their

19a
Appendix B
official capacities and is only named for this purpose.
To understand the dispute underlying this case, a
brief overview of Illinois property tax law is necessary.
Illinois maintains a system of ad valorem property
ta xation governed by the state constitution. The
constitution provides that real property can be broken
down into categorical classifications for taxation purposes.
However, such classifications need to be reasonable, and
assessments need to be uniform within each class. Ill.
Const. 1970, Art. IX, § 4(b). Furthermore, the assessment
level of the highest class in a county may not exceed two
and a half times the assessment level of the lowest class
in that county. Id.
To satisfy these requirements, the County enacted
the Cook County Real Property Assessment Classification
Ordinance (“Classification Ordinance”), Code of Ordinances
of Cook County § 74-60 et seq. The Classification Ordinance
separated properties into single-family residential,
not-for-profit, commercial, and industrial classes, as is
relevant here. The Classification Ordinance mandated
that Assessor assess single-family residential properties
at sixteen percent of their market value; not-for-profit
properties at thirty percent; commercial properties at
thirty eight percent; and industrial properties at thirty
six percent. Code of Ord. § 74-64.
From 2000 to 2008, Assessor allegedly undervalued
most, but not all, single-family residential, commercial,
and industrial property in the County. This practice
brought the assessment levels to approximately nine

20a
Appendix B
percent for single-family residential properties, twenty
five percent for commercial properties, and twenty
percent for industrial properties—rates far below the
level required by law. Based on these assessment levels,
Collector issued tax bills and collected taxes from
property owners. Plaintiffs allege that the assessment
rates actually utilized were concealed from the public.
In 2008, then-Assessor James Houlihan announced
a proposal to recalibrate the classification system to
decrease the statutory assessment levels to ten and twenty
five percent of the market value, depending on the type
of property involved. He noted that this proposal would
marry the assessment levels with the current market
values and codify the County’s existing practices.
Plaintiffs are taxpayers whose properties were
assessed at or above the level required by law, as opposed
to the widely utilized underassessment rate. Plaintiffs
allege that this valuation discrepancy caused them to
pay taxes at a higher rate than most other taxpayers in
the same class and above the maximum level permitted
by Illinois’ laws and constitution. Plaintiffs claim to have
overpaid property taxes by the following amounts: A.F.
Moore by $805,019; Anderson by $755,611; Prime Group
by $8,648,343; AAOS by $458,263; Eide by $1,199,006; and
Fox Valley and Simon Property by $16,434,354.
Plaintiffs objected to their overpayment and requested
refunds in the Cook County Circuit Court pursuant to the
procedures set forth in the Illinois Property Tax Code,
which was amended in 1995. 35 ILCS 200/23-15. Plaintiffs

21a
Appendix B
claim that the 1995 amendments have left them with an
inadequate remedy at the state court level, asserting
that the procedures are riddled with uncertainty and
delay. Specifically, Plaintiffs complain of the statutory
presumption that the assessment valuations are correct,
the “clear and convincing evidence” burden to overcome
that presumption, the inability to name Assessor as
a defendant to the action, the inability to introduce
evidence of Assessor misconduct, the prohibition on class
actions, and that Collector is not required to answer their
complaint. Moreover, Plaintiffs emphasize that their case
has been litigated at the Cook County Court for over a
decade, yet it remains in the discovery stage.
Based on the underlying tax assessments and the
remedial procedures experienced thereafter, Plaintiffs
filed the instant complaint, alleging equal protection and
due process violations pursuant to 42 U.S.C. § 1983 and the
Illinois Constitution, along with state law claims regarding
the property tax code. On October 17, 2018, Defendants
moved to dismiss the complaint pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6). Assessor filed a
separate motion to dismiss under 12(b)(6), setting forth
statute of limitations defenses.
LEGAL STANDARD
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) challenges the jurisdictional sufficiency
of the complaint, but it is otherwise “analyzed as any other
motion to dismiss.” United Phosphorous Ltd. v. Angus
Chem. Co., 322 F.3d 942, 946 (7th Cir. 2003). The burden of

22a
Appendix B
proof lies with the proponent of jurisdiction. Id. The Court
may consider matters outside of the complaint in ruling on
a motion to dismiss for lack of subject matter jurisdiction.
Ezekiel v. Michel, 66 F.3d 894, 897 (7th Cir. 1995).
A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(6) “tests the sufficiency of the
complaint, not the merits of the case.” McReynolds v.
Merrill Lynch & Co., 694 F.3d 873, 878 (7th Cir. 2012).
The allegations in the complaint must set forth a “short
and plain statement of the claim showing that the pleader
is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Plaintiffs need
not provide detailed factual allegations, but must provide
enough factual support to raise their right to relief above
a speculative level. Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).
A claim must be facially plausible, meaning that the
pleadings must “allow...the court to the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009). The claim must
be described “in sufficient detail to give the defendant ‘fair
notice of what the...claim is and the grounds upon which
it rests.’” E.E.O.C. v. Concentra Health Servs., Inc., 496
F.3d 773, 776 (7th Cir. 2007) (quoting Twombly, 550 U.S.
at 555). “Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements,”
are insufficient to withstand a 12(b)(6) motion to dismiss.
Iqbal, 556 U.S. at 678.

23a
Appendix B
DISCUSSION
Defendants urge the Court to dismiss the complaint
for two reasons: (1) the Court lacks subject matter
jurisdiction because Plaintiff’s claim is barred by the Tax
Injunction Act (“TIA”), 28 U.S.C. § 1341, and the principle
of comity, and (2) the equitable remedy Plaintiffs seek is
unavailable under 42 U.S.C. § 1983 because an adequate
remedy at law exists. Assessor seeks dismissal on the
additional ground that Plaintiffs claims are barred by
the applicable statute of limitations. The Court addresses
each argument in turn.
I.

Subject Matter Jurisdiction

A s the Seventh Circuit has emphasized, “ the
requirement that jurisdiction be established as a threshold
matter springs from the nature and limits of the judicial
power of the United States’ and is inflexible and without
exception.” Scott Air Force Base Prop., LLC v. Cty. of
St. Clair, III, 548 F.3d 516, 520 (7th Cir. 2008) (internal
quotation marks omitted). Moreover, “it is axiomatic
that a federal court must assure itself that it possesses
jurisdiction over the subject matter of an action before
it can proceed to take any action respecting the merits
of the action.” Id. Therefore, the Court must determine
at the outset whether the TIA or the principle of comity
serve as a bar to subject matter jurisdiction.
A.

Tax Injunction Act

“Federal courts are courts of limited jurisdiction.”
Int’l Union of Operating Engineers, Local 150, AFL-

24a
Appendix B
CIO v. Ward, 563 F.3d 276 (7th Cir. 2009). One such limit
on the Court’s jurisdiction is the TIA. 28 U.S.C. § 1341.
That statute provides, “the district courts shall not enjoin,
suspend or restrain the assessment, levy or collection of
any tax under State law where a plain, speedy and efficient
remedy may be had in the courts of such State.” Id. “Given
the strong background presumption against interference
with state taxation, the [TIA] may be best understood
as but a partial codification of the federal reluctance to
interfere with state taxation.” Nat’l Priv. Truck Council,
Inc. v. Okla. Tax Comm’n, 515 U.S. 582, 590, 115 S. Ct.
2351, 132 L. Ed. 2d 509 (1995).
This prescription applies with equal force to suits
based on constitutional violations or those seeking
declaratory or injunctive relief. Scott Air Force Base,
548 F.3d at 520 (“The TIA strips the district courts of
the power to hear suits seeking not only injunctive but
also declaratory relief from state taxes....[T]he TIA’s
ambit is not confined by the law under which a state tax
is challenged, for even federal constitutional claims do
not render the Act inapplicable.”); Hadnott v. Berrios,
2018 U.S. Dist. LEXIS 163919, 2018 WL 4590193, at
*7 (N.D. Ill. 2018) (“State taxation challenges claiming
constitutional violations do not fall outside the TIA’s
purview.”). Therefore, Plaintiff’s constitutional claims are
subject to the TIA’s jurisdictional limitations.
To determine whether the TIA will strip this Court of
subject matter jurisdiction, we must first evaluate whether
the remedy available in the Illinois state court is “plain,
speedy and efficient.” 28 U.S.C. § 1341. This requirement

25a
Appendix B
is “construed narrowly,” Scott Air Force Base, 548 F.3d at
521, and only necessitates that the “state-court remedy...
meets certain minimal procedural criteria.” Rosewell v.
LaSalle Nat’l Bank, 450 U.S. 503, 512, 101 S. Ct. 1221,
67 L. Ed. 2d 464 (1981). Consequently, a “plain” remedy
details a procedure that is not “uncertain or otherwise
unclear.” Rosewell, 450 U.S. at 517. A “speedy” remedy
is “a relative concept” that is measured by comparing the
typical time to process a remedy “against the usual time
for similar litigation.” Id. at 518. An “efficient” remedy
“imposes no unusual hardship on [a party] requiring
ineffectual activity or an unnecessary expenditure of time
and energy.” Id. at 518.
For over two decades, the Seventh Circuit has
upheld the Illinois tax objection procedures as a “plain,
speedy and efficient” remedy under the TIA. Heyde v.
Pittenger, 633 F.3d 512, 521 (7th Cir. 2011) (collecting
cases). The Illinois procedures are plain because they lay
out a clear process for dissatisfied taxpayers to object to
their taxation by appealing to the Property Tax Appeal
Board or by filing a tax objection complaint with the
county circuit court. Cosgriff, 876 F.3d at 916, citing
Capra v. Cook Cty. Bd. of Review, 733 F.3d 705, 714-15
(7th Cir. 2013). Plaintiffs argue that these procedures are
deficient because they create uncertainty as to whether
the state court will hear their constitutional objections
to the taxation process. However, both federal and state
court precedent serve to quell those concerns. See Capra,
733 F.3d at 715 (“Thus, through either the PTAB or the
circuit courts, any statutory or constitutional claims can
be heard by a state court of general jurisdiction and can

26a
Appendix B
be appealed through the Illinois court system to the
Illinois Supreme Court and the Supreme Court of the
United States.”); Scott Air Force Base, 548 F.3d at 523
(“Indeed, Illinois case law clearly indicates that Illinois
taxpayers are able to litigate their constitutional and other
federal-law challenges to state tax matters in the Illinois
administrative and judicial system.”); Reno v. Newport
Twp., 2018 IL App. (2d) 170967, ¶ 26, 427 Ill. Dec. 330, 118
N.E.3d 531 (“[I]t is well established that property owners
may use the statutory tax-objection procedures to raise
constitutional questions arising from alleged improper
assessments.”) (internal quotation marks omitted); See
also Offerman v. Will Cty. Supervisor of Assessments
Novak, 2017 IL App (3d) 150272-U, ¶ 1 (considering
taxpayers’ claim that acting township assessor violated
the provision of the Illinois Constitution that requires
taxes to be levied uniformly).
Plaintiffs next contend that the Illinois procedures are
not speedy or efficient because their case has proceeded
in the state court for over a decade. However, this inquiry
does not turn on the length of the specific proceedings at
issue, but rather the typical length of resolution. Rosewell,
450 U.S. at 518. Decade-long litigation is not a feature of
the tax-objection procedures, but rather an unfortunate
product of the tactics employed in this case. Indeed, as
the Defendants note, “per local court rule and statute, the
lifespan of a tax objection in state court is approximately
two to three years”—a timeframe the Supreme Court and
Seventh Circuit have already acknowledged as meeting
the “speedy” criterion. Rosewell, 450 U.S. at 520-21;
Heyde, 633 F.3d at 521. Also, “significant delay does not

27a
Appendix B
doom the adequacy of state remedies.” Capra, 733 F.3d
at 716. Moreover, Plaintiffs have not alleged that the
Illinois procedures require them to engage in “ineffectual
activity” during the course of the litigation. Scott Air
Force Base, 548 F.3d at 522. Therefore, the Court will
not deviate from established law finding that the Illinois
procedures offer a “plain, speedy and efficient” remedy.
Although Plaintiffs acknowledge the weight of the
precedent against them, they insist that the adequacy of
the Illinois procedures remains an open question because
none of the prior rulings considered the 1995 amendments.
While no case has directly and comprehensively addressed
the 1995 amendments, the Seventh Circuit has considered
individual features of the amendments and reached
the conclusion that the Illinois procedures afford an
adequate remedy. See Heyde, 633 F.3d at 521 (stating
that the amendments to the Illinois procedures did not
“significantly alter” the process so as to call into question
their adequacy); See also Capra, 733 F.3d at 716-17 (finding
that the clear and convincing evidence burden did not
render Illinois procedures “inadequate or incomplete”);
See also Perry v. Coles Cty., Ill., 906 F.3d 583, 587, 590
(7th Cir. 2018) (considering prohibition on class actions
and adequacy of remedy where county “refused to follow
the law” with respect to assessments).
Taking a cue from the Seventh Circuit’s evaluations,
the Court finds that the 1995 amendments do not evince
the need to deviate from the decades of Supreme Court
and Circuit Court precedent establishing that the Illinois
procedures afford Plaintiffs an adequate tax-objection

28a
Appendix B
remedy. Given that Plaintiffs have a “plain, speedy and
efficient” remedy in state court, the TIA strips the Court
of jurisdiction over Plaintiff’s claims.
B. Comity
Unlike the TIA’s jurisdictional divestment, comity is a
“doctrine of abstention.” Perry, 906 F.3d at 587. “Comity
reflects, in part, a ‘belief that the National Government
will fare best if the States and their institutions are left
free to perform their separate functions in separate
ways.’” Hadnott, 2018 U.S. Dist. LEXIS 163919, 2018 WL
4590193, at *4, citing Levin v. Com. Energy, Inc., 560
U.S. 413, 421, 130 S. Ct. 2323, 176 L. Ed. 2d 1131 (2010).
This belief is especially apt regarding state taxation.
As the Supreme Court has underscored, “we have long
recognized that principles of federalism and comity
generally counsel that courts should adopt a hands-off
approach with respect to state tax administration.” Nat’l
Priv. Truck Council, 515 U.S. at 586.
The Seventh Circuit has echoed this sentiment,
cautioning courts not to interfere with state taxation.
Cosgriff, 876 F.3d at 915 (“Together, Congress and the
Court embedded the fundamental principle of comity
between federal courts and state governments that is
essential to Our Federalism, particularly in the area
of state taxation.”) (internal quotation marks omitted);
Capra, 733 F.3d at 713 (“Like the [TIA], this comity
doctrine serves to minimize frictions inherent in a federal
system of government and embodies longstanding federal
reluctance to interfere with state taxation.”) (internal

29a
Appendix B
quotation marks omitted). Accordingly, “district courts
should abstain from hearing § 1983 suits that deal with
state taxation when there is an ‘adequate, plain, and
complete’ remedy available to plaintiffs in state courts.”
Hadnott, 2018 U.S. Dist. LEXIS 163919, 2018 WL 4590193,
at *4, citing Fair Assessment in Real Estate Ass’n, Inc.
v. McNary, 454 U.S. 100, 116, 102 S. Ct. 177, 70 L. Ed. 2d
271 (1981); See also Perry, 906 F.3d at 588 (“Taxpayers
seeking such relief must instead seek protection of their
federal rights by state remedies, provided of course that
those remedies are plain, adequate, and complete.”)
(internal quotation marks omitted).
In assessing whether state remedies are “plain,
adequate, and complete,” the Supreme Court and the
Seventh Circuit have instructed district courts to use
the analysis dictated by the TIA. Fair Assessment, 454
U.S. at 116 n.8 (“We discern no significant difference, for
purposes of the principles recognized in this case, between
remedies which are ‘plain, adequate, and complete,’ as
that phrase has been used in articulating the doctrine of
equitable restraint, and those which are ‘plain, speedy and
efficient,’ within the meaning of § 1341.”); Capra, 733 F.3d
at 714 (“In determining whether available state remedies
are ‘adequate, plain, and complete’ for purposes of Fair
Assessment, we have used the comparable standard from
the [TIA], which bars federal courts from enjoining state
taxes where a ‘plain, speedy and efficient’ state remedy
is available.”). Given that the Court determined the state
remedy was adequate under the TIA analysis, that same
remedy would be adequate under the comity framework.
Therefore, the Court finds it appropriate to decline
jurisdiction over this matter on comity grounds.

30a
Appendix B
II. Sufficiency of Pleadings
Because the Court lacks subject matter jurisdiction
over this case, the Court cannot weigh in on the merits
of Defendants’ or Assessor’s motion to dismiss pursuant
to Federal Rule of Civil Procedure 12(b)(6). Accordingly,
those motions are denied as moot.
CONCLUSION
For the aforementioned reasons, the Court grants in
part and denies in part Defendants’ motion and denies
Assessor’s motion as moot. It is so ordered.
Dated: 4/30/2019
/s/ Charles P. Kocoras
Charles P. Kocoras
United States District Judge

31a
Appendixof
C rehearing of
Appendix C — denial
the united states court of appeals for
the seventh circuit, filed april 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
Nos. 19-1971 & 19-1979
A.F. MOORE & ASSOCIATES, INC., et al.,
Plaintiffs-Appellants,
v.
MARIA PAPPAS, COOK COUNTY TREASURER,
et al.,
Defendants-Appellees.
April 9, 2020
Before
JOEL M. FLAUM, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY C. BARRETT, Circuit Judge
Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division
No. 1:18-cv-4888 – Charles P. Kocoras, Judge.

32a
Appendix C
order
Defendants-Appellees filed two petitions for rehearing
and rehearing en banc on February 12, 2020. No judge in
regular active service has requested a vote on the petitions
for rehearing en banc, and all of the judges on the panels
have voted to deny rehearing.
Accordingly, IT IS ORDERED that the petitions for
rehearing and rehearing en banc are DENIED.

33a
Appendix DCONSTITUTIONAL
Appendix D — RELEVANT
AND STATUTORY PROVISIONS
Fourteenth Amendment, Section 1
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
28 USCS § 1341
Taxes by States
The district courts shall not enjoin, suspend or restrain
the assessment, levy or collection of any tax under State
law where a plain, speedy and efficient remedy may be
had in the courts of such State.
35 ILCS 200/16-95
Powers and Duties of Board of Appeals or Review;
Complaints
In counties with 3,000,000 or more inhabitants, until the
first Monday in December 1998, the board of appeals
in any year shall, on complaint that any property is
overassessed or underassessed, or is exempt, review and
order the assessment corrected.
Beginning the first Monday in December 1998 and
thereafter, in counties with 3,000,000 or more inhabitants,
the board of review:

34a
Appendix D
(1) shall, on written complaint of any taxpayer or any
taxing district that has an interest in the assessment that
any property is overassessed, underassessed, or exempt,
review the assessment and confirm, revise, correct, alter,
or modify the assessment, as appears to be just; and
(2) may, upon written motion of any one or more members
of the board that is made on or before the dates specified
in notices given under Section 16-110 [35 ILCS 200/16-110]
for each township and upon good cause shown, revise,
correct, alter, or modify any assessment (or part of an
assessment) of real property regardless of whether the
taxpayer or owner of the property has filed a complaint
with the board; and
(3) shall, after the effective date of this amendatory Act
of the 96th General Assembly [P.A. 96-1553], pursuant to
the provisions of Sections 9-260, 9-265, 2-270, 16-135, and
16-140 [35 ILCS 200/9-260, 35 ILCS 200/9-265, 35 ILCS
200/2-270, 35 ILCS 200/16-135 and 35 ILCS 200/16-140]
review any omitted assessment proposed by the county
assessor and confirm, revise, correct, alter, or modify the
proposed assessment, as appears to be just.
No assessment may be changed by the board on its own
motion until the taxpayer in whose name the property
is assessed and the chief county assessment officer who
certified the assessment have been notified and given an
opportunity to be heard thereon. All taxing districts shall
have an opportunity to be heard on the matter.

35a
Appendix D
35 ILCS 200/16-115
Filing Complaints
In counties with 3,000,000 or more inhabitants, complaints that
any property is overassessed or underassessed or is exempt
may be made by any taxpayer. Complaints that any property
is overassessed or underassessed or is exempt may be made
by a taxing district that has an interest in the assessment to
a board of review. All complaints shall be in writing, identify
and describe the particular property, otherwise comply with
the rules in force, be either signed by the complaining party
or his or her attorney or, if filed electronically, signed with the
electronic signature of the complaining party or his or her
attorney, and be filed with the board of appeals (until the first
Monday in December 1998 and the board of review beginning
the first Monday in December 1998 and thereafter) in at least
duplicate. The board shall forward one copy of each complaint
to the county assessor.
Complaints by taxpayers and taxing districts and
certificates of correction by the county assessor as
provided in this Code shall be filed with the board
according to townships on or before the dates specified in
the notices given in Section 16-110 [35 ILCS 200/16-110].
35 ILCS 200/16-120
Decision on Complaints
In counties with 3,000,000 or more inhabitants, at its
meeting for the purpose of revising and correcting the
assessments, the board of appeals (until the first Monday
in December 1998 and the board of review beginning
the first Monday in December 1998 and thereafter),

36a
Appendix D
upon complaint filed by a taxpayer or taxing district as
prescribed in this Code, may revise the entire assessment
of any taxpayer, or any part thereof, and correct the same
as shall appear to the board to be just. The assessment of
the property of any taxpayer shall not be increased unless
that taxpayer or his agent shall first have been notified in
writing and been given an opportunity to be heard.
35 ILCS 200/16-125
Hearings
In counties with 3,000,000 or more inhabitants, complaints
filed with the board of appeals (until the first Monday in
December 1998 and the board of review beginning the
first Monday in December 1998 and thereafter) shall be
classified by townships. All complaints shall be docketed
numerically, in the order in which they are presented, as
nearly as possible, in books or computer records kept for
that purpose, which shall be open to public inspection.
The complaints shall be considered by townships until
they have been heard and passed upon by the board.
After completing final action on all matters in a township,
the board shall transmit such final actions to the county
assessor.
A hearing upon any complaint shall not be held until the
taxpayer affected and the county assessor have each been
notified and have been given an opportunity to be heard.
All hearings shall be open to the public and the board
shall sit together and hear the representations of the
interested parties or their representatives. An order for
a correction of any assessment shall not be made unless
both commissioners of the board, or a majority of the

37a
Appendix D
members in the case of a board of review, concur therein,
in which case, an order for correction shall be made in open
session and entered in the records of the board. When an
assessment is ordered corrected, the board shall transmit
a computer printout of the results, or make and sign a
brief written statement of the reason for the change and
the manner in which the method used by the assessor in
making the assessment was erroneous, and shall deliver
a copy of the statement to the county assessor. Upon
request the board shall hear any taxpayer in opposition
to a proposed reduction in any assessment.
The board may destroy or otherwise dispose of complaints
and records pertaining thereto after the lapse of 5 years
from the date of filing.
35 ILCS 200/23-5
Payment Under Protest
Beginning with the 1994 tax year in counties with
3,000,000 or more inhabitants, and beginning with the
1995 tax year in all other counties, if any person desires
to object to all or any part of a property tax for any year,
for any reason other than that the property is exempt from
taxation, he or she shall pay all of the tax due within 60
days from the first penalty date of the final installment of
taxes for that year. Whenever taxes are paid in compliance
with this Section and a tax objection complaint is filed in
compliance with Section 23-10 [35 ILCS 200/23-10], 100%
of the taxes shall be deemed paid under protest without
the filing of a separate letter of protest with the county
collector.

38a
Appendix D
35 ILCS 200/23-15
Tax Objection Procedure and Hearing
(a) A tax objection complaint under Section 23-10 [35 ILCS
200/23-10] shall be filed in the circuit court of the county in
which the subject property is located. Joinder of plaintiffs
shall be permitted to the same extent permitted by law
in any personal action pending in the court and shall be
in accordance with Section 2-404 of the Code of Civil
Procedure [735 ILCS 5/2-404]; provided, however, that
no complaint shall be filed as a class action. The complaint
shall name the county collector as defendant and shall
specify any objections that the plaintiff may have to the
taxes in question. No appearance or answer by the county
collector to the tax objection complaint, nor any further
pleadings, need be filed. Amendments to the complaint
may be made to the same extent which, by law, could be
made in any personal action pending in the court.
(b)
(1) The court, sitting without a jury, shall hear and
determine all objections specified to the taxes, assessments,
or levies in question. This Section shall be construed to
provide a complete remedy for any claims with respect to
those taxes, assessments, or levies, excepting only matters
for which an exclusive remedy is provided elsewhere in
this Code.
(2) The taxes, assessments, and levies that are the subject
of the objection shall be presumed correct and legal,
but the presumption is rebuttable. The plaintiff has the
burden of proving any contested matter of fact by clear
and convincing evidence.

39a
Appendix D
(3) Objections to assessments shall be heard de novo by
the court. The court shall grant relief in the cases in
which the objector meets the burden of proof under this
Section and shows an assessment to be incorrect or illegal.
If an objection is made claiming incorrect valuation, the
court shall consider the objection without regard to the
correctness of any practice, procedure, or method of
valuation followed by the assessor, board of appeals, or
board of review in making or reviewing the assessment,
and without regard to the intent or motivation of any
assessing official. The doctrine known as constructive
fraud is hereby abolished for purposes of all challenges
to taxes, assessments, or levies.
(c) If the court orders a refund of any part of the taxes
paid, it shall also order the payment of interest as provided
in Section 23-20 [35 ILCS 200/23-20]. Appeals may be
taken from final judgments as in other civil cases.
(d) This amendatory Act of 1995 shall apply to all tax
objection matters still pending for any tax year, except
as provided in Sections 23-5 and 23-10 [35 ILCS 200/23-5
and 35 ILCS 200/23-10] regarding procedures and time
limitations for payment of taxes and filing tax objection
complaints.
(e) In counties with less than 3,000,000 inhabitants, if
the court renders a decision lowering the assessment of
a particular parcel on which a residence occupied by the
owner is situated, the reduced assessment, subject to
equalization, shall remain in effect for the remainder of
the general assessment period as provided in Sections

40a
Appendix D
9-215 through 9-225 [35 ILCS 200/9-215 through 35 ILCS
200/9-225], unless that parcel is subsequently sold in an
arm’s length transaction establishing a fair cash value
for the parcel that is different from the fair cash value
on which the court’s assessment is based, or unless the
decision of the court is reversed or modified upon review.

41a
E
Appendix EAppendix
— Amended
Order
of Consolidation for Certain Discovery
Purposes, In re Level of Assessment
Litigation, 05COTO3938, 07COTO1618,
07COTO0779, 08COTO5700, 09COTO6258,
Circuit Court of Cook County, Illinois,
County Department, County Division,
issued January 22, 2013
IN THE CIRCUIT COURT OF COOK
COUNTY, ILLINOIS COUNTY DEPARTMENT,
COUNTY DIVISION
Nos.
05 COTO 3938
07 COTO 1618
07 COTO 0779 (2006)
08 COTO 5700 (2007)
09 COTO 6258 (2008)
(All Cases Listed on Schedule A to this Order
Consolidated for Certain Discovery Purposes)
IN RE LEVEL OF
ASSESSMENT LITIGATION
AMENDED ORDER OF CONSOLIDATION FOR
CERTAIN DISCOVERY PURPOSES
This cause coming on the Motions of the Parties
for Consolidation, the Court, being fully advised in the
premises, and all parties being represented by counsel,
enters the following stipulations and order:

42a
Appendix E
THE PARTIES STIPULATE AS FOLLOWS:
A. The complaints in the cases listed on the attached
Schedule A (hereafter, “cases subject to this order”)
raise issues concerning the constitutionality and legally
required level of assessment, in addition to issues
concerning the fair market value forming the basis of
the disputed assessed valuation, as well as other issues
unrelated to level of assessment in some cases.
B. Various taxing districts have inter vened in
opposition to Plaintiffs in certain of the cases subject
to this order. Districts that have previously intervened,
with their respective counsel, are listed on the attached
Schedule B. If additional taxing districts intervene in
any of the cases subject to this order, those districts
may be added to Schedule B by amendment to this order
and they shall be permitted to participate in discovery
in accordance with the terms of the order and any case
management or discovery orders entered hereafter.
C. All parties have an interest in the efficient conduct
of discovery with respect to level of assessment issues.
IT IS HEREBY ORDERED:
1. The Court grants the Motion to Consolidate
pursuant to 735 ILCS 5/2-1006 for purposes of discovery
with respect to constitutional issues challenging level of
assessment.
2. The cases subject to this order are consolidated
for the limited purposes of discovery related to level of

43a
Appendix E
assessment issues only. The Court will supervise discovery
on these issues pursuant to Supreme Court Rule 201(c)(2).
All further discovery related to level of assessment issues
shall be conducted within this consolidated proceeding
in accordance with discovery orders to be entered
subsequently in this matter.
3. The list of cases subject to this order on Schedule
A is intended to comprise all pending cases for tax years
2000 - 2008, inclusive, filed on behalf of various plaintiffs
by the law firm of O’Keefe, Lyons & Hynes, LLC, and
challenging assessments on any grounds including but
not limited to level of assessment. In the event a case
intended to be included in Schedule A is found to have
been inadvertently omitted, this order may be amended
to add it, but cases subsequent to tax year 2008 shall not
be added to Schedule A.
4. All intervenors listed on Schedule B may participate
in this consolidated proceeding for the limited purpose
of discovery related to level of assessment issues only,
in accordance with this order and in accordance with
discovery orders to be entered subsequently in this matter.
5. With respect to any and all individual cases subject
to this order, this consolidation for the limited purposes of
discovery related to level of assessment issues only shall
not prevent or interfere with any procedures, including
but not limited to discovery, trial, or other disposition on
issues other than level of assessment, nor shall it prevent
or interfere with settlement on any grounds.

44a
Appendix E
6. Plaintiffs have stipulated in open court that they will
file amended complaints that include uniform allegations
concerning level of assessment issues for all cases included
in Schedule A. The subject properties in the cases subject
to this order are each identified on Schedule A as classified
within one of four major classes under the Cook County
Real Property Assessment Classification Ordinance:
Class 4 (not-for-profit); Class 5a (commercial); Class 5b
(industrial); and Class 2 (single family [etc.] residential).
One amended complaint shall be filed for each of the four
classes of property, and each amended complaint shall
identify by attached schedule listing case numbers of all
cases that are subject to the amended complaint. Such
complaints shall be filed within sixty (60) days from the
entry of this order. As to properties identified on Schedule
A as Class 6b, the plaintiffs stipulate that they are only
alleging constitutional claims as to that portion of the
properties classified as industrial. Thus, the complaint
to be filed as to class 5b shall serve as the complaint for
properties classified as 6b.
7. Pretrial procedures shall be stayed pending
completion of initial discovery requests and responses
and addressed upon appropriate request from the parties.
		
ENTER: /s/
				Judge of the
			
Circuit Court of Cook County

45a
Appendix E
Tax Year
2001
2001
2002
2002
2003
2003
2003
2003
2003
2003
2003
2003
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004

Case #
02 CT 2192
02 CT 2219
03COTO3771
03COTO3793
05COTO1633
05COTO1674
05COTO1675
05COTO1679
05COTO1681
05COTO1685
05COTO1866
05COTO3240
05COTO3854
05COTO3879
05COTO3880
05COTO3886
05COTO3887
05COTO3920
05COTO3938
05COTO3939
05COTO3940
05COTO3942
05COTO3967
05COTO3986
05COTO3997

Class
5A
5B
5A
5B
5B
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
2
5A
5A
5B

46a
Appendix E
Tax Year
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004
2004
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005

Case #
05COTO4003
05COTO4009
05COTO4011
05COTO4016
05COTO4021
05COTO4022
05COTO4028
05COTO4029
05COTO4030
05COTO4031
05COTO4037
07COTO001437
07COTO001438
07COTO001439
07COTO001466
07COTO001473
07COTO001477
07COTO001478
07COTO001480
07COTO001501
07COTO001513
07COTO001520
07COTO001530
07COTO001602
07COTO001617

Class
5A
5A
5a
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5B
5B
2
5B
5A

47a
Appendix E
Tax Year
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2005
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006

Case #
07COTO001618
07COTO001635
07COTO001641
07COTO001642
07COTO001644
07COTO001645
07COTO001646
07COTO001647
07COTO001649
07COTO002852
07COTO002853
07COTO000779
08COTO003813
08COTO003814
08COTO003815
08COTO003818
08COTO003839
08COTO003844
08COTO003853
08COTO003868
08COTO003870
08COTO003873
08COTO003913
08COTO003914
08COTO003921

Class
5A
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5B
5A
5A
5B
5B

48a
Appendix E
Tax Year
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2006
2007
2007
2007

Case #
08COTO003986
08COTO003987
08COTO003992
08COTO003993
08COTO003994
08COTO004014
08COTO004024
08COTO004029
08COTO004030
08COTO004367
08COTO004374
08COTO004377
08COTO004379
08COTO004385
08COTO004386
08COTO004387
08COTO004388
08COTO004389
08COTO005137
08COTO005138
08COTO005144
08COTO005145
08coto005700
09COTO002800
09COTO003822

Class
5A
5A
5B
5A
6B
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A
5B
5A
5A
5A
5A
5a
5a
5a

49a
Appendix E
Tax Year
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007

Case #
09COTO003823
09COTO003828
09COTO003843
09COTO003845
09COTO003847
09COTO003859
09COTO003863
09COTO003880
09COTO003887
09COTO003900
09coto003905
09COTO003908
09COTO003909
09COTO003912
09COTO003921
09COTO003922
09COTO003923
09COTO003926
09COTO003931
09COTO003942
09COTO003945
09COTO003947
09COTO003949
09COTO003950
09COTO003951
09COTO003952

Class
5A
5A
5B
5A
5A
5A
5A
5B
5A
5A
4
5A
5A
2
2
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A

50a
Appendix E
Tax Year
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2007
2008
2008

Case #
09COTO003954
09COTO003955
09COTO004002
09COTO004004
09COTO004013
09COTO004014
09COTO004015
09COTO004016
09COTO004018
09COTO004019
09COTO004023
09COTO004024
09COTO004025
09COTO004042
09COTO004053
09COTO004059
09COTO004061
09COTO005709
09COTO005712
09COTO005715
09COTO005716
09COTO005719
09COTO006182
09COTO006258
10COTO004621

Class
5A
5B
5B
5A
6B
5A
5B
5A
5A
5A
5A
5B
6B
5B
5A
5A
5A
5B
5A
5A
2
5A
5A
5A
5a

51a
Appendix E
Tax Year
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008

Case #
10COTO004623
10COTO004631
10COTO004632
10COTO004633
10COTO004635
10COTO004637
10COTO004639
10COTO004665
10COTO004670
10COTO004671
10COTO004672
10COTO004679
10COTO004680
10COTO004691
10COTO004692
10COTO004693
10COTO004694
10COTO004695
10COTO004705
10COTO004707
10COTO004708
10COTO004715
10COTO004716
10COTO004719
10COTO004720

Class
5a
5B
5B
5A
2
5A
5A
5B
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A

52a
Appendix E
Tax Year
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008

Case #
10COTO004721
10COTO004722
10COTO004723
10COTO004728
10COTO004731
10COTO004740
10COTO004745
10COTO004746
10COTO004747
10COTO004752
10COTO004755
10COTO004756
10COTO004759
10COTO004761
10COTO004763
10COTO004769
10COTO004772
10COTO004773
10COTO004775
10COTO004787
10COTO004800
10COTO004808
10COTO004811
10COTO004813
10COTO004820

Class
5A
5A
5A
5A
5B
5B
5B
5A
5A
4
5A
5A
2
2
5A
2
5A
5A
5A
5A
5A
5A
5A
5B
5B

53a
Appendix E
Tax Year
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008

Case #
10COTO004842
10COTO004845
10COTO004847
10COTO004849
10COTO004850
10COTO004852
10COTO004853
10COTO004854
10COTO004857
10COTO004858
10COTO004859
10COTO004860
10COTO004861
10COTO004862
10COTO004864
10COTO004865
10COTO004866
10COTO004868
10COTO004869
10COTO004870
10COTO004871
10COTO004872
10COTO004873
10COTO004875
10COTO004878

Class
5A
5A
5A
5B
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A

54a
Appendix E
Tax Year
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008

Case #
10COTO004879
10COTO004880
10COTO004881
10COTO004882
10COTO004884
10COTO004885
10COTO004886
10COTO004887
10COTO004888
10COTO004890
10COTO004891
10COTO004893
10COTO004894
10COTO004895
10COTO004896
10COTO004897
10COTO004898
10COTO004899
10COTO004900
10COTO004901
10COTO004902
10COTO004903
10COTO004904
10COTO004910
10COTO004913

Class
5A
5A
5A
5B
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
5A
6B
5A
5A
5A
5B
5a
6b
5A
5A
5A

55a
Appendix E
Tax Year
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008
2008

Case #
10COTO004914
10COTO004915
10COTO004918
10COTO004919
10COTO004920
10COTO004921
10COTO004923
10COTO004925
10COTO004927
10COTO004929
10COTO004930
10COTO004931
10COTO004935
10COTO004936
10COTO005918
10COTO006305
10COTO006306
10COTO006308
10COTO006314
10COTO006315
10COTO006316
10COTO006318
10COTO006319
10COTO006722
10COTO006723

Class
5A
5A
5A
5A
5A
5A
5A
5A
5A
5B
5A
5A
5A
5A
5B
5A
5B
5A
5A
5A
5A
2
5A
5A
5A

56a
Appendix E
schedule b
Intervening Taxing
District
City of Chicago

Counsel for Districts

Mr. Richard Danaher
Mr. Bernard Murphy
City of Chicago
Law Department
30 N. La Salle Street,
Suite 1020
Chicago, Illinois 60602
Chicago Board of Education Ms. Cynthia B. Harris
Board of Education of the
City of Chicago
125 S. Clark Street
Suite 700
Chicago, Illinois 60603
Chicago Board of Education Mr. Ares G. Dalianis
Mr. Michael J. Hernandez
Board of Education of
Consolidated High School Mr. Scott R. Metcalf
Ms. Maria E. Mazza
District No. 230
Franczek Radelet
Board of Education of
300 S. Wacker Drive
Orland School District
Suite 3400
No. 135
Chicago, Illinois 60606
Board of Education of
Township High School
District No. 211
Board of Education of
Schaumburg Community
Consolidated School
District No. 54

57a
Appendix E
Intervening Taxing
District
Board of Education of
Barrington Community
Unit School District
No. 220

Counsel for Districts

Board of Education
Riverside-Brookfield
Township High School
District No. 208
Board of Trustees of
North Riverside Public
Library
Board of Education of
Community Consolidated
School District No. 15
Board of Education of
Niles Township High
School District No. 219
West Northfield School
District No. 31
Riverside Public School
District No. 96
School District No. 215

Mr. Alan M. Mullins
Scariano Himes and
Petrarca
Two Prudential Plaza,
Suite 3100
180 N. Stetson
Chicago, Il1inois
60601-6702

58a
Appendix E
Intervening Taxing
District
Glenbrook High School
District No. 225
Niles Township High
School District 219
Niles School District 71
Village of Orland Park
Orland Fire Protection
District
Orland Park Public
Library
New Trier High School
District No. 203
Wilmette School District
No. 39
Village of Wilmette
Wilmette Park District

Counsel for Districts
Mr. Joel R. DeTella
Sraga Hauser, LLC
19730 Governors Highway
Suite 10
Flossmoor, Illinois
60422-2083
Mr. Donald E. Renner III
Klein, Thorpe and
Jenkins, Ltd.
20 N. Wacker Drive –
Suite 1660
Chicago, Illinois
60606-2903
Mr. Scott L. Ginsburg
Robbins, Schwartz,
Nicholas, Lifton
& Taylor, Ltd.
55 W. Monroe Street,
Suite 800
Chicago, lllinois 60603

59a
Appendix F
APPENDIX F — MEMORANDUM
OPINION AND
ORDER IN THE CIRCUIT COURT OF COOK
COUNTY, ILLINOIS COUNTY DEPARTMENT,
COUNTY DIVISION, DATED JULY 19, 2011
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS COUNTY
DEPARTMENT, COUNTY DIVISION
No. 05 COTO 3938
No. 07 COTO 1618
WOODFIELD REALTY HOLDING
COMPANY, LLC,
Plaintiff-Tax Objector,
v.
MARIA PAPPAS, TREASURER
& COOK COUNTY COLLECTOR,
Defendant.
MEMORANDUM OPINION AND ORDER
I. Background
At issue in this opinion is Defendant Pappas’s “Section
2-615 Motions to Strike and for a More Definite Statment
[sic] in Plaintiff’s First Amended Tax Objection Complaint
and Complaint for Declaratory Judgment and Other
Relief” for tax years 2004 and 2005.

60a
Appendix F
The “First Amended Tax Objection Complaint, and
Complaint for Declaratory Judgment and Other Relief,”
filed March 10, 2010, for tax year 2004 (No. 05 COTO
3938), and filed March 16, 2010, for tax year 2005 (No. 07
COTO 1618), seeks a partial refund of ad valorem real
property taxes for land improved with an eleven-story
multi-tenant office building located at 231 N. Martingale
Road in Schaumburg, Illinois, and containing 294,329
square feet of rentable area. This complaint makes the
following comprehensive allegations:
For the relevant time frame of 2004 and 2005, the
Cook County Board of Commissioners passed the Cook
County Code of Ordinances designating the following
classes and associated percentage levels of assessment to
be multiplied (among other factors) by a taxable parcel’s
full fair market value: Class 2, which includes single-family
residential property, is to be assessed at 16%. Class 5a,
which includes commercial property and property not
included in other classes, is to be assessed at 38%.
Public and private sales ratio studies, which compare
assessed valuations to actual sales within the relevant
market as the most accurate mass appraisal technique,
allegedly reveal that the percentage levels of assessment
mandated by the Cook County Code of Ordinances as
the de jure levels are significantly higher than the de
facto levels of assessment for Plaintiff Woodfield’s own
class, class 5a, and for the lowest class at issue in the
complaint, class 2. Allegedly, class 2 residential property
is consistently assessed at 9% in spite of the legal mandate
that it be assessed at 16%. Plaintiff Woodfield’s own class,

61a
Appendix F
class 5a commercial property, tends toward assessment at
or around 22% for the relevant time period. The statistical
analysis forming one evidentiary basis for the facts alleged
in the complaint purports to be performed at the 95%
probability level.
The complaint alleges that for 2004 and 2005, the
assessor assessed Plaintiff Woodfield’s property at class
5a assessed valuations of $10,943,999 and $10,934,482,
respectively. Based on these two assessed valuations, the
official de jure assessment level (38%) would imply a fair
market value of $29,373,471, while the de facto assessment
level for class 5a (22.5%) would imply a fair market value
of $48,597,698. In actuality the property was appraised
at a fair market value of $14,700,000 as of the first day of
2004, and it later sold for $17,300,000 in an arm’s-length
transaction in 2006.
Plaintiff Woodfield paid taxes based on the specific
assessed valuations above in a timely manner, and the
Cook County Board of Review, the administrative agency
designated for revisiting the assessor’s determinations,
later confirmed them.
Count I alleges that the relevant property’s assessed
valuation reflects a fair market value that is excessive and
“incorrect” within the meaning of the Illinois Property
Tax Code provision for filing tax objection complaints with
the circuit courts, 35 ILCS 200/23-15, and the taxpayer is
therefore entitled to a refund with interest to the extent
that the tax paid was based on the excess portion of the
assessment.

62a
Appendix F
Count II, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 35 ILCS
200/23-15, alleges that the assessed valuation of the
relevant property violates the uniformity clause within
article IX, section 4(b) of the 1970 Illinois Constitution in
that the percentage level applied thereto was in excess
of that applied to the majority of other similarly situated
property within the same classification category, class
5a, established by the Cook County Code of Ordinances.
Although the Cook County Code of Ordinances sets forth
a level of assessment at 38% for class 5a, Cook County
allegedly maintains a de facto assessment system whereby
the assessor intentionally and systematically assesses the
majority of class 5a property at or around 22%. Plaintiff
Woodfield asserts a constitutional right to this same level
of assessment, applied to members of the same class of
similarly situated property, under the uniformity clause
of the state constitution, Ill. Const. 1970, art. IX, § 4(b),
in spite of whatever de jure level of assessment the Cook
County Code of Ordinances sets forth. The taxpayer is
therefore entitled to a refund with interest to the extent
that the tax paid was based on an assessed valuation
that exceeded the lower percentage level required by the
uniformity clause of the state constitution.
Count III, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 35 ILCS
200/23-15, alleges that the assessed valuation of the
relevant property violates the 2 1 /2 -to-1 clause within
article IX, section 4(b) of the 1970 Illinois Constitution,
which prohibits a county from maintaining an assessmentclassification system whereby the percentage level of
assessment applied to the highest class is more than

63a
Appendix F
2 1/2 times that applied to any other lower class. Plaintiff
Woodfield asserts that because the Cook County assessor
maintains a de facto assessment regime in which the
majority of class 2 residential property is intentionally and
systematically assessed at 9%, no other class or member of
a class may be assessed at a rate significantly higher than
22.5%. Because Plaintiff Woodfield has been assessed at
higher than 22.5%, its tax bills for 2004 and 2005 violate
the 2 1/2 -to-1 clause within the state constitution, and the
taxpayer is therefore entitled to a refund, with interest,
to the extent that the tax paid was based on an assessed
valuation that exceeded the maximum assessment level
of 22.5%.
Count IV, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 35 ILCS
200/23-15, states essentially the same claim and theory as
Count II, except that the basis for the taxpayer claiming
a legal right to have the same lower percentage level of
assessment as all other similarly situated property within
the same class is derived from the federal constitution the Fourteenth Amendment’s Equal Protection Clause,
U.S. Const. amend. XIV, § 1 (“No state shall … deny to
any person within its jurisdiction the equal protection of
the laws.”) - rather than from the state constitution’s
uniformity clauses.
II. Motion to Strike Specified Allegations
Under 735 ILCS 5/2-615
The first portion of Defendant Pappas’s motion to
strike requests that specified allegations in the tax

64a
Appendix F
objection complaint be stricken, pursuant to 735 ILCS
5/2-615, for the reasons detailed below.
A. Legal Standards for Striking Complaint Allegations
Pursuant to 735 ILCS 5/2-615
First, Defendant Pappas contends that complaints can
only state ultimate facts to meet the sufficiency standard,
not supporting evidence. Defendant Pappas’s theory is
that because supporting evidence is unnecessary to state
a valid cause of action, allegations containing evidence that
may later be used at trial are subject to being stricken
under 735 ILCS 5/2-615.
We will begin with the usual rules utilized to resolve
735 ILCS 5/2-615 motions and then compare them to
the request made in this motion. Typically, case law
concerning 5/2-615 states that conclusions, labels, and
characterizations will not suffice for the presence of
specific, or well-pleaded, facts. Adkins v. Sarah Bush
Lincoln Health Center, 129 Ill. 2d 497, 519-20 (1989); Ozuk
v. River Grove Bd. of Educ., 281 Ill. App. 3d 239, 244-45
(1st Dist. 1996); Oropeza v. Board of Educ., 238 Ill. App.
3d 399, 402 (1st Dist. 1992); Majewski v. Chicago Park
Dist., 177 Ill. App. 3d 337, 340-41 (1st Dist. 1988). Some
precedent similarly states that conclusions of fact are
not a substitute for specific factual allegations. Winfrey
v. Chicago Park Dist., 274 Ill. App. 3d 939, 943 (1st Dist.
1995); Benhart v. Rockford Park Dist., 218 Ill. App. 3d
554, 556-57 (2d Dist. 1991); Friedman v. Krupp Corp.,
282 Ill. App. 3d 436, 440 (1st Dist. 1996). Thus, a general
preference for specificity in the 5/2-615 case law is clear.

65a
Appendix F
However, the authority on which Defendant Pappas
relies states that “[i]n Illinois a pleader is not required
to set forth his evidence.” Zeitz v. Village of Glenview,
227 Ill. App. 3d 891, 894 (1st Dist. 1992); see also Board
of Education v. Kankakee Federation of Teachers, 46 Ill.
2d 439, 446 (1970). To say that a pleader is not required to
plead his evidence is, however, quite different from saying
that he is prohibited or barred from pleading evidence.
The principle from Zeitz is often invoked, as it was in that
case, when a defendant complains that the plaintiff has
not pled enough or stated allegations with sufficient detail,
and the reviewing court disagrees with the pleading’s
sufficiency and then states that the complaining defendant
is asking for the pleading of evidence, meaning that the
claim should instead proceed. E.g., Zeitz, 227 Ill. App. 3d
at 894-98. Here, the defendant is not complaining that the
plaintiff has not pled enough information or detail; rather,
she is complaining that the plaintiff has pled too much. An
entirely different set of principles are at play. By contrast
to deficient pleading, voluntarily pleading evidence does
accomplish the goal of presenting, defining, and narrowing
issues for trial and limiting the proof needed therefor
(albeit in ways that may be undesirable for a defendant
or have troubling implications). It is vague, ambiguous
pleadings that tend to defeat the goal of defining issues for
trial, which is why the Illinois courts hold that a plaintiff,
at a bare minimum, must plead sufficient ultimate facts
on every element of every claim stated. But those typical
5/2-615 holdings were setting a floor for keeping a case
alive in the courthouse, not a ceiling. The plaintiff in this
matter has, generally speaking, satisfied and exceeded
the floor requirement, and any debates over what are or

66a
Appendix F
are not “ultimate” facts instead become meaningless and
unproductive at this (or really any) stage of litigation.
Therefore, the Court will not strike any particular
allegations for the reason that they are not “ultimate facts”
or because they constitute evidence. As the court stated
in McCarthy v. Allstate Ins. Co., 76 Ill. App. 3d 320, 324
(1st Dist. 1979), “Defendant did not allege below nor does
defendant argue on appeal that plaintiff failed to allege
facts sufficient to state a cause of action. Moreover, it
would appear that although the evidentiary facts pleaded
by plaintiff were not necessary to the pleading, they did
not detract from plaintiff’s cause of action.”
These conclusions do not mean that certain types
of allegations can never be stricken from a complaint,
and Defendant Pappas’s motion does occasionally allude
to a proper ground for striking allegations: materiality,
often known as relevance. One way an allegation could be
stricken from an otherwise sufficient pleading is when it
is completely “immaterial” or irrelevant, and the Court
is able to confidently make that determination before
discovery has even occurred. For instance, Browning v.
Heritage Ins. Co., 33 Ill. App. 3d 943, 948 (2d Dist. 1975),
does support the striking of surplus and unnecessary
allegations, but it does so on the basis of the matter being
“immaterial.” See also 735 ILCS 5/2-615(a) (motion may
request “that designated immaterial matter be stricken
out”); McCarthy v. Allstate Ins. Co., 76 Ill. App. 3d 320, 324
(1st Dist. 1979). The materiality standard will therefore
be used to evaluate the specific requests to strike various
allegations.

67a
Appendix F
B. Application of Materiality Standard to the Motion’s
Request to Strike Specific Allegations
Defendant Pappas’s motion explains how the cause of
action represented by an Illinois tax objection complaint
concerns one tax year at a time, while the allegations in
the complaint refer to tax years before and after the tax
year at issue therein. Pappas demands that allegations
pertaining to the previous and subsequent tax years be
stricken from each complaint as immaterial.
The Property Tax Code creates a mechanism for the
“court, sitting without a jury, [to] hear and determine all
objections specified to the taxes, assessments, or levies in
question.” 35 ILCS 200/23-15. The objection in Count IV
of the complaint is based on the taxpayer’s federal rights
under the Equal Protection Clause of the Fourteenth
Amendment to the U.S. Constitution and under Allegheny
Pittsburgh Coal Co. v. County Com., 488 U.S. 336, 34446 (1989), which generally require that a taxpayer’s real
property be assessed at the same percentage or proportion
at which other property within the same class was
assessed, regardless of whether or not those parcels were
sold. In construing the federal right, the U.S. Supreme
Court referred to the rate of time required for bringing
a taxpayer’s level of assessment into uniformity with any
remainder of the class subject to a lower level: “As long
as general adjustments are accurate enough over a short
period of time to equalize the differences in proportion
between the assessments of a class of property holders,
the Equal Protection Clause is satisfied.” Id. at 343.
“Petitioners’ property has been assessed at roughly 8 to

68a
Appendix F
35 times more than comparable neighboring property, and
these discrepancies have continued for more than 10 years
with little change.” Id. at 344. “The relative undervaluation
of comparable property in Webster County over time
therefore denies petitioners the equal protection of the
law.” Id. at 346. It is not clear why the timing and rate of
correction at which the disparate-assessment impact is
alleviated can be considered in a description of the federal
constitutional right but not considered in a taxpayer’s tax
objection complaint raising the same right.
Additionally, a taxpayer’s assertions concerning
recent tax years are material because they tend to bolster
its allegation of general intent to discriminate with respect
to the tax year at issue in the tax objection complaint.
The Court previously ruled that the general-intent-todiscriminate element of the federal constitutional claim
could simply be inferred from any evidence showing that
the taxpayer’s assessment level created a disparate impact
on its property compared to the remainder of the same
class. See also Long Island Lighting Co. v. Brookhaven,
889 F.2d 428, 432 (2d Cir. 1989). While this ruling and
conclusion continue to stand, it becomes important not to
bar other forms of evidence tending to prove a general
intent to discriminate for the year at issue, especially in
light of the prohibition in 35 ILCS 200/23-15(b)(3) against
the use of evidence pertaining directly to the assessor’s
methodology, intent, and motivation. Whenever a pattern
emerges showing that other property in the same class
was underassessed for a period of years that includes
the year at issue in the complaint, any claim that such
underassessment was an anomaly or an inadvertent

69a
Appendix F
result for that year becomes less credible. Furthermore,
allegations concerning patterns and trends encompassing
other tax years can be material or relevant in considering
the existence of intentional conduct for the tax year
at issue. Such evidence is also not explicitly barred in
the same way that direct evidence of the assessor’s
methodology, intent, and motivation has been barred.
In contrast, allegations concerning the percentage
levels of assessment for classes other than Class 5a
stand on a different footing. The constitutional rights to
uniform and equal levels of assessment pertain only to the
complaining taxpayer’s class and not to other classifications
of property that can withstand rational-basis review. See.
Ill. Const. 1970, art. IX, § 4(b); Allegheny Pittsburgh Coal
Co. v. County Com., 488 U.S. 336, 344-45 & n.4 (1989).
Therefore, other classes are irrelevant to Count II and
Count IV.
The Count III claim under the 2 1 /2 -to-1 clause in
article IX, section 4 of the 1970 Illinois Constitution could
in theory bring into play the assessments for any other
class that enjoys a de facto level of assessment that is
outside of and below the prescribed range. As a practical
matter, the class assigned the lowest percentage level,
Class 2 single-family residential property, will present the
best target for a taxpayer’s claim that its rights under the
2 1/2 -to-1 clause have been violated. In actuality, the Count
III claim does formulate the allegations with respect to
Class 2 property and none other, making the assessments
for Class 2 property material.

70a
Appendix F
For the foregoing reasons, all allegations pertaining
to classes other than Class 2 and Class 5a- namely, Class
5b industrial property and Class 3 residential rental
property - will be deemed immaterial and irrelevant and
stricken from the complaint accordingly. To the extent
that this information is incorporated in preexisting
documents apart from the pleadings, such information
can be simply disregarded by the parties and the Court
in future litigation, while the complaint can be amended to
reflect the changes required after the Court orders that
those specific allegations be stricken.
Defendant Pappas requests that a series of paragraphs
beginning with paragraph 24 and ending with paragraph
36 be stricken from the amended complaint. In summary,
these paragraphs allege substantially as follows:
The complaint contends that the assessor assessed
Class 2 residential property at or around 9% of the
actual full fair market value; however, a completely
different, lower set of full fair market values (or “fictitious
‘market values”’) were listed in public records to give
the appearance that the assessor assessed residential
property at or around the ordinance level of 16%, although
a multiplication factor of 9% would have produced the
same assessed valuations listed for Class 2 properties if
the actual full fair market values of Class 2 properties
were utilized to calculate respective tax liabilities. The
actual tax bills sent to Class 2 taxpayers displayed the
false, lower sets of full fair market values to create the
appearance that the class had been assessed at the level of
16% mandated by the applicable ordinance, concealing the

71a
Appendix F
fact that the assessed valuation was in reality the product
of a more accurate full fair market value multiplied by a
factor of 9%.
Similarly, the Illinois Property Tax Appeal Board,
relying on the Illinois Department of Revenue’s sales
ratio studies’ three-year adjusted average, applied a 10%
level of assessment to reviews of assessments for Class
2 properties.
The maintenance of assessment levels differing from
the actual, formal ordinance levels of assessment created a
de facto regime of assessment levels for Class 2 and Class
5a that were not publicly known or acknowledged prior
to 2008. Taxpayers burdened with the imposition of the
higher 38% ordinance level of assessment experienced
difficulty obtaining constitutionally required correction
through administrative proceedings because of the
obscurity of the de facto levels of assessment.
This situation subsisted from the time of the tax
years at issue in the 2004 and 2005 complaints until the
Cook County Board of Commissioners amended the
classification ordinance in September 2008, effective
January 1, 2009, to substantially and in effect merge the
aforementioned de facto percentage levels with the official
ordinance levels of assessment consisting of 10% for Class
2 properties and 25% for Class 5a properties. Statements
of both the county assessor and the Cook County Board
of Commissioners tended to confirm the merger of the
aforementioned de facto percentage levels with the new
official ordinance levels of assessment. In April 2008,

72a
Appendix F
the county assessor publicly proposed that the county
board redesignate percentage levels of assessment, to
be applied to full fair market value as described above,
though the explicit change in the officially mandated
level was not expected to change taxpayers’ assessed
valuations (and, ultimately, their tax liabilities) due to
the fact that the previous de jure percentage levels had
not been applied to full fair market value. Statements by
members of the Cook County Board of Commissioners
Finance Committee during September 2008 were to a
similar effect, emphasizing that the ordinance amendment
creating the new percentage levels of 10% and 25% for the
two classes would not itself alter the assessed valuation
or the tax based thereon.
According to the complaint, the storyline for the entire
decade describes a set of circumstances that plausibly
affected the included years of 2004 and 2005 now at
issue. Although individual sentences might be technically
immaterial and tend to stray impliedly into Class 2 issues
for which only Class 2 members would have standing to
complain, the Court will not parse individual sentences. As
a whole, these allegations, if taken as true and construed
in favor of the taxpayer-plaintiff, tend to support an
inference that during tax years 2004 and 2005, the de facto
level of assessment for Class 2 property was 9% to 10%
rather than 16%, while the de facto level of assessment
for Class 5a property was around 22% to 25% rather than
38%. These conclusions would in turn support Plaintiff
Woodfield’s claim that any assessment of its property
at the 38% ordinance level for tax years 2004 and 2005
would violate its rights under the uniformity clause within

73a
Appendix F
article IX, section 4(b) of the 1970 Illinois Constitution
(Count II) and under the 2 1/2 -to-1 clause within the same
provision (Count III). Therefore, paragraphs 24 through
36 contain allegations that are material or relevant to this
litigation and cannot be stricken under 735 ILCS 5/2-615.
Finally, these allegations need not be utilized to establish
the intent or methodology of the assessor in violation of
35 ILCS 200/23-15 to the extent that they support the
mere existence of the aforementioned de facto levels of
assessment for Class 2 and Class 5a, regardless of intent,
which in turn lends support to Plaintiff Woodfield’s claims.
The motion to strike paragraphs 24 through 36 will be
denied accordingly.
Finally, a brief, ad hoc discussion of two other
paragraphs will resolve their potential relevance to this
case. Paragraph 11 alleges that the Cook County Board
of Review reviewed, adjusted, and lowered a relatively
small percentage of the assessor’s total assessments (less
than 16%) that would be at issue for the 2004 and 2005 tax
years (and also at issue for previous and subsequent tax
years establishing any pattern or trend). If all inferences
are drawn in favor of the nonmovant, a trier of fact could
conclude from this allegation that Cook County - as a whole
that includes its subsequent, designated administrative
procedure - largely failed to resolve whatever legal
problem the county assessor created by assessing certain
classes at a percentage level lower than that mandated
by the applicable county ordinance, as explained above.
Paragraph 15 alleges that, from 2000 to 2008, the
Class 2 residential properties grew to become a higher

74a
Appendix F
and higher percentage of the entire county’s assessedvaluation tax base, while the Class 5a commercial property
became a lower percentage of the entire assessed valuation
of the county’s tax base. Although this paragraph does
drift away from what the pivotal factual issues will be in
this case, if the allegation is construed in the light most
favorable to the nonmovant, one could conclude that a
class that grew to become a more substantial portion of
the base of property being taxed was in fact being given
a significant tax break, while certain members of a class
that was becoming a diminished portion of the tax base
were not given a similar break, leaving them saddled with
a larger tax burden. This inference could, in turn, lend
support to an explanation of how and why a claim under
the 2 1/2 -to-1 clause came into existence, making it more
plausible.
III. Motion for More Definite Prayers for Relief
Pursuant to 735 ILCS 5/2-615 and 2-604
Defendant Pappas has also requested a more definite
pleading under 735 ILCS 5/2-615(a), relying on the 5/2604 regulation of the prayer for relief. Defendant Pappas
demands that Plaintiff Woodfield specify the market value,
assessment level, assessed valuation, and refund sought
under each and every count.
The applicable provision provides as follows:
Prayer for relief. Every count in every complaint
and counterclaim shall contain specific prayers
for the relief to which the pleader deems himself

75a
Appendix F
or herself entitled except that in actions for
injury to the person, no ad damnum may
be pleaded except to the minimum extent
necessary to comply with the circuit rules of
assignment where the claim is filed. Relief may
be requested in the alternative…. In actions
for injury to the person, any complaint filed
which contains an ad damnum, except to the
minimum extent necessary to comply with the
circuit rules of assignment where the claim
is filed, shall, on motion of a defendant or on
the court’s own motion, be dismissed without
prejudice. Except in case of default, the prayer
for relief does not limit the relief obtainable, but
where other relief is sought the court shall, by
proper orders, and upon terms that may be just,
protect the adverse party against prejudice by
reason of surprise….
Nothing in this Section shall be construed as
prohibiting the defendant from requesting of
the plaintiff by interrogatory the amount of
damages which will be sought.
735 ILCS 5/2-604. Thus, prayers for relief must be
“specific,” unless the claim is an “action[] for injury to the
person,” in which case the amount demanded cannot and
should not be specified apart from the minimum required
for complying with the circuit court rules enabling case
assignment within the court. The issue becomes whether
an action for injury to the person only contemplates actual
physical injury or any form of injury, such as economic or

76a
Appendix F
monetary injury without physical injury. The precedent
interpreting 735 ILCS 5/2-604 is not particularly well
developed. Johnson v. Lincoln Christian College, 150
Ill. App. 3d 733, 747-748 (4th Dist. 1986), compared an
application of this rule involving a claim for tortious
interference with contractual rights to an application of
the rule involving a claim for actual physical, personal
injury. The court concluded that a cause of action for
tortious interference with contractual rights was governed
by the general rule that prayers for relief “must be
specific” rather than the exception for an “action[] for
injury to the person.” The four causes of action in this case
demanding monetary relief in the form of a tax refund are
more akin to the cause of action for tortious interference
with contractual rights than to any cause of action for
actual physical injury to a person. Therefore, the Court
will apply the general rule that prayers for relief must
be specific.
The specificity can but need not include every piece of
information demanded by Defendant Pappas in her motion
to strike. The prayer for relief must make any specific
numeric assertion that could be reasonably deemed
“specific” in the context of this type of civil action. As
stated in the statute, and as correctly argued by Plaintiff
Woodfield in opposition, the relief demanded in the prayer
does not limit the ultimate recovery in the event that the
evidence at trial justifies a different, greater, or lesser
amount. Also, greater specificity can always be sought in
an interrogatory, as noted by the rule. Those points being
made, at this particular stage of the litigation, Defendant
Pappas has posed a valid objection to a pleading based on

77a
Appendix F
735 ILCS 5/2-604, and that objection will be sustained and
the pleadings amended accordingly.
ORDER
Having considered the briefs and oral arguments of the
parties, the Court hereby orders the following disposition
of Defendant Pappas’s “Section 2-615 Motions to Strike
and for a More Definite Statment [sic] in Plaintiff’s First
Amended Tax Objection Complaint and Complaint for
Declaratory Judgment and Other Relief”:
1.

The motion to strike allegations pertaining to
assessment classes other than Class 2 and Class
5a property is GRANTED.

2.

The motion for a more definite statement of the
prayer for relief for each count of the tax objection
complaint is GRANTED.

3.

The remaining portions of the 2-615 motion to
strike are DENIED.

Date: July 19, 2011

Enter:
/s/		
		
Judge Alfred J. Paul

78a
Appendix G
APPENDIX G — MEMORANDUM
OPINION AND
ORDER IN THE CIRCUIT COURT OF COOK
COUNTY, ILLINOIS, COUNTY DEPARTMENT,
COUNTY DIVISION, DATED JUNE 2, 2011
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT
COUNTY DIVISION
No. 05 COTO 3938
No. 07 COTO 1618
WOODFIELD REALTY
HOLDING COMPANY, LLC,
Plaintiff-Tax Objector,
v.
MARIA PAPPAS, TREASURER
& COOK COUNTY COLLECTOR,
Defendant.
MEMORANDUM OPINION AND ORDER
I. Background
At issue in this opinion is Defendant Pappas’s “Section
2-619.1 Motion to Dismiss Plaintiff’s First Amended
Tax Objection Complaint and Complaint for Declaratory
Judgment and Other Relief Under 42 U.S.C. § § 1983
and 1988.” Except as noted in this opinion, the facts,

79a
Appendix G
arguments, and analysis apply to both tax years 2004 and
2005 and both captioned tax objection complaints before
this Court.
The “First Amended Tax Objection Complaint, and
Complaint for Declaratory Judgment and Other Relief,”
filed March 10, 2010, for tax year 2004 (No. 05 COTO
3938), and filed March 16, 2010, for tax year 2005 (No. 07
COTO 1618), seeks a partial refund of ad valorem real
property taxes for land improved with an eleven-story
multi-tenant office building, located at 231 N. Martingale
Road in Schaumburg, Illinois, and containing 294,329
square feet of rentable area. This complaint makes the
following comprehensive allegations:
For the relevant time frame of 2004 and 2005, the
Cook County Board of Commissioners passed the Cook
County Code of Ordinances designating the following
classes and associated percentage levels of assessment to
be multiplied (among other factors) by a taxable parcel’s
full fair market value: Class 2, which includes single-family
residential property, is to be assessed at 16%. Class 5a,
which includes commercial property and property not
included in other classes, is to be assessed at 38%.
Public and private sales ratio studies, which compare
assessed valuations to actual sales within the relevant
market as the most accurate mass appraisal technique,
allegedly reveal that the percentage levels of assessment
mandated by the Cook County Code of Ordinances as
the de jure levels are significantly higher than the de
facto levels of assessment for Plaintiff Woodfield’s own

80a
Appendix G
class, class 5a, and for the lowest class at issue in the
complaint, class 2. Allegedly, class 2 residential property
is consistently assessed at 9% in spite of the legal mandate
that it be assessed at 16%. Plaintiff Woodfield’s own class,
class 5a commercial property, tends toward assessment at
or around 22% for the relevant time period. The statistical
analysis forming one evidentiary basis for the facts alleged
in the complaint purports to be performed at the 95%
probability level.
The complaint alleges that for 2004 and 2005, the
assessor assessed Plaintiff Woodfield’s property at
class 5a commercial levels of 10,943,999 and 10,934,482,
respectively. Based on these two assessed valuations, the
official de jure assessment level (38%) would imply a fair
market value of $29,373,471, while the de facto assessment
level for class 5a (22.5%) would imply a fair market value
of $48,597,698. In actuality the property was appraised
at a fair market value of $14,700,000 as of the first day of
2004, and it later sold for $17,300,000 in an arm’s­length
transaction in 2006.
Plaintiff Woodfield paid taxes based on the specific
assessed valuations above in a timely manner, and the
Cook County Board of Review, the administrative agency
designated for revisiting the assessor’s determinations,
later confirmed them.
Count I alleges that the relevant property’s assessed
valuation reflects a fair market value that is excessive and
“incorrect” within the meaning of the Illinois Property
Tax Code provision for filing tax objection complaints with

81a
Appendix G
the circuit courts, 3S ILCS 200/23-15, and the taxpayer is
therefore entitled to a refund with interest to the extent
that the tax paid was based on the excess portion of the
assessment.
Count II, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 3S ILCS
200/23-15, alleges that the assessed valuation of the
relevant property violates the uniformity clause within
article IX, section 4(b) of the 1970 Illinois Constitution in
that the percentage level applied thereto was in excess
of that applied to the majority of other similarly situated
property within the same classification category, class
5a, established by the Cook County Code of Ordinances.1
Although the Cook County Code of Ordinances sets forth
a level of assessment at 38% for class 5a, Cook County
allegedly maintains a de facto assessment system whereby
the assessor intentionally and systematically assesses the
majority of class 5a property at or around 22%. Plaintiff
Woodfield asserts a constitutional right to this same level
of assessment, applied to members of the same class of
similarly situated property, under the uniformity clause
of the state constitution, Ill. Const. 1970, art. IX, § 4(b),
in spite of whatever de jure level of assessment the Cook
County Code of Ordinances sets forth. The taxpayer is
therefore entitled to a refund with interest to the extent
that the tax paid was based on an assessed valuation
1. The official classification ordinance for real-property
assessment and taxation is required by statute enacted by the state
legislature, 35 ILCS 200/9-150, pursuant to authority granted in
the same constitutional provision, section 4(b), on which Count II
is based, see Ill. Const. 1970, art. IX, § 4(b).

82a
Appendix G
that exceeded the lower percentage level required by the
uniformity clause of the state constitution.
Count III, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 35 ILCS
200/23-15, alleges that the assessed valuation of the
relevant property violates the 2 1 /2 -to-1 clause within
article IX, section 4(b) of the 1970 Illinois Constitution,
which prohibits a county from maintaining an assessmentclassification system whereby the percentage level of
assessment applied to the highest class is more than
2 1/2 times that applied to any other lower class. Plaintiff
Woodfield asserts that because the Cook County assessor
maintains a de facto assessment regime in which the
majority of class 2 residential property is intentionally
and systematically assessed at 9%, no other class or
member of a class may be assessed at a rate significantly
higher than 22.5%. Because Plaintiff Woodfield has been
assessed at higher than 22.5%, its tax bill for 2004 violates
the 2 1/2 -to-1 clause within the state constitution, and the
taxpayer is therefore entitled to a refund, with interest,
to the extent that the tax paid was based on an assessed
valuation that exceeded the maximum assessment level of
22.5%, as required by article IX, section 4(b) of the 1970
Illinois Constitution.
Count IV, also brought by means of the mechanism
provided by the Illinois Property Tax Code, 35 ILCS
200/23-15, states essentially the same claim and theory as
Count II, except that the basis for the taxpayer claiming
a legal right to have the same lower percentage level of
assessment as all other similarly situated property, i.e.,

83a
Appendix G
as other members of the same class, is derived from the
federal constitution- the Fourteenth Amendment’s Equal
Protection Clause, U.S. Const. amend. XIV, § 1 (“No
state shall … deny to any person within its jurisdiction the
equal protection of the laws.”)– rather than from the state
constitution’s uniformity clauses.
Similarly, Count Vis based on the same underlying
legal right under the U.S. Constitution’s Equal Protection
Clause as is stated in Count IV (and is also similar to
Count II in many respects). However, Count V is the only
count not brought pursuant to the tax-objection- complaint
mechanism provided by the Illinois Property Tax Code, 35
ILCS 200/23-15. Instead, in Count V, Plaintiff Woodfield
asserts its rights under federal law, in the alternative
to the relief demanded in Count IV, pursuant to the
mechanism provided in 42 U.S.C. § 1983, which also
potentially triggers attorney’s fees and costs pursuant to
42 U.S.C. § 1988 in the event the plaintiff prevails. Because
federal law requires that, in the context of state and local
taxation, a taxpayer may maintain an action under 42
U.S.C. § 1983 if and when the state fails to provide an
adequate remedy at law for vindicating the underlying
federal right giving rise to the taxpayer’s claim, Plaintiff
Woodfield has pled that Count V satisfies this element or
requirement in the event that restrictions built into the
Illinois Property Tax Code result in the Count IV claim
based on the Fourteenth Amendment’s Equal Protection
Clause being not actionable. Specifically, Plaintiff
Woodfield asserts that the Illinois Property Tax Code
does not provide an adequate legal remedy for vindicating
its federal right to the extent that 35 ILCS 200/23-10 and
23-15 render the federal claim inactionable as a result

84a
Appendix G
of their prohibition against the review of assessment
methodologies, techniques, and procedures of assessing
officials and of such officials’ intent and mental processes.
Defendant Pappas has filed the combined motion now
at issue under 735 ILCS 5/2-619.1, 2 attacking every count
except for Count I. The different standards for dismissal
and arguments pertaining separately to Counts II, III,
IV, and V will be discussed in each section as necessary.
II. Motion to Dismiss Count III as Legally
Insufficient to State a Cause of Action Under
735 ILCS 5/2-615
Count III of the First Amended Tax Objection
Complaint, as detailed above, asserts a right to a tax
refund as a result of the county government’s alleged
violation of article IX, section 4(b) of the 1970 Illinois
Constitution, which provides as follows:
2.
Combined motions. Motions with respect to pleadings
under Section 2-615 [735 ILCS 5/2-615], motions
for involuntary dismissal or other relief under
Section 2-619 [735 ILCS 5/2-619], and motions for
summary judgment under Section 2-1005 [735 ILCS
5/2-1 005] may be filed together as a single motion in
any combination. A combined motion, however, shall
be in parts. Each part shall be limited to and shall
specify that it is made under one of Sections 2-615,
2-619, or 2-1005. Each part shall also clearly show the
points or grounds relied upon under the Section upon
which it is based.
735 ILCS 5/2-619.1.

85a
Appendix G
(b) Subject to such limitations as the General
Assembly may hereafter prescribe by law,
counties w ith a population of more than
200,000 may classify or continue to classify
real property for purposes of taxation. Any
such classification shall be reasonable and
assessments shall be uniform within each
class. The level of assessment or rate of tax of
the highest class in a county shall not exceed
two and one-halftimes the level of assessment
or rate of tax of the lowest class in that county.
Real property used in farming in a county shall
not be assessed at a higher level of assessment
than single family residential real property in
that county….
Ill. Const. 1970, art. IX, § 4(b). Also relevant to Count III
is the Illinois General Assembly’s later enactment of the
following limitation on a county’s ability to classify real
property for purposes of taxation:
Classification of property. Where property is
classified for purposes of taxation in accordance
with Section 4 of Article IX of the Constitution
and with such other limitations as may be
prescribed by law, the classification must be
established by ordinance of the county board.
If not so established, the classification is void.
35 ILCS 200/9-150 (originally enacted as Public Act
78-700, 1973 Ill. Laws 2107-08 (approved September
10, 1973; effective January 1, 1974)). As a consequence

86a
Appendix G
of the timing of this statute, once the ratification of
the 1970 Illinois Constitution occurred, tax years 1971,
1972, and 1973 were governed by the above section 4(b)
constitutional provision but were not directly governed
by any statutes or ordinances. Starting with tax year
1974, 35 ILCS 200/9-150 required a classifying county
to classify explicitly by action of the county board. In
compliance with this statute, Cook County enacted the
Real Property Assessment Classification Ordinance.
This ordinance was first effective for tax year 1974. See
People ex rel. Rosewell v. United States Steel Corp., 86
Ill. App. 3d 117, 125 (1st Dist. 1980). For tax years 2004
and 2005, the relevant version of the Real Property
Assessment Classification Ordinance designated Class
2 as the class containing most single-family residential
property, while Class 5a contained property not falling
in any other delineated category, including many parcels
of commercial-use property such as Plaintiff Woodfield’s
property. See Cook County Real Property Assessment
Classification Ordinance, Ordinances & Resolutions of
the County of Cook, ch. 13-14 (1990) (assessment classes);
see also Chicagoland Chamber of Commerce v. Pappas,
378 Ill. App. 3d 334, 338 (1st Dist. 2007). The ordinance
mandated that the county assessor and county board of
review assess Class 2 at 16% of fair cash value and assess
Class 5a at 38% of fair cash value. See Ordinances &
Resolutions of the County of Cook, ch. 13-15 (1990) (market
value percentages). 3
3. After 1990, an official volume of Cook County ordinances
was not republished until 2006, after the tax years at issue herein.
The Cook County Real Property Assessment Classification
Ordinance was amended several times after 1990 without altering
the basic information described in this paragraph.

87a
Appendix G
1. The 2 1/2 -to-1 Clause and the Sixth Illinois
Constitutional Convention Debates
Defendant Pappas has filed a motion requesting
dismissal of Count III pursuant to 735 ILCS 5/2-615 for
failure to state a legally cognizable claim. The first major
Count III issue raised is whether the 2 1/2 -to-1 clause in
section 4(b) creates a right that an individual Illinois
taxpayer can enforce against the executive branch of the
government by resort to a remedy from the judiciary.
Defendant Pappas contends that the provision applies
only to entire classes of property within a county, not to
an individual member of those classes whose particular
parcel falls outside the prescribed assessment-level
range after the taxpayer’s percentage level is compared
to a lower class’s level. That is, her position is that no
private cause of action exists under the 2 1/2 -to-1 clause in
section 4(b). Defendant Pappas highlights the language
of the provision itself to support her argument that
the restriction functions only with respect to classes
as a whole and not to individual taxpayers: “The level
of assessment or rate of tax of the highest class in a
county shall not exceed two and one-half times the level
of assessment or rate of tax of the lowest class in that
county.” Ill. Const. 1970, art. IX, § 4(b) (emphasis added).
Similarly, Defendant Pappas relies on statements to
the same effect in the legislative history: “The two and
one-half to one ratio which is applicable to any county
adopting a classification system will act as a safeguard
to prevent any class of property from being singled out
for repressive taxation.” Sixth Illinois Constitutional
Convention Committee on Revenue and Finance, Report

88a
Appendix G
of the Committee on Revenue and Finance Supporting
Recommended Revenue Article Including Dissenting
Statements and Minority Proposals: Proposal Number
2, at 58 (1970); see also 3 Record of Proceedings, Sixth
Illinois Constitutional Convention 1904 (John W. Lewis,
Secretary of State) (statement of Vice-President Lyons).
These passages emphasize the nature of the provision
as being one regulating classes and do not specifically
address its application in situations involving individual
taxpayers demanding relief.
On some level, Defendant Pappas is right: The 2 1/2 to-1 clause does put a limit on the percentage level of
assessment applied to a class of real property as compared
to any class assigned a lower percentage level. It does
regulate assessment classes in the aggregate. Defendant
Pappas contends that this conclusion ends the analysis
in favor of the conclusion that Count III does not state a
legally cognizable claim. However, as the Court sees it,
the issue is really whether, as part thereof , members of
the higher class can assert a right to enforcement of the
clause if and when they can establish that they fall above
the constitutionally designated range as compared to
any aggregated lower class’s level of assessment. This
statement of the issue is really a subsidiary and more
precise question when compared to the issue as Defendant
Pappas has framed it and resolved it. Defendant Pappas’s
view does not necessarily have to be erroneous for Plaintiff
Woodfield’s view of the issue to also be correct. From time
to time, and in different contexts, courts must address
whether members of a class can assert rights as a member
of that class. E.g., Duncan v. National Tea Co., 14 Ill. App.

89a
Appendix G
2d 280, 294-96 (1st Dist. 1957) (stockholder suing on behalf
of other stockholders to enforce a corporation’s right,);
Cox v. Shupe, 41 Ill. App. 2d 413, 420-21 (4th Dist. 1963)
(members of unincorporated voluntary associations must
sue and be sued separately, not aggregately, at least when
the action is at law and not in equity); Metzger v. DaRosa,
209 Ill. 2d 30, 36 (2004) (considering the plaintiffs class
membership in determining whether he has an implied
private right of action under the Illinois Personnel Code);
Fisher v. Lexington Health Care, 188 Ill. 2d 455, 460
(1999) (same question under the Nursing Home Care Act);
Corgan v. Muehling, 143 Ill. 2d 296, 313-315 (1991) (same
question under the Psychologist Registration Act).
In the case at bar, the constitutional provision at
issue does not specify who can enforce the right of the
disadvantaged class, under what circumstances a violation
of the provision may be rectified, or what remedies or
mechanisms would be permissible when a violation of the
provision exists. Thus, the 2 1/2 -to-1 clause does contain a
certain degree of ambiguity, and this ambiguity permits
a consideration of the constitutional history of the clause:
Generally, the rules of statutory construction
a re appl icable to the constr uction of a
constitutional provision. (People ex rel. Chicago
Bar Association v. State Board of Elections
(1990), 136 Ill. 2d 513, 526, 146 Ill. Dec. 126, 558
N.E.2d 89, citing Coalition for Political Honesty
v. State Board of Elections (1976), 65 Ill. 2d 453,
464, 3 Ill. Dec. 728, 359 N.E.2d 138.) As with
statutory construction, this court must construe

90a
Appendix G
a constitutional provision so as to effectuate
the intent of the drafters. (People v. Turner
(1964), 31 Ill. 2d 197, 199,201 N.E.2d 415.) The
best indication of the intent of the drafters
of a constitutional provision is the language
which they voted to adopt. (Caryn v. City of
Moline (1978), 71 Ill. 2d 194, 200, 15 Ill. Dec.
776, 374 N.E.2d 211.) And so it is with statutory
construction. (See In re Marriage of Logston
(1984), 103 Ill. 2d 266, 277, 82 Ill. Dec. 633, 469
N.E.2d 167.) Where the statutory language is
clear and unambiguous, it will be given effect
without resort to other aids for construction.
(People ex rel. Baker v. Cowlin (1992), 154 Ill.
2d 193, 197, 180 Ill. Dec. 738, 607 N.E.2d 1251.)
As for construing the constitution, while the
“‘true inquiry concerns the understanding of
the meaning of its provisions by the voters who
adopted it, still the practice of consulting the
debates of the members of the convention which
framed the constitution has long been indulged
in by courts in determining the meaning of
provisions which are thought to be doubtful.”’
Board of Education, School District No. 142
v. Bakalis (1973), 54 Ill. 2d 448, 461-62, 299
N.E.2d 737, quoting People ex rel. Keenan v.
McGuane (1958), 13 Ill. 2d 520, 527, 150 N.E.2d
168.
Baker v. Miller, 159 Ill. 2d 249, 257 (1994); see also People
ex rel. Mooney v. Hutchinson, 172 Ill. 486, 497 (1898)
(“The general principles governing the construction

91a
Appendix G
of constitutions are the same as those that apply to
statutes.”).
As detailed further below, the 2 1/2 -to-1 clause originated
in a recognition that Cook County had maintained an
unofficial, de facto real property classification regime
with differing levels of assessment for decades, and the
delegates desired that the new constitution would both
legalize this practice, also making it potentially available
to other counties, and limit it in such a way that no one
class could be forced to bear an unreasonable portion of a
county’s tax burden. As to the specific subsidiary issue of
whether a taxpayer, as a member of a disadvantaged class,
has a judicially enforceable right, the passages below are
enlightening. One passage- the most directly relevant one
- contains language assuming, as a background principle,
that the Illinois courts would be entertaining litigation
and ultimately enforcing the 2 1/2 -to-1 clause in response
to taxpayer challenges: “[I]t may be that the court would
sustain an average figure, but I would think, as a lawyer,
that you’d have a pretty good case if you had a house at
20 percent and a factory at 80 percent, … that that was
a four to one ratio, and the article only called for a two
and one-half to one.” 3 Record of Proceedings, Sixth
Illinois Constitutional Convention 1903 (John W. Lewis,
Secretary of State) (Delegate Elward’s statement).
Other passages embedded in the explanations and
discussions of the 2 1/2 -to-1 clause are fully cognizant of
judicial review of individual taxpayers’ assessed valuations
at inflated percentage levels. Even if the below case
references were based on other legal theories of relief

92a
Appendix G
such as uniformity or overvaluation, their occurrence
within the context of the debates on the 2 1/2 -to-1 clause
represents a significant underlying awareness of forced
percentage reduction:
I just wanted to say that the assessments at 125
percent of fair market value will be sustained
in the courts, because they have been. Because
if there is not the 20 percent differential, the
court will uphold the assessor ….
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1904 (John W. Lewis, Secretary of State)
(Delegate Connor’s statement).
You have to have a much broader span in order
to win on appeal than you need to win in the
trial courts, at least in Cook County, and I think
that is true in most places in the state; but it
does depend, to some extent, on the attitude of
the trial court.
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1904 (John W. Lewis, Secretary of State)
(Vice-President Lyons’ statement).
[O]ur supreme court has said for many, many
years that you didn’t have a case before it
… unless you were able to prove fraud in
assessment; and that really amounted to that
your assessment was over twice what the
property would sell for on the open market ….

93a
Appendix G
But in recent years, and also starting with the
railroad cases, there has been sort of a reversal
or a downward trend of that opinion. Otherwise
the railroads, for example … would not have
gotten relief, because some of them proved
that they were at a 73 percent level, and not
over two times.
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1904 (John W. Lewis, Secretary of State)
(Delegate Scott’s statement).
Now the question comes to minds, ‘Is this [i.e.,
assessment classification] legal?’ Well, some
people will say, under the uniformity provision,
it is not legal; the court would not hold it
constitutional. … I really don’t know what way
the court would go.
....
Well, where the railroads were able to prove
that they were assessed … at a higher ratio to
full value than other property locally assessed
and equalized by their multiplier – if they could
prove that, then, they got relief. And the relief
the courts gave them is the difference between
what they paid at this high valuation and what
they would have paid if they had paid on a 55
percent valuation, which was– at that time –
what other property was equalized at.
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1893 (John W. Lewis, Secretary of State)
(Delegate Scott’s statement).

94a
Appendix G
In the aggregate, these passages support a reasonable
inference that the delegates believed the 2 1/2 -to-1 clause
created a judicially enforceable right that a taxpayer could
assert against the executive branch of the government
administering taxation, and a taxpayer could presumably
obtain a reassessment of property at the appropriate
percentage level, as required by the clause.
Subsequent case law, though not always precisely on
point or abundant, has aligned with this conclusion both
generally under article IX, section 4 of the 1970 Illinois
Constitution and specifically under the embedded clause
at issue in Count III, the 2 1/2 -to-1 clause. People ex rel.
Rosewell v. United States Steel Corp., 86 Ill. App. 3d 117,
129 (1st Dist. 1980), examined a constitutional claim under
the 2 1/2 -to-1 clause and affirmed the trial court’s rejection
of the claim based on the evidentiary record particular
to that case. While the precedent does not specifically
discuss the judicial enforceability of the clause, it did
examine a claim thereunder on the merits. Whatever
may be said about the utility of United States Steel Corp.,
the conclusion Defendant Pappas demands here– that
the taxpayer has no right under the 2 1/2 -to-1 clause that
can be judicially enforced in an individual suit – was not
obvious and was not used as a basis for rejecting relief,
though the issue is of fundamental importance.
The section 4 right vindicated in Walsh v. Property
Tax Appeal Bd., 181 Ill. 2d 228 (1998), was also a right
that pertains to any given class as a whole. Generally,
the idea behind section 4 constitutional uniformity is that
a given class, as a whole, should be assessed at a single

95a
Appendix G
percentage level of full, fair market value. Id. at 234. The
section 4 right described in Walsh applies either on a
county-wide basis or within and throughout a given class
in a classifying county, and this right could only have
been meaningfully evaluated relative to other members
within the group; the uniformity right could not have been
litigated with respect to the complaining taxpayer in a
vacuum. Id. at 234-37. Still, the Walsh court permitted
an assertion of the right on an individual basis, and an
individual judicial remedy was available under section 4
against the county at issue (Tazewell County). Defendant
Pappas’s interpretation would result in a situation where
a taxpayer could bring an individual legal action under
one sentence within section 4 of article IX but not under
another sentence within the same section. The relevant
teaching of Walsh should be that a taxpayer can assert a
section 4 right existing on a class-wide basis, though that
right will be applied to the litigants before the Court and
asserting the right, not to every potential taxpayer that
might have asserted the right or might be asserting it in
a parallel proceeding.
Defendant Pappas has also utilized the debates to form
several of her own contentions supporting the conclusion
that the clause does not create a judicially enforceable
right for individual taxpayers.
Defendant Pappas points out that the delegate debates
make a reference to a prof essional firm conducting a
reappraisal of Peoria County at the request of that county.
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1904 (John W. Lewis, Secretary of State)

96a
Appendix G
(statements of Delegate Scott). This actual massreappraisal solution utilized at one time in Peoria County
dovetails with a similar statutory remedy that the Illinois
Department of Revenue can invoke under the current
Illinois Property Tax Code. Under 35 ILCS 200/13-10,
the Illinois Department of Revenue may “either before
or after the original assessment is completed by the local
assessment officers, order a reassessment by the local
assessing officers for that year of all or any class of the
taxable property” when it concludes “that the property
in any county … has not been assessed in substantial
compliance with law.” Defendant Pappas contends that
class reassessment ordered by the Department of Revenue
was the intended remedy for vindicating the right created
by the 2 1/2 -to-1 clause and for policing the assessment
of classes as a whole, as opposed to having individual
taxpayer suits as the intended enforcement mechanism.
The statements of Delegate Scott do not indicate
anything other than reappraisal as an example of a
solution in a given situation, as compared to an exclusive
or officially designated means of vindicating the clause’s
rights. The debate passage does not support a conclusion
that the clause is an inexplicit, unnamed limitation on the
text of the provision. As is often true, a given legal right
can be enforced in a variety of ways and with an array of
remedies. A plaintiff may request declaratory judgment,
injunctions or other equitable remedies, compensatory
damages, or specified statutory remedies; an attorney
general may bring a suit on behalf of the public, or
individuals with standing may bring individual suits
or at times band together and bring a class action suit.

97a
Appendix G
The mere fact that a remedy or enforcement mechanism
exists, without more direction within the applicable legal
provision, does not foreclose other means or give guidance
as to the scope of the underlying legal right, at least not
in the present situation where a direct reference or link
between the 2 1 /2 -to-1 clause and 35 ILCS 200/13-10 is
absent.
Second, 35 ILCS 200/13-10 applies, on its face, only
to “reassessment by local assessing officers” and leaves
unaddressed other legal issues and factors that could
affect a property owner’s final tax bill, such as the tax rate
extended by taxing districts and the equalization factor.
By comparison, the 2 1/2 -to-1 clause explicitly prohibits any
parallel property classification system whereby certain
classes are assigned a tax rate higher than the 2 1/2 -to1 ratio, as measured against a lower class’s rate. Thus,
35 ILCS 200/13-10 could never have been seen by either
the enacting legislature or the constitutional convention
delegates as the exclusive mechanism for enforcing the
2 1/2 -to-1 clause as a whole.
Third, Defendant Pappas’s 200/13-10 argument uses
a state statute to interpret and limit a constitutional
provision. This is a problematic approach to constitutional
interpretation and understanding the hierarchy into which
different types of laws fall. Illinois statutes are to be
interpreted in light of the constitution. E.g., North Shore
Post of American Legion v. Korzen, 38 Ill. 2d 231, 236
(1967); Craig v. Peterson, 39 Ill. 2d 191, 193-202 (1968);
Mashni Corp. v. Laski, 351 Ill. App. 3d 727, 732 (1st Dist.
2004); Kaszubowski v. Board of Educ., 248 Ill. App. 3d 451,

98a
Appendix G
457 (1st Dist. 1993); People v. Anderson, 211 Ill. App. 3d
140, 142 (4th Dist. 1991); Gadeikis v. Yourell, 169 Ill. App.
3d 1033, 1034-1035 (1st Dist. 1988); People v. Stremming,
167 Ill. App. 3d 578, 581 (4th Dist. 1988); People v. Price,
144 Ill. App. 3d 949, 951-952 (1st Dist. 1986); Estep v.
Illinois Dep’t of Public Aid, 115 Ill. App. 3d 644, 648-649
(1st Dist. 1983); Towns v. Kessler, 10 Ill. App. 3d 356, 361
(5th Dist. 1973). The Court is not aware of any authority
indicating that the converse is true: Constitutional
provisions are interpreted in light of and/or limited by
statutes. Use of 35 ILCS 200/13-10 to limit the meaning
of the constitutional provision is problematic here, because
the constitutional provision and its relevant convention
history contain no clear reference to the Department of
Revenue’s power to order reassessment of any property
class as the exclusive enforcement mechanism. The
existence of the statute itself should not place a limit on
the constitutional provision, because rather than having
the general assembly’s statutes place a limit on the
constitution, “the constitution acts as a limitation on the
General Assembly’s authority.” Maddux v. Blagojevich,
233 Ill. 2d 508, 527 (2009).
Finally, as an entirely practical matter, it would be
impossible not to take notice that an individual taxpayer
action enforcing the provision as it affects that taxpayer’s
property is a far less drastic, demanding, and disruptive
remedy than having the entire class of property reassessed
pursuant to 35 ILCS 200/13-10. Additional taxpayers
belonging to any afflicted class could assert the same
right during both the administrative and, if applicable,
judicial phases of the tax objection process. While other

99a
Appendix G
members of the class could receive the same benefits by
asserting the right, as is often the case, a citizen who
does not assert a right will inevitably waive it. In any
event, Defendant Pappas’s assertion that recognition of
the cause of action will benefit the plaintiff and only the
plaintiff is not true. The private cause of action will, over
time, encourage assessors and county boards of review to
maintain regimes with assessment differentials within the
prescribed range. In other words, protecting individual
members of a class as members of that class will have a
long-run tendency to protect the entire class.
Defendant Pappas utilizes the debate passages to
form one last argument for finding the nonexistence of
an individual right to sue. She urges this finding as a
necessary result of the ambiguity found in the phrase
“level of assessment” of a class and of the fact that the 2 1/2 to-1 clause does not delineate a method for aggregating
a class and arriving at a single statistic representing a
percentage level of full fair market value. See 3 Record
of Proceedings, Sixth Illinois Constitutional Convention
1903 (John W. Lewis, Secretary of State) (statements
of Delegate Connor). This problem is not particular to
Plaintiff Woodfield’s interpretation permitting individual
taxpayer suits, as it also applies, to the extent it is a
legitimate criticism or problem, to Defendant Pappas’s
interpretation of the provision as limited to a regulation
of disparate assessments levels for classes as a whole,
in theory policed only by the Department of Revenue.
If it will become impossible to develop an acceptable
statistical measure of a “level of assessment” of a class
through the unfolding of precedent or through the

100a
Appendix G
consensus of statisticians, then this will also be true when
the Department of Revenue (or anyone else) compares
the class levels of assessment to each other only in the
aggregate, and the clause will border on being toothless
or meaningless. In the same vein, Defendant Pappas
urges finding no cause of action based on certain doubts
about using the median levels of assessment inferred
from the Illinois Department of Revenue’s sales ratio
studies to define the level of assessment for the relevant
classes. She highlights the part of the history of the
constitutional provision where a delegate cast doubt on
the use of the department’s statistics revealing median
levels of assessment for different classes, as opposed to
the mean or average levels for those classes. 3 Record of
Proceedings, Sixth Illinois Constitutional Convention
1903 (John W. Lewis, Secretary of State) (statements
of Delegate Elward). Under then-existing median
assessment levels, the Cook County de facto regime would
have already been in violation of the 2 1/2 -to-1 clause when
the 1970 state constitution became effective. Assuming
arguendo that these statements of Delegate Elward
are controlling when evaluating what evidence would be
admissible to prove a violation of the “2 1/2 to 1” provision,
they do not undermine the Count III claim or generally
establish that no taxpayer, as a matter of law, can ever
assert a right under the provision that will withstand a
motion to dismiss for legal insufficiency. Moreover, the
“First Amended Tax Objection Complaint” relies in part
on the “weighted mean” levels of assessment used by the
McMillen assessment-uniformity studies. It does not rely
entirely on revenue department median statistics.

101a
Appendix G
2. The 2 1/2 -to-1 Clause and Subsequent
Legislative Enactments
The Court previously set forth the progression of
legislative enactments subsequent to the ratification of
the 1970 Illinois Constitution, including the passage of 35
ILCS 200/9-150 and Cook County’s enactment of the Real
Property Assessment Classification Ordinance. Defendant
Pappas essentially contends that the legislature’s later
enactment of 35 ILCS 200/9-150, requiring counties to
officially establish classification regimes by ordinance,
effective in 1974, should be deemed to affect and limit what
the previous constitutional provision meant when it was
ratified by the voters. An example of this approach is found
in the following statement in the motion: “By interpreting
Article IX, Section 4(b) without reference to the levels of
assessment in the Classification Ordinance enacted by
Cook County, Plaintiff defeats the purpose behind Section
9-150, which was to create a classification system that
was governed by a duly enacted ordinance -an ordinance
enacted by representative government, which provides
readily ascertainable provisions defining and describing
the classification system.” (Section 2-619.1 Motion to
Dismiss First Amended Tax Objection Complaint at 24.)
Illinois statutes are to be interpreted in light of the
constitution. E.g., North Shore Post of American Legion
v. Korzen, 38 Ill. 2d 231, 236 (1967); Craig v. Peterson, 39
Ill. 2d 191, 193-202 (1968); Mashni Corp. v. Laski, 351 Ill.
App. 3d 727, 732 (1st Dist. 2004); Kaszubowski v. Board
of Educ., 248 Ill. App. 3d 451, 457 (1st Dist. 1993); People
v. Anderson, 211 Ill. App. 3d 140, 142 (4th Dist. 1991);

102a
Appendix G
Gadeikis v. Yourell, 169 Ill. App. 3d 1033, 1034-1035 (1st
Dist. 1988); People v. Stremming, 167 Ill. App. 3d 578,
581 (4th Dist. 1988); People v. Price, 144 Ill. App. 3d 949,
951-952 (1st Dist. 1986); Estep v. Illinois Dep’t of Public
Aid, 115 Ill. App. 3d 644, 648-649 (1st Dist. 1983); Towns v.
Kessler, 10 Ill. App. 3d 356, 361 (5th Dist. 1973). The Court
is not aware of any authority indicating that the converse
is true: Constitutional provisions are interpreted in light of
and/or limited by statutes.4 Thus, the existence of 35 ILCS
200/9-150 does not limit the original scope of the 2 1/2 -to-1
clause, because rather than having the general assembly’s
statutes place a limit on the constitution, “the constitution
acts as a limitation on the General Assembly’s authority.”
Maddux v. Blagojevich, 233 Ill. 2d 508, 527 (2009).
By contrast, according to Defendant Pappas’s
interpretative approach, 35 ILCS 200/9-150 in essence
retroactively limits the meaning of the constitutional
provision. Never mind that an assessor’s de facto
classification regime, assuming arguendo one were to exist
at a 3-to-1 ratio and at variance with a county ordinance,
would defeat 1) the spirit of the constitutional provision
at issue, 2) the state statute requiring assessment-level
differentiation by explicit and clear standards set by county
ordinance, 3) the assessment levels actually set forth by
4. Perhaps the only conceivable exception to this principle
would be where a statute inspired a later constitutional provision,
either in a negative or positive way, and the statute was of historical
interest in explaining the origin of the constitutional provision.
Even then, the statute would not serve as a limitation on the
constitutional provision; it would elucidate the original meaning
of the constitutional provision.

103a
Appendix G
the county’s classification ordinance, and 4) the clear intent
of the “representative government” bodies at both the
state and local levels. The irony of this interpretation of
the constitutional provision is that in a scenario such as
the one alleged in Count III, the taxpayer has the least
amount of protection - indeed, it has no right that can be
enforced by any court - when the local government, by
and through the assessor, violates the maximum number
of related legal provisions dealing with the problem of
assessment-classification differentiation. Defendant
Pappas’s solution is to interpret the constitutional provision
in a way that largely eliminates the right altogether, even
though the situation would otherwise appear to be most
in need of rectification. 5 The statute 35 ILCS 200/9-150
does not purport to address the problem created by an
assessor’s effective utilization of an unofficial assessment
classification system at an excessive differential rate of
assessment, resulting in a violation of both this statute and
also (at least the spirit of ) the 2 1/2 -to-1 clause in article IX,
section 4(b). The statute in that instance does not solve the
problem of deciphering the meaning of the constitutional
provision in the way this Court has been called upon to
do so here. It compounds the problem.
5. Any number of hypotheticals could be posed to demonstrate
situations where some but not all of the constitutional, statutory,
and ordinance enactments would be transgressed. For instance, a
county assessor could maintain an unofficial classification system
in the absence of a classification ordinance, though the highest
class is assessed at only twice the percentage level of the lowest
class. A county assessor could assess the classes at percentages
other than those set forth in a county ordinance, though the highest
and lowest classes are still within the appropriate range.

104a
Appendix G
The flaw in that interpretive approach is also revealed
by any hypothetical Illinois case brought prior to 1974
and requiring a determination of the same issues raised
here. That court would necessarily determine the meaning
and scope of section 4(b) without reference to 35 ILCS
200/9-150 or to any particular county ordinance, as this
Court previously did when reviewing the debates from
the constitutional convention. It is fundamental that
the General Assembly cannot alter the meaning of a
constitutional provision with a later statutory enactment,
as explained above. Defendant Pappas’s theory of
constitutional interpretation essentially puts the state
constitution and statutes on the same footing, with
statutes acting as amendments altering the meaning of
related constitutional provisions, and the Court rejects
this approach.
Using 35 ILCS 200/9-150 to retroactively define and
shape the meaning of the 2 1/2 -to-1 clause is problematic for
the additional reason that such use of 200/9-150 conflicts
with the original meaning of the clause, as explained
below. This conflicting interpretation based on 200/9-150
is related to the next major issue raised: whether 1) the
2 1/2 -to-1 clause is a restriction on both de facto and de jure
schemes with an of fending spread of assessment levels
or 2) it is a restriction only on officially enacted de jure
schemes with an of fending spread. Defendant Pappas
urges that the latter position be adopted, contending,
“The plain and unambiguous language of Article IX,
Section 4(b) makes it clear that any classification that is
authorized by the Illinois Constitution is by definition de
jure.” (Section 2-619.1 Motion to Dismiss Plaintiff’s First
Amended Tax Objection Complaint at 22-23.)

105a
Appendix G
This last statement is inaccurate. The clause does not
define or even mention de jure classification. In fact, the
plain language of the provision at least leaves open the
possibility that a de facto classification regime with of
fending assessment levels could be unauthorized by the
constitutional provision, because it also leaves open the
possibility that the state legislature will simply decline
to enact any further restrictions on a populous county’s
power to classify or continue to classify real property
for purposes of taxation. Furthermore, the ambiguity in
the phrase “level of assessment” of a class, noted earlier
as one of Defendant Pappas’s arguments against finding
an individual right, supports a broader interpretation
reg ulating both de facto and de jure reg imes of
classification rather than a narrower interpretation
limited to the specific (and unlisted) instance of official
classification by the county board.
Moreover, a fair reading of the provision as of the
early 1970s would leave open the possibility that a county
assessor in a large county could maintain an unpublished
classification regime as long as the highest and lowest
classes remained within the appropriate range, and he or
she could do so without approval from the county board
of commissioners because the 2 1/2 -to-1 clause originally
concerned itself with a de facto real property classification
system in Cook County. As Delegate Scott stated, “So
before our committee was this question; and a good
number– a good majority of the committee members–
agreed that this, if you want to call it de facto classification
in Cook County, should be made legal. An upsetting of
it at this time would cause some chaos in Cook County.”

106a
Appendix G
3 Record of Proceedings, Sixth Illinois Constitutional
Convention 1893 (John W. Lewis, Secretary of State).
Within a few years of these statements, People ex rel.
Kutner v. Cullerton, 58 Ill. 2d 266, 270-71 (1974), and La
Salle Nat’l Bank v. County of Cook, 57 Ill. 2d 318, 326-28
(1974), confirmed them and specifically described how
section 4(b) of article IX retroactively legalized and ratified
the Cook County assessor’s practice of maintaining a de
facto real-property classification regime for differential
taxation. See also 7 Record of Proceedings, Sixth Illinois
Constitutional Convention 2108-09, 2115-16 (John W.
Lewis, Secretary of State). While Kutner v. Cullerton,
58 Ill. 2d at 269-72, focused on the portion of section
4(b) permitting the assessor to “continue to classify,”
thereby ratifying the de facto classification regime, the
same subsection now at issue in Count III simultaneously
limited the otherwise ratified classification scheme,
prohibiting an assessment-level spread greater than the
2 1 /2 -to-1 ratio. Additionally, on the state level, Kutner
v. Cullerton, 58 Ill. 2d at 269-71, indicates that section
4(b) of article IX governs real property classification for
taxation regardless of whether the Illinois legislature
ever decides to enact legislation. See also 3 Record of
Proceedings, Sixth Illinois Constitutional Convention
2157 (John W. Lewis, Secretary of State) (statements of
Delegate Scott) (“The General Assembly may say to a
county, ‘Here, you classify as you want to, as you see fit’–
no limitations other than giving them the authority to do
it.”). On the local level, both Kutner v. Cullerton, 58 Ill.
2d at 269-71, and La Salle Nat’l Bank v. County of Cook,
57 Ill. 2d at 325-28, indicate that section 4(b) of article IX
governs a county’s real-property-taxation classification

107a
Appendix G
even if the county board of commissioners never enacts
a classification ordinance, and, thus, the “county” acts
to classify only by means of a de facto system utilized by
the county assessor.
These legal conclusions and origins must be kept in
mind while determining the original scope of the 2 1/2 -to-1
provision, unclouded by subsequent developments under
subordinate legal enactments. These legal conclusions also
dispel Defendant Pappas’s contention that the ratification
of section 4(b) of article IX itself somehow made county
classification de jure, or officially of record, because the
provision ratified a classification system that was precisely
not de jure - a regime that reigned supreme as a de facto
classification system until 1974. The American Can
interpretation of section 4(b) on which Defendant Pappas
relies would cause the state constitution to mean less now
than it did from 1970 through 1973. That is, the provision is
allegedly no longer a limit on de facto classification regimes
violating the clause, even if it originally was. It would seem
obvious that the underlying, fundamental meaning of the
constitutional provision would remain constant regardless
of subsequent legislative developments, which can only
carry out the provision consistent with the original
principles, not alter it. The delegates could not possibly
have understood section 4(b) as a restriction only on a
de jure classification system because 1) the provision, on
its face, does not refer to a specific legal mechanism by
which a county achieves a de jure classification system
(for example, by published assessor policy and practice
or by county ordinance), while the legislature could
clearly opt to enact no restrictions on classifying real

108a
Appendix G
property for taxation, and 2) the Cook County statistics
under discussion were clearly in reference to a de facto
classification regime that was being both legitimized
and limited. Accordingly, the delegates would have been
shocked by a later interpretation of the provision holding
that the judiciary is powerless to grant relief if and
when a taxpayer could establish that a county, in reality,
maintained classification with excessive assessment-level
spreads, even if that taxpayer were to sustain the rigorous
evidentiary burden of proof demanded by any assertion
that a government maintains a de facto regime that varies
from the formal rules. In other words the delegates would
have been shocked to learn the clause had virtually no
practical meaning for future de facto classification regimes
presenting the most flagrant violations of the principle
behind the 2 1/2 -to-1 clause- and existing at variance from
a county classification ordinance- because the formality
of having the classification ordinance on the books would
be deemed to purify even the most egregious violations.
3. Miscellaneous Arguments for Finding the
Nonexistence of an Individual Cause of Action
As stated above, Defendant Pappas opposes the
“ad hoc” application of the constitutional provision in a
way that permits an individual taxpayer to challenge its
assessment based on a constitutional provision regulating
the relationship between classes as a whole. Defendant
Pappas alleges that recognition of a constitutional
cause of action under the 2 1/2 -to-1 clause would permit
a taxpayer to create his or her own alternative, ad hoc
classification system separate from the one established

109a
Appendix G
by elective representatives. The argument is based, in
part, on several inaccurate premises and misstatements
concerning what the trial on Count III would necessarily
entail. First, any assessment-level differentials alleged
by the taxpayer would necessarily require competent,
legally admissible proof able to withstand scrutiny at
trial; truly “ad hoc” numbers produced by a taxpayer in
support of a desired refund amount will not carry the day
at trial. If a taxpayer were, hypothetically, able to meet its
burden of proof and show that a county assessor assigned
an assessed valuation that in fact was more than twoand-one-halftimes the percentage applied to the lowest
class, the demonstrated percentage-level spread would
not be ad hoc; it would be based on the assessment levels
the county’s elected officers actually applied at variance
from the county ordinance. The taxpayer would not be
creating the assessment differential - the county or its
representatives would be doing so. Pretending that the
county board’s assessment classification ordinance, as the
only existing reality, rectifies the type of situation alleged
in Count III would exacerbate the problem because the
set of facts alleged in Count III would violate both the
county’s classification ordinance and (at least the spirit
of) the 2 1/2 -to-1 clause in the constitution, as explained
above. In other words any statistical studies of fered by
the taxpayer as evidence and withstanding trial scrutiny
might reveal the assessor’s ad hoc classification system
and, as such, would not constitute the taxpayer’s own ad
hoc classification system, as Defendant Pappas alleges.
Defendant Pappas also asserts that a recognition of
an individual taxpayer’s cause of action here would be a

110a
Appendix G
violation of the uniformity clauses, also contained within
section 4,6 because, in obtaining a percentage level of
assessment that complies with the 2 1 /2 -to-1 clause, a
taxpayer could potentially obtain a level of assessment
different than other taxpayers in the same class who fail
to assert rights under the 2 1/2 -to-1 provision. While this
prospect raises an interesting question, no violation of the
uniformity clause would exist under the facts alleged in
this complaint, because taking Plaintiff Woodfield’s level
of assessment down to 22.5% would satisfy both aspects
of section 4, since it consistently contends in Count II that
the rest of its own class was uniformly assessed at that
percentage level (in spite of the fact that the ordinance
requires assessment at 38%). At the same time the 22.5%
level would also be in harmony with the maximum spread
permitted by the 2 1/2 -to-1 provision as alleged in Count
III. No conflict between constitutional uniformity and
constitutional class-differentiation limits is present under
the facts alleged in the complaint at issue herein.
4. Conclusion
The portion of Plaintiff Woodfield’s motion requesting
dismissal of Count III for legal insufficiency within the
meaning of 735 ILCS 5/2-615 will be denied.
6. The “rule of uniformity” from section 4 of article IX,
which is related to the right to equal protection of the law, gives
a taxpayer a right to have his real property taxed according to
the same proportion/percentage of “true value” that the taxing
officials have applied to other property in the same class within
the county. People ex rel. Hawthorne v. Bartlow, 111 Ill. App. 3d
513, 518-21 (4th Dist. 1983); Stephens v. State Property Tax Appeal
Bd., 42 Ill. App. 3d 550, 551-53 (4th Dist. 1976).

111a
Appendix G
III. Motion to Dismiss Counts II and III (No. 05 COTO
3938) and Count IV (No. 07 COTO 1618 and No. 05
COTO 3938) as Being Barred for Failure to Exhaust
Administrative Remedies Under 735 ILCS 5/2-619
The tax-year 2004 complaint before the Cook County
Board of Review requested that the current assessed
value of $10,944,000 be lowered to an assessed valuation
of $5,586,000, based on a January 1, 2004, appraisal of fair
market value at $14,700,000 using a composite of the cost,
income, and sales-comparison (or market) approaches, as
opposed to a market value of $28,799,997.
The supporting “Brief and Petition” requested, in
addition to an alteration of the fair market value of the
property at issue, that the same level of assessment be
applied to that fair market value as applied to other
property within the county, regardless of what percentage
level the ordinance officially designates, as required by
cases interpreting the Equal Protection Clause of the
Fourteenth Amendment to the U.S. Constitution and the
uniformity clause of article IX of the Illinois Constitution,
Ill. Const. 1970, art. IX, § 4(a). (Section 2-619.1 Motion
to Dismiss Plaintiffs 2004 Tax Objection Complaint
Ex. E, “Brief and Petition,” at 24-26.) In support of this
requested relief, Plaintiff Woodfield attached (as Exhibit
F to the Brief and Petition) an “Illinois Department of
Revenue Form PTAX- 215” as evidence that actual sales
of properties demonstrate that the percentage levels of
assessment applied to the full market value of taxable real
property are below the required ordinance levels for each
class. (Id. at 24-25.) Plaintiff Woodfield further stated

112a
Appendix G
that it “is further prepared to submit expert analysis and
testimony concerning levels of assessment.” (Id. at 25.)
The supporting “Brief and Petition” enumerated
claims and legal theories under the following constitutional
provisions: The assessed valuation assigned by the Board
of Review must not violate the 2 1/2 -to-one provision in
the 1970 Illinois Constitution, Ill. Const. 1970, art. IX,
§ 4(b), which prohibits the taxpayer’s percentage level
of assessment from being greater than 2 1/2 times that
applied to any of the lower classes. The assessed valuation
assigned by the Board of Review must not violate the
uniformity provisions in the 1970 Illinois Constitution,
Ill. Const. 1970, art. IX, § 4(a)-(b), which prohibits the
taxpayer’s percentage level of assessment from being
significantly greater than that applied to the other real
property within the same classification. Finally, Plaintiff
Woodfield asserted uniformity and equal-protection rights
under the same state constitutional provisions above and
under the Equal Protection Clause of the Fourteenth
Amendment to the U.S. Constitution whereby all real
property in the county is examined for debasement of
value beyond what is required by the ordinance level of
assessment; weighted averages are determined for each
class of real property; and a composite “total weighted
average percentage debasement” allegedly requires the
application of a certain level of debasement in favor of the
taxpayer beyond the percentage level assigned by the
ordinance. (Section 2-619.1 Motion to Dismiss Plaintiff’s
2004 Tax Objection Complaint Ex. E, “Brief and Petition,”
at 25-26.)

113a
Appendix G
1. 2-619 Motion to Dismiss Count IV Claim, Based on
the Equal Protection Clause in the U.S. Constitution,
Pursuant to the Administrative Exhaustion Doctrine
Defendant Pappas contends that Plaintiff Woodfield’s
constitutional claim in Count IV based on the Equal
Protection Clause in the U.S. Constitution should be
dismissed pursuant to 735 ILCS 5/2-619, because it
has a valid affirmative defense based on the exhaustion
requirement in 35 ILCS 200/23-10, which forecloses the
relief sought in Count IV. Specifically, Defendant Pappas
contends that the Count IV claim is not identical to the
federal constitutional claim asserted before the Cook
County Board of Review because the Count IV claim
states that the taxpayer’s percentage level of assessment
was too high when compared to the level applied to its own
class (i.e., similarly situated property), (First Amended
Tax Objection Complaint ¶ 48, at 19), whereas the
constitutional claim exhausted before the administrative
body was based on a comparison with all taxable real
property in Cook County.
The opening paragraph for the section stating the
constitutional claims demands a common, uniform level
of assessment for the taxpayer’s property in accordance
with the Equal Protection Clause of the Fourteenth
Amendment to the U.S. Constitution and, specifically, with
Allegheny Pittsburgh Coal Co. v. County Com., 488 U.S.
336 (1989), which generally requires classes of similarly
situated property to be assessed at substantially similar
percentage levels of full fair market value. (Section 2-619.1
Motion to Dismiss Plaintiffs 2004 Tax Objection Complaint

114a
Appendix G
Ex. E, “Brief and Petition,” at 24.) Allegheny Pittsburgh
Coal Co., as distinct from the Fourteenth Amendment
in general, does not require that real property within
different classification categories be assessed according
to any uniform formula of percentage levels, and the
taxpayer demanded an assessment complying with this
precedent. In that respect the “Brief and Petition” overlaps
the Count IV claim in the case at bar. Additionally, the
federal constitutional theory based on the percentage
level of assessment for all classes of property within
the county necessarily contains, includes, and relies on
the class to which the taxpayer’s property belongs, a
class which would affect any weighted average included
among taxable property. In that respect the “Brief and
Petition” constitutional claim, albeit not identical, is not
entirely factually independent from the Count IV claim
now at issue in the case at bar. Accordingly, the Court will
conclude that Plaintiff Woodfield exhausted its federal
constitutional claim before the Cook County Board of
Review as a result of the substantial overlap discussed,
and Count IV of the complaint for tax year 2005 (No. 07
COTO 1618) and tax year 2004 (No. 05 COTO 3938) may
proceed consistent with 35 ILCS 200/23-10 in spite of
the dissimilarity observed by Plaintiff Woodfield. The
Court does not have before it any authority demanding
or discussing a more strict or rigorous identity of
claims when making administrative-remedy exhaustion
determinations.

115a
Appendix G
2. 2-619 Motion to Dismiss, Pursuant
to the Administrative Exhaustion Doctrine,
Woodfield’s Constitutional Claims:
The Count II Claim Under the Uniformity Clause in the
1970 Illinois Constitution, The Count III Claim Under
the 2 1/2 -to-1 Clause in the 1970 Illinois Constitution,
and The Count IV Claim Under the Equal Protection
Clause in the U.S. Constitution
Defendant Pappas urges the Court to dismiss the
three counts containing the constitutional claims brought
directly under the Property Tax Code, Counts II, III, and
IV, again based on the exhaustion requirement in 35 ILCS
200/23-10, which allegedly constitutes a valid affirmative
defense. Pappas’s contention is that Plaintiff Woodfield
did not effectively raise the constitutional claims, which
all require some type of comparison of the taxpayer’s
percentage level of assessed valuation to that of other
taxpayers in the same or the lowest classification, because
the document attached to the administrative complaint
as evidence, the Illinois Department of Revenue Form
PTAX- 215, had been deemed wholly insufficient to sustain
similar constitutional challenges by the Illinois Appellate
Court’s prior precedent, Cook County Bd. of Review v.
Property Tax Appeal Bd. (“Robert Bosch Corporation”
or “Bosch’’), 339 Ill. App. 3d 529 (1st Dist. 2003).
First, as the Court understands the common law
administrative-remedy exhaustion doctrine, it does not
require the courts to weigh evidence presented to the
administrative agency or otherwise perform a qualitative
analysis of evidence presented. At least the Court is

116a
Appendix G
not aware of any authority indicating that the doctrine
ought to be applied in such a manner. If the rule were
otherwise and generally applied in and apart from this
case, the Court would essentially be performing a form of
administrative or appellate review- a much more involved
endeavor- just to determine the threshold question of
whether a plaintiff exhausted a particular claim before
an administrative agency.
Second, if the doctrine were to be applied in the
manner required by the motion to dismiss, it would
eventually create a conflict with the situation stemming
from the fact that the county board of review is not a body
of record, People ex rel. Devine v. Murphy, 181 Ill. 2d
522, 535 n.2 (1998), at least in the sense that any live oral
proceedings before it are not transcribed or recorded.7 In
all fairness to the taxpayer, if the PTAX-215 document
attached to the “Brief and Petition” is considered in
determining this issue, then the further written reports
and expert testimony, of fered upon request by the same
pleading, ought to be similarly evaluated for effectiveness.
However, the fact that the board of review is not a body
of record makes this evaluation unfeasible. Moreover, the
other evidence would need to be considered alongside
the “Form PTAX-215” rather than instead of it. While a
proper reading of Bosch, 339 Ill. App. 3d at 536, 540-44,
7. As the Court explained in March 2, 2010, Memorandum
Opinion and Order (No. 05 COTO 1866), a description of the
county board of review as being “not a body of record” is only
true in a limited sense, because obviously the nature of its work
requires some form of written records pertaining to the taxpayers’
complaints for relief.

117a
Appendix G
reveals that evidence of Department of Revenue salesratio studies is not a proper subject of judicial notice, no
part of that precedent’s holding states that sales ratio
studies are completely inadmissible as evidence submitted
by a party. And where Bosch, 339 Ill. App. 3d at 544-45,
specifically considered the one-page summary of a “Form
PTAX-215,” it merely indicated that the one page alone
was insufficient evidence. It did not indicate that such a
page would be inadmissible or could never be considered
and weighed alongside more thorough documentation
explaining the underlying methodology of the study and
qualifying as competent evidence. As a matter of fairness,
then, an application of the rule urged by Defendant Pappas
would require consideration of other evidence actually
presented to the Cook County Board of Review during
the hearing, which is not a feasible option.
Furthermore, the Court will apply the form of the
rule utilized in the September 15, 2010, Memorandum
Opinion and Order (No. 05 COTO 1866), which requires
the taxpayer to specifically plead distinct legal theories
before the administrative agency to meet the exhaustion
requirement. Here, the Court is satisfied that the substance
of Counts II, III, and IV of the present 2004 complaint
was previously presented to the Cook County Board of
Review in the pleading filed with that administrative body.
As one final matter the Court notes that Defendant
Pappas has cited no authority for the proposition that, in
any context covered by Illinois law, a previously pled or
otherwise stated claim or alternative legal theory becomes
withdrawn or abandoned if the global prayer for relief

118a
Appendix G
does not somehow mirror every aspect of every claim
plead. Ideally, a complaint would have multiple counts,
and every count would contain a corresponding prayer for
relief. The Court is not aware of such stringent pleading
requirements before administrative bodies, and even if
they existed, it is not clear that they would or should have
ramifications for the administrative-remedy exhaustion
doctrine.
3. Conclusion
The 735 ILCS 5/2-619 motion to dismiss Counts II, III,
and IV of the 2004 tax objection and Count IV of the 2005
tax objection complaint pursuant to the administrative
exhaustion doctrine will be denied.

119a
Appendix G
IV. Motions to Dismiss the Count V Claim
Under 42 U.S.C. § 1983 and § 1988
A. Motion to Dismiss Count V Under 735 ILCS
5/2-619(a)(l) Due to the Circuit Court’s Lack of Subject
Matter Jurisdiction to Decide the Matter
Pursuant to 735 ILCS 5/2-619(a)(1)8 Defendant Pappas
has requested that this Court dismiss the Count V claim
under the Civil Rights Act of 1871, 42 U.S.C. § 1983,9
8.
“The purpose of a section 2-619 motion to dismiss is
to provide a means to dispose of issues of law or easily
proved issues of fact [citation], and such a motion
may be granted when the claim asserted against
the defendant is barred by other affirmative matter
defeating the claim.” (Timberline, Inc. v. Towne
(1992), 225 Ill. App. 3d 433, 438-39.) A motion filed
pursuant to section 2-619 of the Code admits, for the
purpose of the motion, all facts well pleaded in the
complaint. (Dahl v. Federal Land Bank Association
(1991), 213 Ill. App. 3d 867, 869.) . . . . The motion
should be granted if, after construing the documents
in the light most favorable to the party opposing the
motion, the trial court finds no disputed issues of fact.
(Timberline, 225 Ill. App. 3d at 439.)
Noesges v. Servicemaster Co., 233 Ill. App. 3d 158, 162 (2d Dist.
1992).
9.
Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State

120a
Appendix G
because it lacks subject matter jurisdiction over the
claim. Generally, an Illinois circuit court’s subject matter
jurisdiction originates in the following constitutional
provision:
Circuit Courts -- Jurisdiction
Circuit Courts shall have original jurisdiction
of all justiciable matters except when the
Supreme Court has original and exclusive
jurisdiction relating to redistricting of the
General Assembly and to the ability of the
Governor to serve or resume of fice. Circuit
Courts shall have such power to review
administrative action as provided by law.
Ill. Const., art. VI, § 9.
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress ….
42 U.S.C. § 1983. As detailed supra, Count V alleges that the
deprivation of the taxpayer’s rights under the U.S. Constitution’s
Fourteenth Amendment Equal Protection Clause occurred when
Cook County maintained a de facto assessment system whereby
the county assessor intentionally and systematically assessed the
majority of class 5a property at or around 22%, while Plaintiff
Woodfield was singled out and illegally subjected to the higher
de jure level of assessment the Cook County Code of Ordinances
sets forth, 38%.

121a
Appendix G
Defendant Pappas combines several legal authorities
to come to the conclusion that, in entertaining the
Count V § 1983 claim, the Court would be conducting
administrative review of a final agency action (the county
board of review) and, as such, would be reviewing the
agency’s action according to its more limited “power to
review administrative action as provided by law,” Ill.
Const., Art. VI, § 9, rather than its more comprehensive
general jurisdiction to entertain “all justiciable matters.”
See generally Belleville Toyota v. Toyota Motor
Sales, USA., 199 Ill. 2d 325, 334-41 (2002). Because its
jurisdiction supposedly falls in the administrative-review
category of article VI, section 9, the Court’s jurisdiction
becomes known as “special statutory jurisdiction,” see
generally Belleville Toyota, 199 Ill. 2d at 336-40, or
“limited jurisdiction,” see generally KT Winneburg, LLC
v. Calhoun County Bd. of Review, 403 Ill. App. 3d 744,
750-51 (4th Dist. 2010). Application of these concepts would
mean that the Court’s power to entertain the claim is
transcribed precisely by the terms set forth in the statute
the Illinois General Assembly enacted to enable judicial
review of administrative decisions, here, the portion of the
Property Tax Code governing tax-objection complaints
(Title 8) following an administrative county-board-of
-review proceeding (Title 5). In People ex rel. Devine v.
Murphy, 181 Ill. 2d 522, 529 (1998), the Illinois Supreme
Court recognized that the tax-objection-complaint
mechanism for reviewing board-of -review agency action is
at least a form of administrative review in a constitutional
sense, even if it is not formal statutory administrative
review pursuant to the Administrative Review Law, 735
ILCS 5/3-102 to -110. When the constitutionality of a tax-

122a
Appendix G
objection-complaint provision, 35 ILCS 200/23-15(b), was
at issue in Devine v. Murphy, the Illinois Supreme Court
held that the legislature did have the authority to give the
circuit courts the power to revisit administrative valuation
for taxation precisely because the state constitution
provided that they “shall have such power to review
administrative action as provided by law,” Ill. Const. 1970,
art. VI, § 9, which gave the legislature authority to pass
a statute that “provide[d] for a direct standard of judicial
review of property tax assessments,” Murphy, 181 Ill. 2d
at 529. As such, Defendant Pappas contends that because
the tax-objection complaint under the Property Tax Code
is a form of administrative review in the constitutional
sense, the Court’s authority to entertain Count V is
negated by “special statutory jurisdiction” or other
notions of “limited jurisdiction” and by that statute’s lack
of authorization to entertain an action under 42 U.S.C.
§ 1983. Specifically, this Circuit Court’s subject matter
jurisdiction over Count V has supposedly been stripped
away by the statute’s declaration that a tax objection
complaint should resolve “all objections” and “provide
a complete remedy for any claims with respect to those
taxes [or] assessments,” 35 ILCS 200/23-15(b)(l), leaving
no broader or alternative source of jurisdiction to consider
a related § 1983 claim. Similarly, the Court’s authority to
even consider the question of whether a state statute such
as 35 ILCS 200/23-15(b) impermissibly alters the nature
of a federal constitutional claim is allegedly stripped away
by the Illinois General Assembly’s enactment of the clause,
also contained within 35 ILCS 200/23-15(b), prohibiting
the consideration of the assessor’s or board of review’s
assessment methodology, intent, and/or motivation.

123a
Appendix G
Defendant Pappas relies heavily on a certain mantra
lifted from a series of cases: Because the taxation of
property is a legislative rather than judicial function
under the state constitution, the Illinois courts do not
have authority to determine or redetermine the value of
property already assessed by designated administrative
officers, except to the extent that the general assembly
enacts a statute specifically permitting the same. Most
of the cases Defendant Pappas cites for this mantra are
not cases about subject matter jurisdiction per se, and, in
particular, they also tend to avoid discussions of jurisdiction
to entertain constitutional questions pertaining to taxation
and (with one exception) discussion of constitutional issues
in any form. Village of Niles v. K mart Corp., 158 Ill.
App. 3d 521 (1st Dist. 1987), presented a straightforward
statutory question of whether a municipality could sue
a private entity for a sales tax that the Department of
Revenue had allegedly incorrectly redirected to other
nearby municipalities; the precedent contains neither
constitutional issues nor discussion of subject matter
jurisdiction. Similarly, People ex rel. Shirk v. Glass, 9
Ill. 2d 302, 310-11 (1956), considered an issue regarding
late assessment of omitted property under the statute
and did not discuss the subject matter jurisdiction or
power of the trial court. It also did not consider any issues
from the standpoint of the state or federal constitution.
People ex rel. Eitel v. Lindheimer, 371 Ill. 367 (1939),
dealt with the retroactivity of a repeal of a statutory
provision that would otherwise have given rise to a tax
refund in one case and a tax credit in a companion case;
however, the taxpayers did not have vested rights under
the previous version of the statute, and the repeal was

124a
Appendix G
applied retroactively according to legislative intent. Eitel
does not delve into the topic of subject matter jurisdiction
or constitutionality of taxation, at least not apart from
incidental references to the constitution in discussing
various issues. White v. Board of Appeals, 45 Ill. 2d 378,
380 (1970), was similarly silent on issues of subject matter
jurisdiction, constitutionality, and jurisdiction to consider
constitutionality, because Count I of the complaint in that
case was a garden-variety claim of overvaluation pled
as constructive fraud. Jones v. Department of Revenue,
60 Ill. App. 3d 886 (1st Dist. 1978), likewise does not
concern subject matter jurisdiction in taxation cases.
Rather, it presented a straightforward question on the
merits: whether state use and occupation taxes should be
calculated on a base that includes federal gasoline taxes
but that excludes the state motor fuel tax. The appellate
court reversed a judgment over a disagreement with the
trial court’s resolution of that issue, not over its power
to entertain it. Jones, 60 Ill. App. 3d 886, did consider a
somewhat vaguely described claim that “gasoline users
are unconstitutionally discriminated against,” though
it rejected the claim on the merits and did not consider
what authority the circuit court would have had to declare
that the Department of Revenue or the statute itself had
violated the taxpayer’s constitutional rights. Id. at 891-93.
Overall, these cases present and answer straightforward
taxation questions without discussing the power of the
circuit courts to entertain and decide related yet distinct
classes of disputes, including taxation disputes implicating
federal statutes or the U.S. Constitution. The mantra
chosen could just as easily have stated that the obligation
to pay or be refunded a tax under a taxation statute will

125a
Appendix G
be strictly construed and limited to the precise statutory
language, rather than being liberally construed to
effectuate some designated purpose.
The principles encompassed by the mantra have the
clearest application with respect to Count I of the amended
complaint, where the taxpayer has called upon the Court
to determine that the property’s assessed valuation
reflects a fair market value that is “incorrect” and should
be adjusted to a value of $14,700,000, in accordance with
the Property Tax Code. The scope of the mantra in the
above cases is less clear when deciding whether it should
have a jurisdictional spin whenever compliance with
federal constitutional standards is fairly raised. The
contention that the circuit courts may only exercise certain
powers as delineated by the taxation statute is absolutely
true only with respect to certain types of valuation and
legal classification issues that the assessor and related
administrative agencies have been fully empowered to
determine. It is not a complete description of the law
with respect to the full range of legal issues that could
conceivably touch upon such taxation, nor is it a complete
description of the relationship between the judicial,
legislative, and executive branches in Illinois or the state
and federal government when constitutional issues are
joined.
To complete the picture, the following considerations
must be present. First, the legislature’s statutes must
themselves be in harmony with the 1970 Illinois Constitution
and the U.S. Constitution. Any substantial question to the
contrary would create a justiciable matter over which the

126a
Appendix G
circuit courts have subject matter jurisdiction. Second,
the executive branch must administer the laws of taxation
in harmony with the state and federal constitutions. Any
fairly raised question to the contrary again would create
a justiciable matter” over which the circuit courts have
subject matter jurisdiction. Importantly, Allegheny
Pittsburgh Coal Company, in permitting taxpayer relief
under the federal Equal Protection Clause, did not deem
any portion of a state statute unconstitutional; rather, the
constitutional transgression related to the way in which
West Virginia, by and through the county assessor, had
administered the assessment of real property for taxation
in an unequal manner. Allegheny Pittsburgh Coal Co. v.
County Com., 488 U.S. 336, 338 (1989) (“This practice
resulted in gross disparities in the assessed value of
generally comparable property, and we hold that it denied
petitioners the equal protection of the laws guaranteed to
them by the Fourteenth Amendment.”(emphasis added));
see also id. at 344 n.4. When a court determines whether
a taxing authority has applied a substantially uniform
percentage level of assessment to a complaining taxpayer’s
class of real property as required by federal law under
Allegheny Pittsburgh Coal Co., it is not necessarily
reviewing or redetermining the full fair market value of
property set by administrative officials according to the
parameters set by the Property Tax Code (represented by
Count I in the case at bar). In reality, then, the authority
of Illinois circuit courts to review the taxation of real
property extends beyond the mere redetermination of
value as permitted by the legislative grace of the taxobjection-complaint mechanism or, during the previous
era, by the doctrines of the fraud and constructive-fraud

127a
Appendix G
exceptions. The authority to conduct other types of
review is limited by the content of the constitutional legal
principles themselves. For instance, the legal principle
underlying Allegheny Pittsburgh Coal would entitle a
taxpayer to relief, even if the determination of full fair
market value had been correct, when other taxpayers
within the same class were assessed at a lower percentage
level. With respect to these types of outer-perimeter
issues, the circuit courts in Illinois have subject matter
jurisdiction over “all justiciable matters” pursuant to the
1970 Illinois Constitution. A single case or controversy
could conceivably present both inner- and outer­perimeter
jurisdictional issues. If this approach to jurisdiction over a
single case involving both types of issues were not correct,
then the state legislature could simply write into any given
statute, taxation or otherwise, that either the statute or
the executive branch’s administration thereof was immune
from review under the state or federal constitution’s
standards, in essence exempting itself from review under
any superior and external standards.
Although Defendant Pappas contends that jurisdiction
over taxation is somehow unusual or special, the fact that
the Illinois General Assembly alone has the constitutional
authority to establish taxation laws, Ill. Const. 1970, art.
IX, § 1, does not distinguish the area of taxation from any
other area of law for which only the legislative branch can
create a statute governing the same, be it criminal law or
any one of a myriad of civil statutes. Even in the criminal
context, the circuit courts’ subject matter jurisdiction
flows from the constitution. People v. Gilmore, 63 Ill. 2d
23, 26-27 (1976); People v. Benitez, 169 Ill. 2d 245, 255-256

128a
Appendix G
(1996); In re Marriage of Heady, 115 Ill. App. 3d 126, 128
(5th Dist. 1983) (noting that “subject matter jurisdiction
is not conferred upon the circuit courts by an information
or indictment but by the constitution of the State”).
With respect to any statute utilized by the government
in civil or criminal litigation, the General Assembly’s
enactment must itself comply with both the state and
federal constitutions, as must the executive branch’s
administration thereof. Legislatures write statutes and
establish taxation rates and procedures; the judiciary
does not. Section 1 of article IX, though fundamental, is
not extraordinary in this regard.
Defendant Pappas contends that the broader
category of jurisdiction does not govern Count V in place
of special statutory jurisdiction because she concludes
that Count V falls within the category of administrative
review. To evaluate this contention, we must begin with
the axiomatic principle that separate counts may state
different legal theories and find a basis in different
statutory and constitutional provisions. 735 ILCS
5/2-613; Dubey v. Public Storage, Inc., 395 Ill. App. 3d
342, 349 (1st Dist. 2009) (“A plaintiff may plead and prove
multiple causes of action, though she may obtain only
one recovery for an injury.”). In the case at bar, Plaintiff
Woodfield brings Counts I through IV by means of the
procedural mechanism found in the Illinois Property Tax
Code. Plaintiff Woodfield, as master of its own complaint,
alternatively brings Count V by means of 42 U.S.C. § 1983,
and Count V, by its own terms, is ultimately governed
by a federal statute, the U.S. Constitution, and the U.S.
Supreme Court’s interpretations of both. Count V is not

129a
Appendix G
governed by the Illinois Property Tax Code and, in fact,
calls into question the legality of its strict application. The
rule of decision for Count V is not contained within the
Illinois Property Tax Code, instead requiring that both
the statute and the executive branch’s administration
thereof be tested under a federal standard, part of which
comes from the U.S. Constitution and part of which comes
from § 1983. Because issues have been raised under
a distinct source of law, the Court’s basis for subject
matter jurisdiction is also distinct. When viewed in this
proper light, the § 1983 action is not an administrative
review of the assessor’s or county board of review’s work
(which does not include constitutional adjudications in any
event) but an independent determination of whether the
executive branch of state government has complied with
federal standards required by the U.S. Constitution, to
the extent that a taxpayer has substantially pled lack of
compliance.10 When viewed in this proper light, a § 1983
action is not a form of administrative review in either the
constitutional sense, People ex rel. Devine v. Murphy,
181 Ill. 2d 522, 529 (1998), or a strict statutory sense, 35
ILCS 200/16-195. It is a distinct vehicle for reviewing
10. The additional issue of whether, in spite of the complaint’s
allegations, the Illinois General Assembly has provided a parallel
mechanism for reviewing substantial questions of compliance with
the U.S. Constitution by means of the Property Tax Code- thereby
creating an adequate remedy at law for vindicating any federal
rights­goes to the ultimate merits of one element of the § 1983
claim, see Nat’l Private Truck Council v. Okla. Tax Comm’n, 515
U.S. 582 (1995), and not to this Court’s subject matter jurisdiction
to simply consider the claim, including the adequacy element, in
the first instance.

130a
Appendix G
government-official compliance with a federal statute not
enacted or controlled by the Illinois General Assembly, but
grafted onto the tax objection complaint as a result of ageold principles demanding that courts hear matters based
on a common core of operative facts as a single unit for
purposes of both economy and consistency. For the sake
of judicial economy and consistency of outcome, Illinois
courts will entertain all issues and theories arising from
a single core of operative facts in a single civil action.11 735
ILCS 5/2-613; Dubey, 395 Ill. App. 3d at 349; Mitchell v.
Skubiak, 248 Ill. App. 3d 1000, 1010 (1st Dist. 1993); Stillo
v. State Ret. Sys., 366 Ill. App. 3d 660, 664 (1st Dist. 2006);
Bagnola v. Smithkline Beecham Clinical Labs., 333 Ill.
App. 3d 711, 717-718 (1st Dist. 2002). A party omits a legal
theory at the peril of later being subjected to the doctrine
of res judicata and claim preclusion. Stillo, 366 Ill. App.
3d at 664; Bagnola, 333 Ill. App. 3d at 717-718.
In some sense, the Court does agree with Defendant
Pappas that special statutory jurisdiction does not
encompass or permit Count V. Though one basis for
subject matter jurisdiction may be nonexistent or faulty,
an alternative basis might be considered to provide an
Illinois court with the authority to entertain a matter. E.g.,
In re Marriage of Diaz, 363 Ill. App. 3d 1091, 1094 (2d Dist.
2006); People v. Leonard M (In re T.M.), 302 Ill. App. 3d 33
(1st Dist. 1998). The Court must have an affirmative source
of subject matter jurisdiction over Count V to entertain it,
11. “Separate counts and defenses. (a) Parties may plead as
many causes of action, counterclaims, defenses, and matters in
reply as they may have, and each shall be separately designated
and numbered.” 735 ILCS 5/2-613.

131a
Appendix G
and that authority must come from a source other than the
authority “to review administrative action as provided by
law,” Ill. Const., art. VI, § 9. In the real-property-taxation
context, the appellate courts have specifically stated,
“It is not disputed that Illinois courts have concurrent
jurisdiction with [f]ederal courts to hear claims founded
upon alleged violations of section 1983.” Beverly Bank v.
Board of Review, 117 Ill. App. 3d 656, 660 (3d Dist. 1983);
see also Tampam Farms v. Supervisor of Assessments,
271 Ill. App. 3d 798, 803 (2d Dist. 1995)12 . Illinois circuit
courts have, in other contexts, properly maintained
jurisdiction over claims sounding under 42 U.S.C. § 1983.
C.J. v. Dep’t of Human Servs., 331 Ill. App. 3d 871, 875-878
(1st Dist. 2002); Bohacs v. Reid, 63 Ill. App. 3d 477, 482 (2d
Dist. 1978). Even ifnot specifically delineated, such § 1983
jurisdiction would necessarily be according to the circuit
courts’ general jurisdiction to entertain “all justiciable
matters.” Furthermore, the Illinois circuit courts have
subject matter jurisdiction to review government action
for compliance with standards under the U.S. Constitution,
using the mechanism provided by 42 U.S.C. § 1983, as part
of the ir general jurisdiction to adjudicate “all justiciable
12. Additionally, in the context of challenging the assessment
of real-property taxes, Boughton Trucking & Materials, Inc. v.
County of Will, 229 Ill. App. 3d 576 (3d Dist. 1992), and Raschke
v. Blancher, 141 Ill. App. 3d 813 (3d Dist. 1986), tend to imply that
Illinois circuits courts can and will entertain those challenges in
the form of a § 1983 action if and when the exhaustion requirement
is satisfied, as it has been for the 2004 and 2005 cases now under
consideration, because those courts would have needed to have
subject matter jurisdiction to reach the exhaustion issue and
dismiss on that ground.

132a
Appendix G
matters.” This includes government action in the form of
taxing real property.
The existence of a statute that appears to cover
parallel territory does not alter this jurisdictional
conclusion (although that statute and its adequacy may
have an impact on the ultimate resolution of Count
Von the merits). Blount v. Stroud, 232 Ill. 2d 302,
305-11 (2009), is instructive in this regard. Blount v.
Stroud dealt with 775 ILCS 5/8-111(C) (West 2000) of
the Illinois Human Rights Act, which had previously
been interpreted to strip Illinois circuit courts of their
subject matter jurisdiction to adjudicate alleged federal
civil-rights violations under the act, instead giving the
Human Rights Commission power to entertain such
matters. As an alternative to that act, the plaintiff had
maintained a successful claim of retaliatory employment
termination against an employer under the federal Civil
Rights Act of 1866, 42 U.S.C. § 1981 (2000), although the
Illinois Human Rights Act created an analogous cause of
action for retaliation against an employee who opposes or
testifies against unlawful discrimination in employment,
775 ILCS 5/6-101(A) (West 2000). See Blount v. Stroud,
232 Ill. 2d 302, 305-11 (2009). The appellate courts had
been holding that the comprehensive nature of the state
legislation essentially consumed the entire area of state
and federal civil rights law, leaving 1) the Human Rights
Commission with the jurisdiction to resolve all claims
according to administrative procedures and 2) the circuit
courts without subject matter jurisdiction to adjudicate
any of them, regardless of whether the plaintiff brought
the action pursuant to state or federal law. Blount v.

133a
Appendix G
Stroud, 232 Ill. 2d at 320-23. Though the claim under
the federal civil rights statute had substantially similar
characteristics to the parallel retaliation claim created by
the state legislature, the Blount v. Stroud court overruled
those appellate-court holdings and ultimately relied
on and recognized the independent character of claims
under federal civil rights statutes, which have different
objectives. Blount, 232 Ill. 2d at 325-27. Finally, the Blount
v. Stroud court upheld the jury verdict under 42 U.S.C.
§ 1981 because the circuit court did indeed have subject
matter jurisdiction over the federal claim: “Circuit courts
are courts of general jurisdiction … and are presumptively
competent to adjudicate claims arising under the laws of
the United States.” Blount, 232 Ill. 2d at 382. The same
is true here with respect to the Count V claim under 42
U.S.C. § 1983. The maintenance of “general jurisdiction”
over the federal claim here and in Blount is also consistent
with the “deeply rooted presumption that Congress must
affirmatively oust or divest the State courts of jurisdiction
over a Federal claim in order to vest Federal courts with
exclusive jurisdiction.” Grotemyer v. Lake Shore Petro
Corp., 235 Ill. App. 3d 314, 316 (1st Dist. 1992).
As Defendant Pappas points out, § 1983 claims in
the taxation context come equipped with certain special
rules, including the rule that an additional element of
the claim is the requirement that the state must fail to
provide an adequate remedy at law for adjudicating the
federal right allegedly violated by the tax extended. And,
of course, under the Property Tax Code, a tax objection
complaint appears to implicate that issue to the extent it
should resolve “all objections” and “provide a complete

134a
Appendix G
remedy for any claims with respect to those taxes [or]
assessments.” 35 ILCS 200/23-15(b)(1). Nevertheless,
using these arguments to resolve the challenge to subject
matter jurisdiction would be erroneous because it would
require the consideration of issues pertaining to the
merits of Count V before making a determination as to
subject matter jurisdiction. In other words, the analysis
would be proceeding in the wrong order. To proceed in
the correct order, we must start with first principles:
First, proper jurisdiction stems from the fact that “the
plaintiff’s case, as framed by the complaint or petition,
presents a justiciable matter”; the defendant’s preference
for stating her own version of the case and her own
defenses does not factor in. Blount v. Stroud, 232 Ill.
2d at 316 (emphasis added); see also Belleville Toyota
v. Toyota Motor Sales, U.S.A., 199 Ill. 2d 325, 334-35
(2002). Additionally, “[s]ubject matter jurisdiction does
not depend upon the ultimate outcome of the suit. A party
may bring unsuccessful as well as successful suits in the
circuit court.” Blount, 232 Ill. 2d at 316; see also Belleville
Toyota, 199 Ill. 2d at 340-41. Finally, “[s]ubject matter
jurisdiction does not depend upon the legal sufficiency of
the pleadings.” Belleville Toyota, 199 Ill. 2d at 340.
Applying these principles to the case at bar reveals
the following: The Count V claim under 42 U.S.C. § 1983,
at its core, claims that the taxpayer’s rights under the
U.S. Constitution’s Fourteenth Amendment Equal
Protection Clause have been violated in that Cook County
maintains a de facto assessment system whereby the
assessor intentionally assesses the majority of class 5a
property at or around 22%, while Plaintiff Woodfield

135a
Appendix G
has been illegally subjected to the higher de jure level
of assessment the Cook County Code of Ordinances sets
forth, 38%. As an alternative to relying on the statutory
tax-objection-complaint procedure, 35 ILCS 200/23-10 to
-15, to vindicate this right, Count V calls it into question
in the event that 35 ILCS 200/23-10 and 23-15 render the
parallel Count IV federal claim inactionable as a result
of their prohibition against the review of assessment
methodologies, techniques, and procedures of assessing
officials and of such officials’ intent and mental processes.
In that instance, the complaint alleges that Illinois law
has failed to provide an adequate remedy at law for
vindicating a federal constitutional right. The allegations
as framed by the complaint’s master call into question both
the taxpayer’s treatment within its own class under the
U.S. Constitution and the ability of the Illinois Property
Tax Code to effectively deal with that issue. These
allegations present a question appropriate for review
and determination by the court, touching upon the legal
relations of parties having adverse legal interests, i.e., a
justiciable matter. This conclusion will remain true even
if the Court later disagrees and finds that the Property
Tax Code provides a remedy at law that is adequate
for vindicating the federal constitutional right, because
jurisdiction does not turn on the ultimate outcome of
the suit, which necessarily includes success or failure on
individual elements comprising a plaintiffs cause of action.
In support of her theory of subject matter jurisdiction,
Defendant Pappas does cite two cases that specifically
discuss circuit court jurisdiction in the context of a dispute
over real­property taxation. People v. Illinois Women’s

136a
Appendix G
Athletic Club, 360 Ill. 577 (1935); KT Winneburg, LLC v.
Calhoun County Bd. of Review, 403 Ill. App. 3d 744 (4th
Dist. 2010). The above federal questions involving 1) the
adequacy of the state statutory remedy under 42 U.S.C.
§ 1983 and 2) the constitutionality of underassessing other
taxpayers within the same class under the federal Equal
Protection Clause render these two cases distinguishable.
The merits of KT Winneburg, LLC, v. Calhoun County
Bd. of Review, 403 Ill. App. 3d 744 (4th Dist. 2010), had
the appellate court found subject matter jurisdiction in the
circuit court, involved a question of statutory interpretation
affecting property classification, which in turn affects the
level of assessment. Id. at 745-46. No federal constitutional
(or other federal) questions were presented to the circuit
court in KT Winneburg. While the precedent goes to
impressive lengths to set forth a comprehensive regime
under the Property Tax Code, which includes one track
ending in formal statutory administrative review and
another track ending with the tax-objection-complaint
procedure, it had no reason to consider every conceivable
scenario that could stem from disputes over real-property
taxation. The court had no occasion to consider if and
how a circuit court might obtain jurisdiction to hear
disputes 1) in the nature of Allegheny Pittsburgh Coal
Co. v. County Com., 488 U.S. 336, 343 (1989), which is
based on a right from a federal constitutional amendment
that was ratified in 1868, or 2) under 42 U.S.C. § 1983,
which is derived from the enactment of the Civil Rights
Act of 1871. The longstanding nature of these federal
claims presents a sharp contrast to the portion of the
KT Winneburg precedent commenting on the novelty
of the tax-objection complaint and stating that “the tax-

137a
Appendix G
objection complaint has no counterpart in common law
or equity.” KT Winneburg, LLC, 403 Ill. App. 3d at 751.
The statement would indicate that KT Winneburg did not
consider every conceivable taxation dispute (and had no
reason to do so), including the addition of a count under
federal law and/or an attack on the tax-objection-complaint
mechanism itself. People v. Illinois Women’s Athletic
Club, 360 Ill. 577 (1935), which considered subject matter
jurisdiction over taxation before the Illinois Property
Tax Code existed and under the previous constitution,
does not prevent this Court from entertaining Count V
for essentially the same reasons: The circuit court had
considered no federal constitutional challenge to a taxation
statute or administrative regime, instead considering
the correctness of valuation as it related to calculating
the volume of the building being taxed. Id. at 579. The
substance of the dispute in Illinois Women’s Athletic Club
is analogous to the Count I assertion that the Woodfield
assessed valuation is “incorrect” within the meaning of
the Property Tax Code, and Defendant Pappas has not
contested this Court’s jurisdiction over Count I under the
modem statute.
The jurisdictional confusion caused by stretching
issues such as valuation too far is further apparent in
Defendant Pappas’s reliance on other legal authorities.
She relies on the following constitutional provision as a
form of a jurisdictional limitation affecting Count V:
(a) Except as other wise provided in this
Section, taxes upon real property shall be
levied uniformly by valuation ascertained as the
General Assembly shall provide by law.

138a
Appendix G
Ill. Const. 1970, art. IX, § 4(a). Whatever effect this
provision may have on the jurisdiction of the courts to
determine or redetermine real property “valuation
ascertained as the General Assembly shall provide
by law,” Ill. Const. 1970, art. IX, § 4(a) (bold emphasis
added), (here exercised pursuant to Count I of the
complaint), Defendant Pappas over-reads that effect
beyond “valuation” and into other counts and legal issues.
It should be evident that whatever effect that clause has,
it does not prohibit the Illinois courts from interpreting
the section 4 constitutional uniformity provision, without
basing that decision on statutory language, as in Walsh
v. Property Tax Appeal Bd., 181 Ill. 2d 228 (1998), and
applying the same against the government. It should be
evident that whatever effect it has, it does not prohibit the
Illinois circuit courts from interpreting the Fourteenth
Amendment (or § 1983) and applying the same to an
individual taxpayer’s case. See Ill. Const., art. VI, § 9;
Allegheny Pittsburgh Coal Co. v. County Com., 488 U.S.
336 (1989); Blount v. Stroud, 232 Ill. 2d 302 (2009); Beverly
Bank v. Board of Review, 117 Ill. App. 3d 656, 660 (3d Dist.
1983); Tampam Farms v. Supervisor of Assessments, 271
Ill. App. 3d 798, 803 (2d Dist. 1995). In conclusion, it is not
a precise statement of the law to say that “in real estate
tax matters, the circuit court only has the subject matter
jurisdiction to hear what our legislature has specifically
authorized by statute.” (Section 2-619.1 Motion to Dismiss
Plaintiff’s First Amended Tax Objection Complaint at 38.)
Defendant Pappas also maintains that compliance
with the Property Tax Code is a prerequisite to obtaining
relief thereunder in the form of a statutorily mandated

139a
Appendix G
refund, and § 1983 and the taxpayer do not adhere to
these requirements in Count V. The inclusion of Count
V as an alternative count does not necessarily mean
that the taxpayer has not otherwise complied with the
Property Tax Code,13 and, in any event, the Court has
previously explained how and why Count V does not
represent administrative review in any form, resulting
in a different test for subject matter jurisdiction- the
ordinary “justiciable matter” test. Additionally, focusing
on the statutory-refund remedy fails to acknowledge
what the defendant must acknowledge: 42 U.S.C. § 1983
is an entirely different statute than the Illinois Property Tax
Code with different rules and legal standards, so the remedies
available are likewise governed by different rules. A successful
claimant under § 1983 can obtain monetary damages.14
13. The taxpayer in this case has complied with the Property
Tax Code by filing a tax objection complaint within the required
time frame, and this Court previously determined that the
statutory exhaustion requirement has been satisfied with respect
to Count IV when the substance of that count was presented to
the county board of review in a timely petition. By satisfying
the 35 ILCS 200/23-10 exhaustion requirement with respect to
the federal claim in Count IV, the taxpayer also satisfied the
exhaustion requirement for the parallel federal claim under § 1983,
which is subject to a different exhaustion requirement stemming
entirely from case law. Thus, the taxpayer here has complied
with the Property Tax Code to the extent necessary to reach this
Circuit Court and to be entitled, as any other civil litigant, to state
an alternative theory of recovery under a distinct law.
14. While Count V of the amended complaint and the parties’
arguments tend to focus on requests for declaratory and equitable
relief in the prayer for relief, Count V also contains a general
prayer “[t]hat Plaintiff be granted such other and further relief

140a
Appendix G
42 U.S.C. § 1983 (“Every person who … subjects … any
citizen of the United States … to the deprivation of any
rights … secured by the Constitution … shall be liable
to the party injured in an action at law, suit in equity, or
other proper proceeding for redress ….”);see, e.g., Baker
v. F & F Inv., 420 F.2d 1191, 1193 (7th Cir. 1970); Roybal
v. City of Albuquerque, 2009 U.S. Dist. LEXIS 45663,
*27-*28 (D.N.M. Feb. 2, 2009); Phelps v. Kapnolas, 2005
U.S. Dist. LEXIS 45581, at *12 (W.D.N.Y. May 31, 2005);
Mirin v. Justices of Supreme Court, 415 F. Supp. 1178,
1191 (D. Nev. 1976). To a successful claimant entitled to a
§ 1983 damages award in an Illinois court, the authority
or lack of authority to grant refunds under the Illinois
Property Tax Code becomes irrelevant, including case law
standing for the proposition that tax refunds are strictly
and precisely limited by the Illinois statute.
As another matter related to cases addressing
strict refund procedures, the voluntary-tax­ payment
cases likewise do not pose an obstacle to subject matter
jurisdiction over the federal claim in Count V (and are
likely not relevant in the case at bar in any event). A
common pattern in the voluntary-tax-payment cases
occurs when a taxpayer pays a tax without protesting
the constitutionality of the tax through designated
mechanisms, while a different taxpayer goes through the
effort of litigating and succeeding on the constitutional
challenge to the tax. Then, the taxpayer at issue in the
case attempts to ride the coattails of the other taxpayer
as the Court may deem to be equitable and just.” (First Amended
Tax Objection Complaint ¶ 55.d., at 21.)

141a
Appendix G
who eventually succeeded, and the courts deny relief.
For instance, the taxpayers in Chicago Motor Club v.
Kinney, 329 Ill. 120 (1928), and Board of Junior College
v. Carey, 43 Ill. 2d 82 (1969), received relief from an
unconstitutional tax, while the subsequent taxpayers
in Richardson Lubricating Co. v. Kinney, 337 Ill. 122
(1929), and S.A.S. Co. v. Kucharski, 53 Ill. 2d 139 (1972),
did not. Furthermore, a taxpayer can and should be
able to obtain relief from an unconstitutional tax in his
own timely protest case (whatever the current statutory
mechanism is) in spite of the voluntary-tax-payment cases.
Here, the taxpayer filed a timely petition before the Cook
County Board of Review and the timely complaint that
is now before this Circuit Court of Cook County, raising
constitutional issues throughout.
The consideration of Count V under the Court’s
authority to adjudicate “all justiciable matters” is also
in harmony with the principle that, while administrative
agencies are allowed and encouraged to consider
constitutional doctrines and arguments in fashioning relief
(hopefully) acceptable to a taxpayer, they ultimately have
no power or authority to declare statutes or executive
administration unconstitutional under either the state or
federal constitution, see Carpetland USA. v. Ill. Dep’t of
Empl. Sec., 201 Ill. 2d 351, 396-97 (2002); Home Interiors
& Gifts v. Dep’t of Revenue, 318 Ill. App. 3d 205, 210 (1st
Dist. 2000). Thus, in a hypothetical scenario in which
the Illinois General Assembly amended the Property
Tax Code in such a way that the county boards of review
were the bodies of final resort in all property tax matters,
leaving no form of administrative review or tax-objection

142a
Appendix G
complaint, the Illinois circuit courts would still have power
to determine whether the state’s taxation regime complied
with applicable standards under the U.S. Constitution. In
that scenario, not only would the circuit courts of general
jurisdiction have subject matter jurisdiction to address the
constitutional question as a justiciable matter (as here),
but the taxpayer would also have no adequate remedy
at law to adjudicate the federal right, and the adequacy
element of the § 1983 cause of action would be satisfied in
any consideration of the merits of the claim. It is untenable
that a state legislature could leave the final determination
of constitutional claims with quasi-judicial bodies that are
unable to adjudicate them or attempt to effectively exempt
the state or county from federal law. These ideas must
factor into any consideration of subject matter jurisdiction
over Count V,15 though the adequacy question involving
the existing alternative under the Property Tax Code is
a question the Court will consider on the merits and not
at this stage.
Any further arguments in the motion concerning the
lack of “equity jurisdiction” over Count V are not true
arguments about subject matter jurisdiction per se, and
15. An interesting related question might be whether the
Court’s jurisdiction over the federal and state constitutional
issues in Counts II, III, and IV falls under “special statutory
jurisdiction” or the more general type of jurisdiction over “all
justiciable matters.” The question, however, is presently academic
inasmuch as Defendant Pappas has not contested jurisdiction over
those counts, and the Court is satisfied that it does have subject
matter jurisdiction over those counts under one or the other
theory, or both.

143a
Appendix G
especially not so since the merger of law and equity. As
an appellate authority aptly explained:
At the outset, we note that Black’s Law
Dictionary provides the following definition of
equity jurisdiction:
“In a common-law judicial system,
the power to hear certain civil actions
according to the procedure of the
court of chancery, and to resolve them
according to equitable rules.
‘[T]he term equity jurisdiction
does not refer to jurisdiction in
the sense of the power conferred
by the sovereign on the court
over specified subject-matters
or to jurisdiction over the res
or the persons of the parties
in a particular proceeding but
refers rather to the merits.
The want of equity jurisdiction
does not mean that the court
has no power to act but that it
should not act, as on the ground,
for example, that there is an
adequate remedy at law.”’
Searles v. Bd. of Educ., 369 Ill. App. 3d 500, 505 (1st Dist.
2006) (quoting Black’s Law Dictionary 869 (8th ed. 2004)
(quoting deFuniak, Handbook of Modem Equity 38 (2d
ed. 1956))).

144a
Appendix G
For to foregoing reasons, the principles of “limited
jurisdiction” or “special statutory jurisdiction” do not
apply to substantially raised questions under the U.S.
Constitution and 42 U.S.C. § 1983, even if they may apply
to taxation questions of overvaluation, misclassification,
or other nonconstitutional issues contained in separate
counts. The circuit courts of Illinois can exercise general
jurisdiction to consider such questions according to
their constitutionally granted authority to adjudicate
“all justiciable matters,” even in the context of taxation.
The circuit courts may obtain jurisdiction over taxation,
apart from special statutory jurisdiction related to
administrative review, in situations that otherwise qualify
as “justiciable matters.”
Defendant Pappas’s motion to dismiss Count V for
lack of subject matter jurisdiction pursuant to 735 ILCS
5/2-619(a)(l) will be denied.
B. Motion to Dismiss Count V Under 735 ILCS
5/2-615 Due to the Existence of an Adequate Remedy
at Law in the Illinois Property Tax Code
Defendant Pappas has also moved to dismiss Count
V as being legally insufficient under 735 ILCS 5/2-615,16
16. A complaint is 1) legally sufficient when it sets forth a
legally recognized cause of action and 2) factually sufficient when it
contains well-pled facts bringing the allegations within such cause
of action. Lester v. Chicago Park Dist., 159 Ill. App. 3d 1054, 1057
(1st Dist. 1987). “If, without considering the conclusions that are
pleaded, there are not sufficient allegations of fact to state a cause
of action, a motion to dismiss will properly be granted, no matter

145a
Appendix G
because an adequate remedy at law exists in the form
of the Property Tax Code’s tax-objection-complaint
procedure, 35 ILCS 200/23-10 and -15. The Court notes
as an initial matter that Defendant Pappas would, out
of necessity, have to be wrong about the Court’s subject
matter jurisdiction over Count V for the Court to even
consider and agree with her various arguments pertaining
to Count V, most of which contend that the claim should
be defeated on the merits, as a matter of law, at this stage
of the litigation. As the Court is satisfied that the motion
has erroneously evaluated this Court’s subject matter
jurisdiction, it will proceed to consider those arguments.
The Court will continue to adhere to the September
15, 2010, ruling for the companion 2003 tax-objection
case (No. 05 COTO 1866), marked as Defendant Pappas’s
Exhibit “B” and designated as the “2003 Reconsideration
Opinion and Order,” on the issue of the adequacy of the
Property Tax Code as a remedy at law for vindicating
the federal constitutional right at issue. The Illinois
Property Tax Code provides an adequate remedy at law
for adjudicating a claim under the U.S. Constitution’s
Equal Protection Clause because, if and when a taxpayer
how many conclusions may have been stated and regardless of
whether they inform the defendant in a general way of the nature
of the claim against him.” Adkins v. Sarah Bush Lincoln Health
Center, 129 Ill. 2d 497, 519-20 (1989). The existence of an adequate
remedy at law, which can affect the validity of a claim for which
the absence of the same is an element, may be considered as part
of a 5/2-615 motion to dismiss challenging the legal sufficiency of
the claim. Rodgers v. Whitley, 282 Ill. App. 3d 741, 745-46, 748
(1st Dist. 1996).

146a
Appendix G
demonstrates that, over time, other similarly situated
property was underassessed in light of objective,
market-based measures of fair market value, as it must,
the taxpayer has already effectively proven that it was
intentionally singled out for disparate treatment relative
to other class members, i.e., illegal discrimination. In
this unique area of the law, the taxpayer can prevail by
simply showing such a disparate impact as a proxy for
the unlawful (general) intent to discriminate otherwise
required. And further, because this required showing is
also sufficient without an inquiry regarding methodology
used to create the previous assessments for the class at
issue, the Illinois remedy is adequate even if the taxpayer
is not permitted to discover all of the evidence it would
have otherwise desired, due to countervailing interests.
As this Court has previously indicated, in resolving the
potential dilemma created by 35 ILCS 200/23-15, it follows
the approach taken by the U.S. Court of Appeals for the
Second Circuit:
Intentional discrimination also follows from
evidence that the assessing authority repeatedly
applied greatly disparate assessment ratios to
similarly situated properties in violation of state
law. Louisville & Nashville Railroad Co. v.
Public Service Commission of Tennessee, 249
F. Supp. 894, 899-902 (M.D.Tenn. 1966), affd,
389 F.2d 247 (6th Cir. 1968). Thus, because proof
that the assessment method results in disparate
treatment of similarly situated taxpayers is
all that is required for LILCO to succeed in
a declaratory judgment action on its equal

147a
Appendix G
protection claim, see Allegheny Pittsburgh, 109
S. Ct. at 639; Louisville & Nashville Railroad,
249 F. Supp. at 899-902, and because such proof
not only may be presented, but is essential to
success in such an action, the issue of subjective
intent as a separate inquiry simply evaporates.
Long Island Lighting Co. v. Brookhaven, 889 F.2d 428,
432 (2d Cir. 1989). Another way of restating this approach
is by pointing out that proven disparate-impact damages
and the claim of unlawful discrimination resulting in a
disparate impact are the same creature. The monetary
damages from discrimination are the violation of the
federal constitutional right. For that reason, the Property
Tax Code provides an adequate remedy at law in spite of
35 ILCS 200/23-15(b). Although legal theories can be pled
in the alternative, Broadnax v. Morrow, 326 Ill. App. 3d
1074, 1081 (4th Dist. 2002), and the taxpayer relies on this
fact, pleading a count in the alternative does not subject it
to a lesser standard under 735 ILCS 5/2-615, especially if
the Court disagrees with a legal conclusion on which one
element is based, and the count cannot stand on its own
two feet without success on that element.
Having dismissed the Count V claim under § 1983,
the Court will consider the ongoing controversy over
35 ILCS 200/23-15(b) as specific disputes arise under
the federal Equal Protection Clause claim in Count IV,
and it will, according to the facts and circumstances
present, determine whether the provision is constitutional
or unconstitutional as applied to those facts and
circumstances under the federal Supremacy Clause,

148a
Appendix G
U.S. Const. art. VI, cl. 2.17 The Court will consider or
reconsider the enforceability of 35 ILCS 200/23-15(b), for
example, if Defendant Pappas defends on the ground of the
assessor having committed a clerical or calculation error
that caused the disparity otherwise shown by Plaintiff
Woodfield’s evidence, thereby negating any inference of
intent to discriminate under federal law. More generally,
the Court will consider or reconsider the enforceability of
200/23-15(b) if Defendant Pappas, as part of her defense,
does anything that could be reasonably deemed to open
the door on issues such as prior methodology, intent, or
motivation. If, however, Defendant Pappas merely defends
by attacking, for example, the weight, persuasiveness, or
admissibility of the taxpayer’s evidence (on other grounds),
then a constitutional dilemma is less likely.
Pursuant to 735 ILCS 5/2-615, Defendant Pappas’s
motion to dismiss Count V for legal insufficiency resulting
from the existence of an adequate remedy at law in the
form of the Illinois Property Tax Code will be granted.
ORDER
Having considered the briefs and oral arguments
of the parties, the Court hereby orders the following
disposition of Defendant Pappas’s “Section 2-619.1 Motion
17. In light of the previous discussion about the Court’s
jurisdiction over “all justiciable matters,” the Court will
necessarily have subject matter jurisdiction to consider all issues
that arise under all applicable laws and sources of law, including
those that are outside the four comers of the Illinois Property Tax
Code that otherwise governs Count IV.

149a
Appendix G
to Dismiss Plaintiff’s First Amended Tax Objection
Complaint and Complaint for Declaratory Judgment and
Other Relief Under 42 U.S.C. § § 1983 and 1988”:
1.

The motion to dismiss Count III as legally insufficient
to state a cause of action under 735 ILCS 5/2-615 is
DENIED.

2.

The motion to dismiss Counts II and III (No. 05
COTO 3938) and Count IV (No. 07 COTO 1618 and
No. 05 COTO 3938) under 735 ILCS 5/2-619 as being
barred for failure to exhaust administrative remedies
is DENIED.

3.

The motion to dismiss Count V under 735 ILCS 5/2619(a)(l) due to the Circuit Court’s lack of subject
matter jurisdiction to decide the matter is DENIED.

4.

The motion to dismiss Count V for legal insufficiency
under 735 ILCS 5/2-615 due to the existence of an
adequate remedy at law, the Illinois Property Tax
Code, is GRANTED.

Date: June 2, 2011

Enter:
/s/				
Judge Alfred J. Paul

150a
Appendix
H of the Task
Appendix H —
Report
Force on Reform of the Cook County
Tax Appeals Process as Revised
and Adopted by the Real Estate
Tax Committee of the Chicago Bar
Association dated February 22, 1995, as
adopted by the Chicago Bar Association
Real Estate Committee on March 2, 1995
REPORT OF THE TASK FORCE
ON
REFORM OF THE COOK COUNTY
PROPERTY TAX APPEALS PROCESS
AS REVISED AND ADOPTED
BY THE
REAL ESTATE TAX COMMITTEE
OF THE
CHICAGO BAR ASSOCIATION
PROPOSED AMENDMENTS
TO THE PROPERTY TAX CODE
AND
COMMENTARY
Report of the Civic Federation Task Force Dated
February 22, 1995, As Revised and Adopted by the
Chicago Bar Association Real Estate Committee
March 2, 1995
[TABLES INTENTIONALLY OMITTED]

151a
Appendix H
I. INTRODUCTION AND EXECUTIVE
SUMMARY
The Civic Federation Task Force on Reform of the
Cook County Property Tax Appeals Process was formed
in response to concerns raised during the passage of
Public Act 88-642, which took effect September 9, 1994.
This act, commonly known by its bill number as “Senate
Bill 1336,” resulted from a consensus among taxpayers,
the organized bar, taxpayer watchdog organizations,
taxing officials, and state legislators that the procedure
for judicial review of real estate taxes in Cook County was
imperiled by recent court decisions.
Over many years, the process for judicial review of
real property taxes, and particularly tax assessments, has
been the subject of considerable debate. Most of the debate
has centered around the doctrine of “constructive fraud,”
which forms the current basis for review of assessments
through tax objections in the circuit court. While tax
objections are available throughout Illinois, they are little
used outside Cook County because review of assessments
through the state Property Tax Appeal Board is available
and is preferred by most taxpayers. In Cook County,
however, objections in court based on constructive fraud
have been the taxpayer’s only option.
Historically, the main criticism directed at the law
of constructive fraud was its unpredictability. In the
19th century the Illinois courts, which had been initially
reluctant to review assessments in the absence of actual
fraud or dishonesty on the part of assessing officials,

152a
Appendix H
developed the concept of constructive fraud to extend
relief to a slightly larger class of cases. Theoretically,
although no actual dishonesty was alleged or proven,
the courts declared that the taxpayer might recover
upon proof of an extreme overassessment, a valuation
“so grossly out of the way” that it could not reasonably
be supposed to have been “honestly” made. See Pacific
Hotel Co. v. Lieb, 83 Ill. 602,609-10 (1876). However, no
clear definition of a “grossly excessive” assessment ever
emerged, and court decisions in this century produced
dramatically disparate results. (See cases cited in Ganz,
Alan S., “Review of Real Estate Assessments - Cook
County (Chicago) versus Remainder of Illinois,” 11 John
Marshall Journal of Practice and Procedure, 17, 19 (1978.)
Recently, the constructive fraud debate has intensified
because of the Illinois Supreme Court’s interpretation of
the doctrine in In Re Application of County Treasurer,
etc. v. Ford Motor Company, 131 Ill.2d 541, 546 N.E.2d
506 (1989), a decision which has been strictly followed
by subsequent courts. See In Re Application of County
Collector, etc. v. Atlas Corporation, 261 Ill.App.3d 494,
633 N.E.2d 778 (1993), lv. to app. den. 155 Ill.2d 564
(1994); and In Re Application of County Collector, etc.
v. J.C. Penney Company, Inc., Circuit Court of Cook
County, County Division, Misc. No. 86-34 (tax year 1985),
Objection No. 721 (Memorandum Decision of June 15,
1994, Judge Michael J. Murphy; appeal pending.) These
decisions refocused the issue in tax objection cases
challenging assessments, from emphasizing discrepancies
in value to emphasizing circumstances purporting to
show misconduct or “dishonesty” by assessing officials.

153a
Appendix H
The result has been to divert the attention of courts and
litigants away from the question of the accuracy and
legality of the assessment and tax.
In the view of its legislative sponsors, Senate Bill 1336
was intended to overrule that portion of Ford dealing with
the question of the assessor’s exercise of honest judgment.
However, it was not intended to work a comprehensive
change in the shape and scope of the tax objection
procedure. From its inception the bill was intended to be
a stopgap, providing some relief until a panel representing
all interested parties could be convened to draft a more
comprehensive and lasting statutory reform. See 88th
General Assembly House Transcription Debate, SB 1336,
June 9, 1994, at 1-3 (remarks of Representatives Currie,
Kubik and Levin). Such a panel was convened as the Civic
Federation Task Force.
The stopgap nature of SB 1336 was given new emphasis
by a recent decision of the Cook County Circuit Court
declaring the provision unconstitutional. In Re Application
of County Collector, etc. v. J.C. Penney Company, Inc.,
Misc. Nos. 86-34, 87-16, 88-15 (various objections for
tax years 1985-1987) (‘’J.C. Penney II”) (Memorandum
Opinion of December 6, 1994, Judge Michael J. Murphy).
This decision appears to rest primarily on the circuit
court’s view that SB 1336 abandoned the traditional rule
of constructive fraud, yet failed to replace it with a clearly
defined alternative rule.
The Task Force believes that the alternative legislation
proposed in this report supplies the clearly defined rules

154a
Appendix H
which the court found lacking in SB 1336. Further, it
is hoped that the prompt enactment of this alternative
legislation will best address the underlying problems in
the tax appeals process which led to SB 1336 and will
obviate the lengthy and uncertain appellate review of SB
1336 which has now begun.
The Task Force based its work on five principles or
goals. To be effective, the tax appeals process must: (1) be
clearly defined; (2) afford a complete remedy to aggrieved
taxpayers; (3) focus on the accuracy and legality of the
challenged tax or assessment, not on collateral issues; (4)
balance the public’s interest in relief from improper taxes
with its interest in stable property tax revenues for the
support of local government and (5) not seek structural
changes in the current functioning of the Cook County
Assessor’s office or the Cook County Board of Appeals.
The Task Force concluded that these goals would
best be accomplished by reforming the applicable court
proceedings (i.e., the judicial tax objection process), rather
than the other alternative, namely, extending the Property
Tax Appeal Board’s jurisdiction to Cook County.
The proposed legislation streamlines tax objection
procedure, clarifies the hearing process, and makes
significant changes in the standard of review applied in
challenges to assessment valuations. The key features of
the proposal are:

155a
Appendix H
General Provisions
• Standard of Review. In assessment appeals, the
doctrine of constructive fraud is expressly abolished.
Where the taxpayer meets the burden of proof and
overcomes the presumption that the assessment is correct,
the court is directed to grant relief from an assessment
that is incorrect or illegal. The standard makes clear
that in cases which allege overvaluation of the taxpayer’s
property, it will be unnecessary to prove that the
assessment resulted from any misconduct or improper
practices by assessing officials.
• Presumptions and Burden of Proof. As under
existing law, the assessments, rates and taxes challenged
in an objection are presumed correct. The taxpayer
will have the burden of proof by “clear and convincing
evidence” -- the highest burden applicable in civil cases -in order to rebut this presumption and obtain a tax refund.
• Scope of the Tax Objection Remedy. The reformed
tax objection procedure will preserve the broad scope of
the remedy under existing law. Thus, not only incorrect
assessments, but also statutory misclassifications,
constitutional violations, illegal levies or tax rates, and any
other legal or factual claims not exclusively provided for
in other parts of the Property Tax Code, will fall within
the ambit of a tax objection complaint.
• Conduct of Hearings. As under existing law, tax
objections will be tried to the court without a jury, and
the court will hear the matter de novo rather than as an

156a
Appendix H
appeal from the action of the assessing officials. Appeals
from final judgments may be taken to the appellate court
as in other civil cases.
• Prerequisites to Objection. There is no change in
the existing law that taxes must be paid in full as a precondition to filing a tax objection in court. Similarly, the
requirement that the taxpayer exhaust its administrative
remedy by way of appeal to the county board of appeals
or review prior to proceeding in court will continue to
apply; but this requirement is now specifically spelled out
in the statute.
Procedural Reforms
• Payment Under Protest. The current requirement
that a separate letter of protest be filed with the county
collector at the time of payment is eliminated.
• Time of Payment and Filing. Both payment of the
tax and filing of the tax objection complaint are keyed to
the due date of the second (i.e. final) installment tax bill.
To meet the condition for filing an objection, payment in
full must occur no later than 60 days from the first penalty
date for this installment, and the objection must be filed
within 75 days from that penalty date.
• Separation from Collector’s Application. Tax
objections w ill be initiated by the taxpayer as a
straightforward civil complaint, naming the county
collector as defendant. This ends the anomalous current
practice in which objections technically must be interposed

157a
Appendix H
in response to the collector’s application for judgment and
order of sale against delinquent properties.
	Burden of Proof and Standard of Review in
Assessment Cases
In resolving the questions of the standard of review
and burden of proof in assessment challenges, the Task
Force was required to balance the need to provide effective
taxpayer relief against the need to avoid opening up the
process so widely that the courts could potentially be
called on to reassess any or all property in the county. The
consensus on the Task Force was to provide for a standard
of review permitting recovery upon proof of an incorrect
or illegal assessment, but to require the taxpayer to meet
a burden of proof by “clear and convincing” evidence (the
highest burden applied in civil litigation, but clearly not the
criminal burden, “beyond a reasonable doubt”) in order
to establish that such an incorrect or illegal assessment
bas occurred. This choice of balance was preferred over
the alternative of choosing the lower burden of proof and
then attempting the seemingly impossible task of defining
an enhanced standard of review, in which the “degree of
incorrectness” would be in issue.
This balance is illustrated by a case in which the
outcome turns solely on the competing opinions of equally
compelling witnesses. It is expected that in such a case,
the assessment would be sustained since such evidence
would not constitute clear and convincing proof that the
assessment is incorrect. On the other hand, where the
evidence does clearly and convincingly demonstrate the

158a
Appendix H
existence of an incorrect assessment it is expected that
the court would grant relief.
	Scope of Proposed Reform; No Change in PTAB
Procedure
In order to solve the problems arising in the aftermath
of the Ford case, the proposed legislation is designed to
take effect immediately and to apply to all pending cases.
Additionally, although the proposed draft is of
statewide application, it must be emphasized that appeals
to the state Property Tax Appeal Board (PTAB), which
are currently the vehicle for most cases of assessment
review outside Cook County, are not changed in any way
by the draft legislation. The Task Force concluded that
a proposal for statewide application was preferable to
attempting to limit the reform to Cook County, for several
reasons.
The tax objection provisions of the Property Tax
Code which would be amended have always applied
throughout Illinois. While non-Cook County taxpayers
have had and will continue to have, as an alternative, an
administrative appeal remedy through the PTAB, the
judicial tax objection process has always been available
to these taxpayers. The Task Force sees no valid reason
to deprive non-Cook County taxpayers of this alternative
or to deprive them of the benefit of a reform in it. Indeed,
either deprivation presents potential constitutional
problems.

159a
Appendix H
II. PROPOSED PROPERTY TAX CODE
AMENDMENTS AND COMMENTARY
Following is a section-by-section analysis of the Task
Force’s proposed legislative changes to the Property Tax
Code. Deletions from the existing text of the Code are
indicated by overstrikes, and new language is highlighted
by shading. Each quotation from the Code is followed by
a brief commentary explaining the changes. The changes
in several other sections are omitted from this analysis
since the proposed amendments are primarily technical
in nature. These are detailed at the end of this report, at
which place the full text of all the proposed amendments
is reproduced, without commentary, as an appendix.
§ 21-175 Proceedings By Court
Defenses to the entry of judgment against
properties included in the delinquent list
shall be entertained by the court only when:
(a) the defense includes a writing specifying
the particular grounds for the objection; and
(b) except as otherwise provided in Section
14-15, 14-25, 23-5, and 23-25, the writing is
accompanied by an official original or duplicate
receipt of the tax collector showing that the
taxes to which objection is made have been
fully paid under protest. All tax collectors
shall furnish the necessary duplicate receipts
without charge. The court shall hear and
determine the matter as provided in Section
23-15 taxes to which objection is made are paid

160a
Appendix H
under protest pursuant to Section 23-5 and
a tax objection complaint is filed pursuant to
Section 23-10.
***
This section and Section 23-10 of the Code currently
embody the basic provisions for tax objections, requiring
that the objections be filed only as responses (“defenses”)
within the annual county collector’s application for
judgment and order of sale of delinquent properties.
Thus, although in modern times objections by definition
relate to taxes which are fully paid, by historical accident
the objection process is relegated to judicial proceedings
whose primary purpose is collection of unpaid taxes.
This produces an anomalous situation in which the
objecting taxpayer, for practical purposes the plaintiff
in the lawsuit and the party with the burden of proof,
is technically a defendant against the “application” or
complaint commenced by the county collector. See In Re
Application of County Collector (etc.) v. Randolph-Wells
Building Partnership, 78 Ill. App. 3d 769, 397 N.E.2d 232
(1st Dist. 1979).
The Task Force found no reason for this procedural
anomaly to continue. Therefore, changes in Section
23-10, cross-referenced in this section, would permit
tax objections to be commenced as a straightforward
complaint filed by the taxpayer. In theory the tax objection
complaint process should be divorced for most purposes
from the collector’s application and judgment proceedings.
However, although filed as a complaint separately from

161a
Appendix H
the collector’s application, the new form of tax objection
may nonetheless still be construed as an objection to the
annual tax judgment to the extent any part of the Code
may logically require this result (e.g. exemption claims).
Therefore the terminology of tax “objection” has been
retained in order to weave the new procedure into the
existing fabric of the Code.
The Code currently provides for two other types of tax
objection which are left essentially unchanged, although
some minor modifications in statutory language have
been proposed. First, Section 14-15 permits adjudication
of certificates of error by an “assessor’s objection” to
the collector’s application. A number of such certificates
correct assessment valuation errors for each tax year in
Cook County through such objections by the assessor, and
the courts have recognized the efficacy and convenience of
this procedure. See, e.g., Chicago Sheraton Corporation
v. Zaban, 71 Ill. 2d 85, 373 N.E. 2d 1318 (1978). Under
Section 14-25 and related sections, certificates of error
are also employed to establish exemptions.
Second, this Section 21-175, together with Sections
23-5 and 23-25, provide a limited but important role
for exemption objections filed by taxpayers: permitting
the taxpayer to block a tax sale of its property while an
application for exemption is being adjudicated on the
merits by the Department of Revenue or the courts. Since
the law does not require payment of the taxes while an
exemption claim is decided, the amendments to this section
will continue to permit exemption objections directly
within the collector’s application proceeding without

162a
Appendix H
this pre-condition. Alternatively, the exemption claimant
may accomplish the same result (forestalling a tax sale)
indirectly by filing a separate tax objection complaint
under Sections 23-5 and 23-10.
§ 23-5 Payment Under Protest
If any person desires to object under Section
21-175 to all or any part of a property tax for
any year, for any reason other than that the
property is exempt from taxation and that a
proceeding to determine the tax exempt status
of such property is pending under Section 16-70
or Section 16-130 or is being conducted under
Section 8-35 or Section 8-40, he or she shall pay
all of the tax due prior to the collector’s filing of
his or her annual application for judgment and
order of sale of delinquent properties within
sixty days from the first penalty date of the
final installment of taxes for that year. Each
payment shall be accompanied by a written
statement substantially in the following form:
Whenever taxes are paid in compliance with this
Section and a tax objection complaint is filed in
compliance with Section 23-10, one hundred
percent of such taxes shall be deemed paid
under protest without the filing of a separate
letter of protest with the county collector.
The Requirement of Protest
Payment of taxes in full is retained as a requirement
of the tax objection process. However, the necessity of

163a
Appendix H
presenting a separate letter of protest to the county
collector at the time of payment has been eliminated. The
new language makes clear that the combination of the full
payment of the tax within the statutory qualifying time
limit and the timely filing of a tax objection complaint
constitutes the act of “protest” that distinguishes such
payment from a “voluntary payment” and its consequences
under existing case law.
Under current law (Section 23-10), the “protest”
(effected by timely payment and the contemporaneous
filing of a “letter of protest”) is automatically waived if the
taxpayer fails to perfect it by filing a timely tax objection
in court. Each year several thousand taxpayers file protest
letters on pre-printed forms along with their payments,
unaware that these protests are nullified by their failure
to pursue objections in court. To this segment of the
public, the separate protest letter is at best meaningless
and at worst deceptive. For county collectors, receiving
separate protest letters is simply a useless burden upon
already busy staff.
They do not even aid the collector in complying with the
provisions of Section 20-35 of the Code, which establishes a
“Protest Fund” in which the collector must deposit certain
amounts of taxes withheld from distribution to taxing
bodies under Section 23-20. Although the “total amount
of taxes paid under protest” is one of three alternative
measures for the amount of deposits to the Protest Fund,
letters of protest cannot help the collector determine this
total since, under Section 23-10, the letters are null and
void if not followed up by the filing of objections in court.

164a
Appendix H
Therefore, the filing of the tax objection is currently, and
will remain, the crucial act permitting the taxpayer to
challenge and claim a refund of “protested” taxes, and also
permitting the collector to ascertain the “total amount of
taxes paid under protest.” This is why the amendments
provide that the qualifying tax payment plus the objection
complaint itself will constitute the taxpayer’s protest.
Time of Payment
Current law provides for the taxpayer to pay taxes
subject to objection “prior to the collector’s filing of
his or her annual application for judgment and order
of sale.” This is a cause of confusion, and occasionally
leads taxpayers to lose their right to object as a result of
missing the last date for payment, because the time of the
collector’s application fluctuates from one year to another.
The only ways for taxpayers or their counsel to become
aware of the date for a given year are to discover it in the
boiler plate legal notices published in local newspapers, or
to call the collector’s office repeatedly until the date has
been set. The Task Force concluded that establishing a
definite time period of sixty days, measured from the first
penalty date (i.e., the due date) for the final installment
tax bill for the year in question, would key the payment
deadline to the event which is most likely to be known to
the taxpayer. This period allows ample time for payment,
yet also allows the cutoff date for tax objection complaints
to fall prior to the annual tax judgment as under current
law. As under current law, taxes must be paid in full
(including any penalty which may have accrued if the
bill is paid late) in order to acquire the right to file a tax
objection complaint.

165a
Appendix H
§ 23-10 Tax Objections and Copies
Once a protest has been filed with the with
the county collector, in all counties The
person paying under protest the taxes due as
provided in Section 23-5 shall appear in he next
application for judgment and order of sale and
may file an tax objection complaint pursuant
to Section 23-15 within seventy-five days from
the first penalty date of the final installment of
taxes for the year in question. Upon failure to
do so, the protest shall be waived, and judgment
and order of sale entered for any unpaid balance
of taxes. Provided, however, that no objection to
an assessment for any year shall be allowed by
the court where an administrative remedy was
available by complaint to the board of appeals
or review under Section 16-55 or Section 16-115,
unless such remedy was exhausted prior to the
filing of the tax objection complaint.
When any tax protest is filed with the county
collector and an objection complaint is filed with
the court in a county with less than 3,000,000
inhabitants, the following procedures shall be
followed. The plaintiff person paying under
protest shall file 3 copies of the objection
complaint with the clerk of the circuit court.
Any tax objection complaint or amendment
thereto shall contain on the first page a listing of
the taxing districts against which the objection
is directed. Within 10 days after the objection

166a
Appendix H
complaint is filed, the clerk of the circuit court
shall deliver one copy to the State’s Attorney
and one copy to the county clerk, taking their
receipts therefor. The county clerk shall, within
30 days from the last day for the filing of
objections, notify the duly elected or appointed
custodian of funds for each taxing district that
may be affected by the objection, stating that
an objection has been filed * * *
The proposed amendments to this section govern the
time and prerequisites for filing tax objection complaints.
Timing is again keyed to the first penalty date (i.e., the
due date) of the final installment tax bill, just as in the
case of the qualifying payment. However, the complaint
filing may be made within seventy-five, rather than sixty,
days of that due date, thus creating a fifteen-day grace
period between the last qualifying payment date and the
last day to file complaints.
The provision of the current law that, upon failure
to appear in the collector’s application and object, the
taxpayer’s protest “shall be waived, and judgment and
order of sale entered for any unpaid balance of taxes” is
deleted as inappropriate and superfluous. The elimination
of the separate protest letter under the proposed
amendments makes its explicit ‘’waiver” unnecessary;
and since the objection complaint itself constitutes the
“protest,” the right to protest or object is obviously waived
when no complaint is filed. Moreover, the Clause referring
to “judgment and order of sale for any unpaid balance”
is generally inoperative under current law (except for

167a
Appendix H
exemption objections), since taxes subject to an objection
complaint must, by definition, be fully paid. In any event,
this clause was considered to be redundant by the Task
Force in view of the provision for entry of judgment which
is contained in Section 21-175.
The requirement that a taxpayer exhaust available
administrative remedies by appeal to the local board of
appeals or review prior to filing an objection in court is a
judicially created rule under current law. In the judgment
of the Task Force the rule performs an important function
and should be retained. It allows the administrative review
agencies to reduce the burden of objections on the courts
by granting relief which may obviate further appeals.
The amendatory language also makes explicit the current
assumption that exhaustion is not required at the assessor
level, but only at the board level. This language also alerts
the non-professional to the exhaustion rule, of which he
or she may otherwise be unaware at the critical time in
the assessment cycle.
By codifying the rule in this section, it is intended to
adopt rather than to alter existing judicial interpretations.
E.g., People a rel. Nordlund v. Lans, 31 Ill.2d 477, 202
N.E.2d 543 (1964) (taxpayer cannot object to excessive
valuation in Collector’s proceeding without first pursuing
his administrative remedies at the Board); People ex rel.
Konen v. Fulton Market Cold Storage Company, 62 Ill.2d
443, 343 N.E.2d 450 (1976) (same, where taxpayer’s issue
is classification/assessment level); In Re Application of
the County Collector, etc. v. Heerey, 173 lli.App.3d 821,
527 N.E.2d 1045 (1st Dist. 1988) (the objecting taxpayer

168a
Appendix H
need not exhaust the administrative remedy personally,
provided the subject property was brought before the
board of appeals by another interested party); In Re
Application of Pike County Collector, etc. v. Carpenter,
133 Ill.App.3d 142, 478 N.E.2d 626 (3d Dist. 1985)
(filing written complaint with board of review suffices
for exhaustion without appearance for oral hearing
on complaint). The exhaustion requirement is limited
to tax objections challenging assessments, since prior
administrative review is unavailable in cases challenging
taxing body budgets and levies (tax rate objections).
The requirement under current law that tax objections
outside Cook County provide for notice to interested
taxing bodies is unchanged in these amendments. The
terminology used in this section is altered simply to
conform to the new procedure for filing the tax objection
as a complaint separate from the collector’s application
for judgment and order of sale, and to the new provisions
abolishing the protest letter requirement.
§ 23-15 Tax Objection Procedure and Hearing
(a) A tax objection complaint under Section
23-10 shall be filed in the circuit court of the
county in which the subject property is located.
The complaint shall name the county collector
as defendant and shall specify any objections
which the plaintiff may have to the taxes in
question. No appearance or answer by the
county collector to the tax objection complaint,
nor any further pleadings, need be filed.

169a
Appendix H
Amendments to the complaint may be made to
the same extent which, by law, could be made
in any personal action pending in the court.
(b)(1) The court, sitting without a jury, shall
hear and determine all objections specified to
the taxes, assessments or levies in question.
This Section shall be construed to provide a
complete remedy for any claims with respect
to such taxes, assessments or levies, excepting
only matters for which an exclusive remedy is
provided elsewhere in this Code.
(2) The taxes, assessments and levies which are
the subject of the objection shall be presumed
correct and legal, but the presumption shall be
rebuttable. The plaintiff shall have the burden
of proving any contested matter of fact by clear
and convincing evidence.
(3) Objections to assessments shall be heard de
novo by the court. The court shall grant relief
in such cases where the objector meets the
burden of proof under this Section and shows an
assessment to be incorrect or illegal. Where an
objection is made claiming incorrect valuation,
the court shall consider such objection without
regard to the correctness of any practice,
procedure, or method of valuation followed
by the assessor or board of appeals or review
in making or reviewing the assessment, and
without regard to the intent or motivation of

170a
Appendix H
any assessing official. The doctrine known as
constructive fraud is hereby abolished.
(c) If the court shall order a refund of any part
of the taxes paid, it shall also order the payment
of interest as provided in Section 23-20. Appeals
may be taken from final judgments as in other
civil cases.
This section is completely rewritten, with all present
language deleted. The new language contains provisions
for the form of tax objection complaints, the conduct
of hearings, presumptions and the burden of proof,
the standard of review to apply in cases challenging
assessments, and appellate review of final judgments.
Subsection (a)
Form of Complaint and Initial Procedure: Venue
Because tax objections are to be filed as complaints
separate from the collector’s application, their form and
certain basic procedural matters are set forth in some
detail. As discussed below, it is intended that certain
features of the current procedure which are working
well, such as avoiding the need for extensive pleadings in
routine cases, will be continued under the new procedure.
Venue is confined to the county where the subject
property is located, to the same effect as the existing
law. Similarly, the county collector remains the party
opposing the taxpayer’s request for a tax refund. As
under current law, no particular form of complaint is

171a
Appendix H
required; the plaintiff taxpayer must simply and clearly
“specify” his or her objections to the taxes in question.
The collector is not required to file an appearance or
answer to the tax objection complaint, nor is a reply or
any further pleading required. Summons is unnecessary
and the state’s attorney, as counsel for the collector, will
receive copies of the objection complaints directly from
the clerk of the circuit court as is the case under current
law. The provision for amendments is identical to the
existing law under language contained in Section 21-180,
which applies to the prior form of objections within the
collector’s application. See People ex rel. Harris v. Chicago
and North Western Railway Co., 8 Ill.2d 246, 133 N.E.2d
22 (1956).
While this procedure is simple in order to accommodate
efficiently the many routine objections which are filed each
year, it is designed to be flexible enough to accommodate
more complex matters as well. Thus, while pleadings
subsequent to the objection complaint will not normally
be filed, it is expected that the courts and litigants will
employ the common devices of civil practice, such as
motions to dismiss or for summary judgment, as may
be appropriate to the issues in particular cases. This
continues the practice followed under existing law. See
People et rel. Southfield Apartment Co. v. Jarecki, 408
Ill. 266, 96 N.E.2d 569 (1951) (procedure under civil
practice law applies to matters under Revenue Act (now
the Property Tax Code) except where the. Act specifically
provides contrary procedural rules); 735 ILCS 5/1-108(b)
(1994) (Article II of the Code of Civil Procedure governs
except where separate statutes provide their own contrary
procedures).

172a
Appendix H
Control of Discovery
In proposing a revised standard of review, another
important goal of the Task Force, in addition to the goals
discussed below in subsection (b), is to provide a foundation
for judicial control of the time-consuming, unproductive
discovery contests which have plagued tax objection
litigation under the current constructive fraud standard.
As in any civil litigation, the scope of discovery in tax
objection matters must be determined according to the
nature of the legal and factual issues which are actually
in dispute. See Illinois Supreme Court Rule 201(b)(1)
(relevant discovery “relates to the claim or defense”
of a party). Under the constructive fraud doctrine as
interpreted in the Ford case, even in the most typical
overvaluation claims, taxpayers have of necessity been
forced to focus on alleged errors in the assessment process;
and a flurry of discovery has inevitably followed. Under the
draft standard of review in subsection (b)(3), constructive
fraud is abolished and the statutory language makes it
clear that such overvaluation claims (which constitute the
vast majority, although not all, of the court’s tax objection
caseload) will focus on the accuracy of the assessed value
instead of on the assessment process which established
that value. In the typical overvaluation case under the
new standard, where the “practice, procedure or method
of valuation” and the “intent or motivation of ... assessing
official[s]” are expressly made irrelevant to recovery, the
need for discovery will be limited by curtailing inquiry
into these irrelevant factors.

173a
Appendix H
The judicial tools for control of discovery already exist
under Illinois Supreme Court Rule 201(c)(2), providing
for court supervision of “all or any part of any discovery
procedure”; Supreme Court Rule 218, providing the court
with express authority to conduct a pre-trial conference,
and to enter an order following the conference which
“specifies the issues for trial,” simplifies the issues,
determines admissions or stipulations, limits the number
of expert witnesses, and so forth; and, Supreme Court
Rule 220(b), which similarly provides express authority
to structure discovery as to experts. The court may use
these rules, either sua sponte or on motion of a party, to
set guidelines for appropriate discovery in tax objection
cases. Such guidelines will be set at an early point in the
life of the case, based on the actual contested issues (as
opposed to general allegations in the complaint, which
are often far broader than the issues that are contested),
so that discovery may proceed promptly and efficiently.
	Subsection (b)
Scope and Conduct of Hearings;
Presumptions and Burden of Proof: Standard of
Review
Subsection (b)(1) codifies several features of existing
tax objection law for purposes of the proposed procedure,
including the requirement that cases be tried to the bench
rather than a jury. As under current law, the court will
hear tax objections de novo rather than as appeals from
the decision of the board of appeals or review. Such direct
appeal (under the Administrative Review Law) is barred
under White v. Board of Appeals, 45 Ill.2d 378, 259 N.E.2d
51 (1970).

174a
Appendix H
This subsection also emphasizes that tax objections
are intended to provide a complete remedy, excepting
only matters for which an exclusive remedy is provided
elsewhere (as in Section 8-40 governing judicial review
under the Administrative Review Law of certain final
decisions of the Department of Revenue). The broad
scope of the tax objection remedy is an essential feature
of the reform scheme. In its review of the Cook County
tax objection process some fifteen years ago, the U.S.
Supreme Court held that the taxpayer must be afforded
“a full hearing and judicial determination at which she
may raise any and all constitutional objections to the tax”
in order for the process to pass muster under federal law.
Rosewell v. LaSalle National Bank, 450 U.S. 503, 514, 516,
n. 19 (1981). Of course, as under existing law, the reformed
tax objection process will not permit counterclaims by
the collector or a judgment by the court increasing the
taxpayer’s assessment or tax.
Tax objection procedure encompasses, in addition
to valuation objections, the so-called rate objections
(challenging the legality of certain portions of the tax
levies that ultimately determine the tax rate), as well as
other legal challenges. No change is intended that would
affect the standards applied in rate litigation or other
legal challenges.
Subsection (b)(2) provides for a presumption of the
correctness of challenged taxes, assessments and levies,
which the taxpayer may rebut with proof (as to any
contested factual matter) by clear and convincing evidence.
The application of these provisions to assessment appeals,

175a
Appendix H
under the standard of review of contested assessments
set forth in subsection (b)(3), required the Task Force
to strike a balance between the public’s interest in relief
from improper taxes and its interest in stable property
tax revenues. (It should be emphasized that the balance
of these public interests simply informed the choice of the
appropriate legal standard to be written in the Property
Tax Code; such general policy concerns are not intended
to be weighed in the balance by courts when the standard
is applied to individual cases.) Much of the Task Force’s
work was devoted to this single issue.
The use of “constructive fraud” in earlier tax litigation
was an attempt to provide for such a balance, on the one
hand permitting at least some relief in serious cases
(without having to prove actual fraud), and, on the other
hand, avoiding the situation where every taxpayer is able
to ask the court to revalue its property. With the apparent
closing off of the first of these desiderata in the Ford case
and its sequels, the Task Force proposal now attempts
to make the former trade-off explicit, and more fairly
balanced than it was under the hodge-podge of rulings
which resulted from the constructive fraud doctrine.
This is sought to be accomplished by providing for an
appropriate burden of proof, separately from the question
of the appropriate standard of review.
As to the burden of proof, the choice came down to “a
preponderance of the evidence” (the ordinary plaintiff’s
burden in civil litigation), or “clear and convincing
evidence” (the highest burden in civil litigation, but clearly
not the criminal burden, “beyond a reasonable doubt”). As

176a
Appendix H
to the standard of review, for valuation issues, the choice
was whether to make it “incorrect,” or whether it should be
some form of words attempting to indicate a requirement
to show a higher degree of inaccuracy (such as “grossly
excessive” or “substantially erroneous”).
The consensus of the Task Force was to require the
higher burden of proof coupled with the less restrictive
standard of review. Thus, for a taxpayer to overcome
the presumption of validity of the assessment, he or she
would have to prove an incorrect assessment by clear
and convincing evidence. The proposed new language
also expressly eliminates the doctrine of “constructive
fraud” from the court’s consideration. (Of course, this is
not intended to affect the general law of fraud, actual or
constructive, outside of the context of real property tax
matters.) Further, the new language negatives the judicial
requirement, enunciated in the Ford case, that in order to
prevail the taxpayer must prove that the assessing officials
or their staff made some specific and demonstrable error
in arriving at the assessment.
The Task Force consensus reflects its judgment that
the attempt to define, let alone to prove, an elevated degree
of assessment inaccuracy is inherently speculative and
cannot be reconciled with the need for a clear standard of
review. Moreover, the public interest in avoiding a flood of
questionable judicial reassessments is not appropriately
addressed by denying recovery for some inaccuracies, and
allowing recovery for others whose parameters can only
be vaguely defined. Rather, it is appropriately addressed
by an elevated level of proof required to show that an
incorrect assessment has occurred.

177a
Appendix H
The Task Force therefore concluded that the public
interest is best served by an initial presumption of
correctness of the challenged assessment, and then a
burden on the taxpayer to prove by clear and convincing
evidence that the assessment is incorrect. For example,
should a trial outcome tum solely on valuation evidence,
if the competing valuation conclusions are determined
by the court to be equally compelling, it is expected that
the assessment would be sustained since the evidence
would not constitute clear and convincing proof that the
assessed value is incorrect. On the other hand, relief would
be granted where there is a clear and convincing showing
of incorrectness.
It must be remembered that actual damage is an
essential element of the taxpayer’s cause of action under
any standard of review. Thus, although a taxpayer
might prove that a “mistake” in his assessed valuation
has occurred in the abstract sense, if the “mistaken”
valuation and resulting tax is not shown to exceed the
proper valuation and its resulting tax, then the assessment
is not incorrect within the meaning of the law, and no
recovery may be had. E.g. In Re Application of Rosewell
(etc.) v. Bulk Terminals Company, 73 Ill.App.3d 225,
238 (1st Dist. 1979) (leasehold assessment by a legally
incorrect computation is not subject to challenge where
an assessment by the legally corrbct computation would
be higher). The proposed legislation is not intended to
depart from this “no harm, no foul” rule. To the contrary,
the revised standard strengthens the rule by explicitly
providing for valuation objections “without regard to
the correctness of any practice, procedure or method

178a
Appendix H
of valuation” or the “intent or motivation of ... assessing
official[s].” (Subsection (b)(3).)
	Subsection (c)
Final Judgments and Appellate Review
The provisions of this subsection, requiring interest
to be paid upon any taxes which the court may order the
collector to refund to the plaintiff taxpayer, and providing
for appeals from final judgments as in other civil actions,
are essentially identical to the existing law.
§ 23-25 Tax Exempt Property; Restriction
on Tax Objections
No taxpayer may pay under protest as provided
in Section 23-5 or file an objection as provided in
Section 21-175 or Section 23-10 on the grounds
that the property is exempt from taxation, or
otherwise seek a judicial determination as to
tax exempt status, except as provided in Section
8-40 and except as otherwise provided in this
Section and Section 14-25 and Section 21-175.
Nothing in this Section shall affect the right
of a governmental agency to seek a judicial
determination as to the exempt status of
property for those years during which eminent
domain proceedings were pending before a
court, once a certificate of exemption for the
property is obtained by the governmental
agency under Section 8-35 or Section 8-40. This
Section shall not apply to exemptions granted
under Sections 15-165 through 15-180.

179a
Appendix H
The limitation in this Section shall not apply to
court proceedings relating to an exemption for
1985 and preceding assessment years. However,
an order entered in any such proceeding shall
not preclude the necessity of applying for an
exemption for 1986 or later, assessment years
in the manner provided by Sections 16-70 or
16-130.
The proposed changes to this section are technical
in nature. Minor variations in language and statutory
cross-references are made to accommodate the abolition
of the separate protest letter, and to recognize that either
the traditional objection or the new objection complaint
procedure may be used to withdraw a property from the
tax sale pending the determination of an exemption claim.
(See commentary to Section 21-175 above.) The second
paragraph restores language formerly included in the
statute, which was unintentionally deleted during the
recent Property Tax Code recodification project despite
the legislature’s purpose to avoid any substantive changes
in the meaning or application of the law.
§ 23-30 Conference on Tax Objection
Upon Following the filing of an objection under
Section 21-175 23-10, the court must, unless the
matter has been sooner disposed of, within 90
days after the filing may hold a conference with
between the objector and the State’s Attorney.
If no agreement is reached at the conference,
the court must, upon the demand of either the

180a
Appendix H
taxpayer or the State’s attorney, set the matter
for hearing within 90 days of the demand.
Compromise agreements on tax objections
reached by conference shall be filed with the
court, and the State’s Attorney parties shall
prepare an order covering the settlement and
file submit the order with the clerk of to the
court within 15 days following the conference
for entry.
This section of the Code recognizes the authority of
the courts to conduct pre-trial conferences with a view to
resolving tax objections by compromise, and provides for
orders to effectuate any resulting settlements. Caselaw
has made it clear that there is inherent as well as statutory
authority for settlement of tax matters. See In Re
Application of County Collector (etc.), J&J Partnership v.
Laborers’ International Union Local No. 703, 155 Ill.2d
520, 617 N.E.2d 1192 (1993); People ex rel. Thompson v.
Anderson, 119 Ill.App.3d 932, 457 N.E.2d 489 (3d Dist.
1983). Compromise is to be encouraged in any litigation
and, under the proposed legislation, it is anticipated that
settlements will still be the rule rather than the exception.
The time limits in the current provision, although
framed in ostensibly peremptory terms, have been
construed as directory rather than mandatory by the
Illinois Attorney General. 1975 Opin. Atty. Gen. No. S-1011.
Moreover, the time limits have not been observed in any
court proceeding in Cook County within the memory of
any lawyer now practicing, as near as the Task Force can
determine. The proposal therefore deletes these limits

181a
Appendix H
as unrealistic. Of course, the courts retain their inherent
authority to schedule pretrial conferences, to encourage
settlements, and to establish rules and procedures to
accomplish these ends. (For an example of the exercise
of this authority, see Rules of the Circuit Court of Cook
County, Rule 10.6, “Small Claims Proceedings for Real
Estate Tax Objections.”)
Provision for Effective Date and Application
to Pending Cases (Uncodified)
§ __. This amendatory Act of 1995 shall take
effect immediately upon becoming law and shall
apply to all tax objection matters still pending
for any tax year, provided that the procedures
and time limitations for payment of taxes and
filing tax objection complaints under amended
Property Tax Code Sections 23-5 and 23-10
shall apply only to tax year 1994 and subsequent
tax years.
Given the subject matter of the proposed amendments
to the Property Tax Code, it is likely that courts would
construe them to have retroactive effect upon pending tax
objections filed under the current procedure in any event.
For the authority to make the provisions retroactive, see
Schenz v. Castle, 84 Ill.2d 196, 417 N.E.2d 1336, 1340
(1981); People ex rel. Eitel v. Lindheimer, 371 Ill. 367, 371
(1939); Isenstein v. Rosewell, 106 Ill.2d 301, 310 (1985);
(no vested right in continuation of tax statute, therefore
amendments are retroactive). However, in order to
address the concerns which led to the proposed reform,

182a
Appendix H
the Task Force believes that it is essential to avoid any
unclarity as to the effectiveness and application of the
amendments. Accordingly, this section, which need not be
codified, is proposed to make unmistakable the legislative
intent that these amendments take effect immediately
and that they govern the disposition of all tax objection
matters not previously disposed of by final judgment (i.e.,
matters which remain pending either at the circuit court
level or on appeal).
The proposed amendments have been drafted with
a view to immediate enactment. Accordingly, the filing
requirements are proposed to be first applied to tax year
1994 (as to which payment will be due and objections
will be filed the latter part of calendar year 1995) and
then to later tax years. Payments under protest and tax
objection filings for tax year 1993 and prior years have
been completed under the current procedure. Of course,
as stated above, the hearing of objections for all tax years
prior to 1994 would be governed in all other respects by
the new amendments.

183a
Appendix H
APPENDIX
CIVIC FEDERATION TASK FORCE ON
REFORM OF THE COOK COUNTY
TAX APPEALS PROCESS
PROPOSED AMENDMENTS
TO PROPERTY TAX CODE
Part I: Principal Provisions
§ 21-175. Proceedings by court. Defenses to the entry of
judgment against properties included in the delinquent
list shall be entertained by the court only when: (a) the
defense includes a writing specifying the particular
grounds for the objection; and (b) except as otherwise
provided in Section 14-15, 14-25, 23-5, and 23-25, the
writing is accompanied by an official original or duplicate
receipt of the tax collectors showing that the taxes to
which objection is made have been fully paid under
protest. All tax collectors shall furnish the necessary
duplicate receipts without charge. The court shall hear
and determine the matter as provided in Section 23-15
taxes to which objection is made are paid under protest
pursuant to Section 23-5 and a tax objection complaint is
filed pursuant to Section 23-10.
If any party objecting is entitled to a refund of all or any
part of a tax paid under protest, the court shall enter
judgment accordingly, and also shall enter judgment for
the taxes, special assessments, interest and penalties as
appear to be due. The judgment shall be considered as a

184a
Appendix H
several judgment against each property or part thereof,
for each kind of tax or special assessment included
therein. The court shall direct the clerk to prepare and
enter an order for the sale of the property against which
judgment is entered. However, if a defense is made that
the property, or any part thereof, is exempt from taxation
and it is demonstrated that a proceeding to determine the
exempt status of the property is pending under Section
16-70 or 16-130 or is being conducted under Section 8-35
or 8-40, the court shall not enter a judgment relating to
that property until the proceedings being conducted under
Section 8-35 or Section 8-40 have been terminated.
§ 23-5. Payment under protest. If any person desires to
object under Section 21-175 to all or any part of a property
tax for any year, for any reason other than that the
property is exempt from taxation and that a proceeding
to determine the tax exempt status of such property is
pending under Section 16-70 or Section 16-130 or is being
conducted under Section 8-35 or Section 8-40 he or she
shall pay all of the tax due prior to the collector’s filing of
his or her annual application for judgment and order of
sale of delinquent properties within sixty days from the
first penalty date of the final installment of taxes for that
year. Each payment shall be accompanied by a written
statement substantially in the following form: Whenever
taxes are paid in compliance with this Section and a tax
objection complaint is filed in compliance with Section
23-10, one hundred percent of such taxes shall be deemed
paid under protest without the filing of a separate letter
of protest with the county collector.
[Delete all other text in existing section including
statutory protest form.]

185a
Appendix H
§ 23-10. Tax objections and copies. Once a protest has been
filed with the with the county collector, in all counties The
person paying under protest the taxes due as provided
in Section 23-5 shall appear in he next application for
judgment and order of sale and may file an tax objection
complaint pursuant to Section 23-15 within seventy-five
days from the first penalty date of the final installment
of taxes for the year in question. Upon failure to do so,
the protest shall be waived, and judgment and order of
sale entered for any unpaid balance of taxes. Provided,
however, that no objection to an assessment for any year
shall be allowed by the court where an administrative
remedy was available by complaint to the board of appeals
or review under Section 16-55 or Section 16-115, unless
such remedy was exhausted prior to the filing of the tax
objection complaint.
When any tax protest is filed with the county collector
and an objection complaint is filed with the court in a
county with less than 3,000,000 inhabitants, the following
procedures shall be followed: tThe plaintiff person paying
under protest shall file 3 copies of the objection complaint
with the clerk of the circuit court. Any tax objection
complaint or amendment thereto shall contain on the first
page a listing of the taxing districts against which the
objection is directed. Within 10 days after the objection
complaint is filed, the clerk of the circuit court shall deliver
one copy to the State’s Attorney and one copy to the county
clerk, taking their receipts therefor. The county clerk
shall, within 30 days from the last day for the filing of
objections, notify the duly elected or appointed custodian
of funds for each taxing district that may be affected by
the objection, stating that an objection has been filed. * * *

186a
Appendix H
[Continue with existing text regarding
notice to affected taxing districts.]
§ 23-15. Tax objection procedure and hearing.
[Delete all language presently in this section
and replace with the following.]
(a) A tax objection complaint under Section 23-20 shall be
filed in the circuit court of the county in which the subject
property is located. The complaint shall name the county
collector as defendant and shall specify any objections
which the plaintiff may have to the taxes in question. No
appearance or answer by the county collector to the tax
objection complaint, nor any further pleadings, need be
filed. Amendments to the complaint may be made to the
same extent which, by law, could be made in any personal
action pending in the court.
(b)(1) The court, sitting without a jury, shall hear and
determine all objections specified to the taxes, assessments
or levies in question. This Section shall be construed to
provide a complete remedy for any claims with respect to
such taxes, assessments or levies, excepting only matters
for which an exclusive remedy is provided elsewhere in
this Code.
(2) The taxes, assessments and levies which are the subject
of the objection shall be presumed correct and legal, but
the presumption shall be rebuttable. The plaintiff shall
have the burden of proving any contested matter of fact
by clear and convincing evidence.

187a
Appendix H
(3) Objections to assessments shall be heard de novo
by the court. The court shall grant relief in such cases
where the objector meets the burden of proof under this
Section and shows an assessment to be incorrect or illegal.
Where an objection is made claiming incorrect valuation,
the court shall consider such objection without regard to
the correctness of any practice, procedure, or method of
valuation followed by the assessor or board of appeals
or review in making or reviewing the assessment, and
without regard to the intent or motivation of any assessing
official. The doctrine known as constructive fraud is
hereby abolished.
(c) If the court shall order a refund of any party of the
taxes paid, it shall also order the payment of interest as
provided in Section 23-20. Appeals may be taken from
final judgments as in other civil cases.
§ 23-25. Tax exempt property; restriction on tax
objections. No taxpayer may pay under protest as provided
in Section 23-5 or file an objection as provided in Section
21-175 or Section 23-10 on the grounds that the property
is exempt from taxation, or otherwise seek a judicial
determination as to tax exempt status, except as provided
in Section 8-40 and except as otherwise provided in this
Section and Section 14-25 and Section 21-175. Nothing
in this Section shall affect the right of a governmental
agency to seek a judicial determination as to the exempt
status of property for those years during which eminent
domain proceedings were pending before a court, once a
certificate of exemption for the property is obtained by
the governmental agency under Section 8-35 or Section

188a
Appendix H
8-40. This Section shall not apply to exemptions granted
under Section 8-35 or Section 8-40. This section shall
not apply to exemptions granted under Sections 15-165
through 15-180.
The limitation in this Section shall not apply to court
proceedings relating to an exemption for 1985 and
preceding assessment years. However, an order entered
in any such proceeding shall not preclude the necessity
of applying for an exemption for 1986 or later assessment
years in the manner provided by Sections 16-70 or 16-130.
§ 23-30. Conference on tax objection. Upon Following
the filing of an objection under Section 21-175 23-10, the
court must, unless the matter has been sooner disposed
of, within 90 days after the filing may hold a conference
with between the objector and the State’s Attorney. If no
agreement is reached at the conference, the court must,
upon the demand of either the taxpayer or the State’s
attorney, set the matter for hearing within 90 days of
the demand. Compromise agreements on tax objections
reached by conference shall be filed with the court, and the
State’s Attorney parties shall prepare an order covering
the settlement and file submit the order with the clerk of to
the court within 15 days following the conference for entry.
[Provision for Effective Date and Application
to Pending Cases (Uncodified)]
§ __. This amendatory Act of 1995 shall take effect
immediately upon becoming law and shall apply to all tax
objection matters still pending for any tax year, provided

189a
Appendix H
that the procedures and time limitations for payment of
taxes and filing tax objection complaints under amended
Property Tax Code Sections 23-5 and 23-10 shall apply
only to tax year 1994 and subsequent tax years.
Part II: Additional Provisions
§ 14-15. Certificate of error; counties of 3,000,000 or
more.
(a) In counties with 3,000,000 or more inhabitants, if,
at any time before judgment is rendered in any proceeding
to collect or to enjoin the collection of taxes based upon
any assessment of any property belonging to any taxpayer,
the county assessor discovers an error or mistake in the
assessment, the assessor shall execute a certificate setting
forth the nature and cause of the error. The Certificate
when endorsed by the county assessor, or when endorsed
by the county assessor and board of appeals for the tax
year for which the certificate is issued, may be received
in evidence in any court of competent jurisdiction. When
so introduced in evidence such certificate shall become a
part of the court records, and shall not be removed from
the files except upon the order of the court.
A certificate executed under this Section may be
issued to the person erroneously assessed, or a list of the
tax parcels for which certificates have been issued, may
be presented by the assessor to the court as an objection
in the application for judgment and order of sale for the
year in relation to which the certificate is made. The state’s
attorney of the county in which the property is situated

190a
Appendix H
shall mail a copy of any final judgment entered by the
court regarding the certificate to the taxpayer of record
for the year in question.
Any unpaid taxes after the entry of the final judgment
by the court on certificates issued under this Section
may be included in a special tax sale, provided that an
advertisement is published and a notice is mailed to
the person in whose name the taxes were last assessed,
in a form and manner substantially similar to the
advertisement and notice required under Sections 21-110
and 21-135. The advertisement and sale shall be subject to
all provisions of law regulating the annual advertisement
and sale of delinquent property, to the extent that those
provisions may be made applicable.
A certificate of error executed under this Section
allowing homestead exemptions under Sections 15-170 and
15-175 of this Code no previously allowed shall be given
effect by the county treasurer, who shall mark the tax
books and, upon receipt of the following certificate from
the county assessor or supervisor of assessments, shall
issue refunds to the taxpayer accordingly:
“CERTIFICATION
I . . . . county assessor or super visor of
assessments, hereby certify that the Certificates
of Error set out on the attached list have been
duly issued to allow homestead exemptions
pursuant to Sections 15-170 and 15-175 of the
Property Tax Code which should have been

191a
Appendix H
previously allowed; and that a certified copy
of the attached list and this certification have
been served upon the county State’s Attorney.”
The county treasurer has the power to mark the tax
books to reflect the issuance of homestead certificates of
error from and including the due date of the tax bill for
the year for which the homestead exemption should have
been allowed until 2 three years after the first day of
January of the year after the year for which the homestead
exemption should have been allowed. The county treasurer
has the power to issue refunds to the taxpayer as set forth
above from and including the first day of January of the
year after the year for which the homestead exemption
should have been allowed until all refunds authorized by
this Section have been completed.
The county treasurer has no power to issue refunds
to the taxpayer as set forth above unless the Certification
set out in this Section has been served upon the county
State’s Attorney.
(b) Nothing in subsection (a) of this Section shall be
construed to prohibit the execution, endorsement, issuance
and adjudication of a certificate of error where the annual
judgment and order of sale for the tax year in question
is reopened for further proceedings upon consent of the
county collector and county assessor, represented by
the State’s Attorney, and where a new final judgment is
subsequently entered pursuant to the certificate. This
subsection (b) shall be construed as declarative of the
existing law and not as a new enactment.

192a
Appendix H
(c) No certificate of error, other than a certificate to
establish an exemption pursuant to Section 14-25, shall
be executed for any tax year more than three years after
the date on which the annual judgment and order of sale
for that tax year was first entered.
§ 21-110. Published notice of annual application for
judgment and sale; delinquent taxes. At any time after all
taxes have become delinquent or are paid under protest
in any year, the Collector shall publish an advertisement,
giving notice of the intended application for judgment
and sale of the delinquent properties and for judgment
fixing the correct amount of any tax paid under protest.
Except as provided below, the advertisement shall be in
a newspaper published in the township or road district in
which the properties are located. If there is no newspaper
published in the township or road district, then the notice
shall be published in some newspaper in the same county
as the township or road district, to be selected by the
county collector. When the property is in a city with more
than 1,000,000 inhabitants, the advertisement may be in
any newspaper published in the same county. When the
property is in an incorporated town which has superseded
a civil township, the advertisement shall be in a newspaper
published in the incorporated town or if there is not such
newspaper, then in a newspaper published in the county.
The provisions of this Section relating to the time
when the Collector shall advertise intended application
for judgment for sale are subject to modification by the
governing authority of a county in accordance with the
provision of subsection (c) of Section 21-40.

193a
Appendix H
§ 21-115. Times of publication of notice. The advertisement
shall be published once at least 10 days before the day
on which judgment is to be applied for, and shall contain
a list of the delinquent properties upon which the taxes
of any part thereof remain due and unpaid, the names
of owners, if known, the total amount due, and the year
or years for which they are due. In counties of less than
3,000,000 inhabitants, advertisement shall include notice
of the registration requirement for persons biding at
the sale. Properties upon which taxes have been paid in
full under protest shall not be included in the list. The
collector shall give notice that he or she will apply to the
circuit court on a specified day for judgment against the
properties for the taxes, and costs and for an order to sell
the properties for the satisfaction of the amount due, and
for a judgment fixing the correct amount of any tax paid
under protest.
The Collector shall also give notice that on the . . . .
Monday next succeeding the date of application all the
properties for the sale of which an order is made, will
be exposed to public sale at a location within the county
designated by the county collector, for the amount of taxes,
and cost due. The advertisement published according
to the provisions of this section shall be deemed to be
sufficient notice of the intended application for judgment
and of the sale of properties under the order of the court,
or for judgment fixing the correct amount of any tax paid
under protest. Notwithstanding the provision of this
Section and Section 21-110, in the 10 years following the
completion of a general reassessment of property in any
county with 3,000,000 or more inhabitants, made under

194a
Appendix H
any order of the Department, the publication shall be
made not sooner than 10 days nor more than 90 days after
the date when all unpaid taxes or property have become
delinquent.
§ 21-150. Time of applying for judgment. Except as
otherwise provided in this Section or by ordinance or
resolution enacted under subsection (c) of Section 21-40,
all applications for judgment and order of sale for taxes
and special assessments on delinquent properties and for
judgment fixing the correct amount of any tax paid under
protest shall be made during the month of October. In
those counties which have adopted an ordinance under
Section 21-40, the application for judgment and order of
sale for delinquent taxes or for judgment fixing the correct
amount of any tax paid under protest shall be made in
December. In the 10 years next following the completion
of a general reassessment of property in any county with
3,000,000 or more inhabitants, made under an order of the
Department, applications for judgment and order of sale
and for judgment fixing the correct amount of any tax paid
under protest shall be made as soon as may be and on the
day specified in the advertisement required by Section
21-110 and 21-115. If for any cause the court is not held
on the day specified, the cause shall stand continued, and
it shall be unnecessary to re-advertise the list or notice.
Within 30 days after the day specified for the
application for judgment the court shall hear and
determine the matter. If judgment is rendered, the sale
shall begin on the Monday specified in the notice as
provided in Section 21-115. If the collector is prevented

195a
Appendix H
from advertising and obtaining judgment during the
month of October, the collector may obtain judgment at
any time thereafter; but if the failure arises by the county
collector’s not complying with any of the requirements of
this Code, he or she shall be held on his or her official bond
for the full amount of all taxes and special assessments
charged against him or her. Any failure on the part of the
county collector shall not be allowed as a valid objection
to the collection of any tax or assessment, or to entry of
a judgment against any delinquent properties included
in the application of the county collector, or to the entry
of a judgment fixing the correct amount of any tax paid
under protests.
§ 21-160. Annual tax judgment, sale, redemption, and
forfeiture record. The collector shall transcribe into a
record prepared for that purpose, and known as the annual
tax judgment, sale, redemption and forfeiture record,
the list of delinquent properties and of properties upon
which taxes have been paid under protest. The record
shall be made out in numerical order, and contain all the
information necessary to be recorded, at least 5 days
before the day on which application for judgment is to be
made.
The record shall set forth the name of the owner, if
known; the description of the property; the year or years
for which the tax, or in counties with 3,000,000 or more
inhabitants, the tax or special assessments, are due or for
which the taxes have been paid under protest; the amount
of taxes paid under protest; valuation on which the tax
is extended; the amount of the consolidated and other

196a
Appendix H
taxes or in counties with 3,000,000 or more inhabitants,
the consolidated and other taxes and special assessments;
the costs; and the total amount of the charges against the
property.
The record shall also be ruled in columns, to show
in counties with 3,000,000 or more inhabitants the
withdrawal of any special assessments from collection
and in all counties to show the amount paid before entry
of judgment; the amount of judgment and a column for
remarks; the amount paid before sale and after entry of
judgment; the amount of the sale; the amount of interest
or penalty; amount of cost; amount forfeited to the State;
date of sale; acres or part sold; name of purchaser;
amount of sale and penalty; taxes of succeeding years;
interest and when paid, interest and cost; total amount
of redemption; date of redemption; when deed executed;
by whom redeemed; an a column for remarks or receipt
of redemption money.
The record shall be kept in the office of the county
clerk.
§ 21-170. Report of payments and corrections. On the day
on which application for judgment on delinquent property
is applied for, the collector, assisted by the county clerk,
shall post all payments compare and correct the list, and
shall make and subscribe an affidavit, which shall be
substantially in the following form:

197a
Appendix H
State of Illinois		
)
				)
County of _______
)

ss.

I . . ., collector of the county of . . ., do solemnly swear
(or affirm, as the case may be), that the foregoing is a
true and correct list of the delinquent property within
the county of . . ., upon which I have been unable to collect
the taxes (and special assessment, interest, and printer’s
fees, if any), charged thereon, as required by law, for the
year or years therein set forth; and of all of the properties
upon which the taxes have been paid under protest; and
that the taxes now remain due and unpaid, to the best of
my knowledge and belief.
Dated . . . . . . .
The affidavit shall be entered at the end of the list,
and signed by the collector.
§ 23-35. Tax objection based on budget or appropriation
ordinance. Notwithstanding the provisions of Section
21-175 23-10, no objection to any property tax levied by
any municipality shall be sustained by any court because
of the forms of any budget or appropriation ‘ordinance,
or the degree of itemization or classification of items
therein, or the reasonableness of any amount budgeted
or appropriated thereby, if: * * *
[Continue with existing text of section.]

198a
Appendix H
MAJOR PROVISIONS OF
AMENDMENTS 1 AND 2 TO HOUSE BILL 1465
Status: passed Senate 5/23/95 on strict party-line vote,
33 in favor, 25 against.
I.

Tax Objection Provisions.
A. Civic Federation Task Force draft adopted.
B. Only changes are clarifications requested by the
DuPage County Treasurer:
(1) Objection complaints must be filed prior to
annual tax judgment to avoid risk of tax sale.
§ 23-10.
(2) No objection complaints to be filed as class
action. § 23-15.
C. Task Force Report adopted as legislative history
of tax objection provisions in Senate floor debate.

II. Abolition of Board of Appeals and Selection of Interim
and Permanent Boards of Review.
A. Board of Appeals abolished as of 1/1/96. § 5-5(a).
B. 3-Member Interim Board of Review as of 1/1/96
through 12/98. § 5-5(b)(l).
(1) Selection:

199a
Appendix H
(a) Appointed by members of General
Assembly whose districts lie all or in
part within Cook County. § 5-5(b)(1).
(b) Major ity and m inor ity leaders of
each house choose 2 members each of
General Assembly to serve as selection
committee. § 5-5(b)(2).
(c) Committee selects 4 candidates by
10/1/95. No party qualification. Id.
(d) If committee fails, Governor selects 4
candidates by 10/15/95. Id. No more than
2 from one political party.
(e) Members of General Assembly with Cook
County Districts cast votes weighted by
turnout in last gubernatorial election,
each member voting for only one
candidate. Highest 3 vote-getters are
selected. §5-5(6)(3).
(2) All action of the Board is by majority vote.
§ 5-5(b)(3).
B. 3-Member Permanent Board of Review as of
12/98. § 5-5(c).
(1) Selection:

200a
Appendix H
(a) G enera l A ssembly t o est abl i sh 3
compact, contiguous election districts of
substantially equal population by 6/1/96.
Id.
(b) Members elected for four-year terms;
chair to rotate. Id.
(2) All action of the Board is by majority vote.
Id.
Ill. Powers and Duties of Interim and Permanent Boards.
A. Same powers as current Board of Appeals to
“revise and correct” assessment “as shall appear
to ... be just,” on “taxpayer’s” formal complaint
that property is overassessed, underassessed, or
exempt. §§ 16-115, 16-120.
B. Expanded (apparently plenary) power to “revise,
correct, alter, or modify” and assessment for
“good cause” upon:
(1) “Written complaint” by “any taxpayer’’ or
interested taxing district;
(2) “Request” by “any taxpayer” or interested
taxing district;
(3) “Written motion” of any one or more Board
member(s);

201a
Appendix H
(4) The prior restriction to proceedings by
“complaint” only is expressly rejected. § 1695.
C. Notice required to all affected taxpayers,
Assessor, taxing districts prior to increasing
or reducing any assessments. §§ 12-50 (note
references to equalization changes), 16-95; see
also §§ 16-120, 16-125 (as under Board of Appeals).
D. May have power, but not explicit mandatory
duty, to alter assessments through intra-county
equalization. §§ 16-95, 12-50; note also basic
duties as described in §§ 5-10, 16-150; compare
downstate intra-county equalization provisions,
§§ 16-60, 16-65.
E. The Board is not restricted to directing the
Assessor to carry out its decisions, but apparently
may enter the altered assessments directly on
the books. §§ 5-15, 9-85 (Amendment 2).
F. The Board is to have the use of, and the
Assessor shall furnish, “information utilized in
the assessment of property, including, but not
limited to, reports generated from the multiple
regression equation and sales/ratio studies, if
any,” and underlying data. The Department of
Revenue is to provide their ratio studies. § 6-20(b)
(Amendment 2).

202a
Appendix H
G. Assessment reductions granted on homestead
(owner occupied residential) property are frozen
for balance of the assessment period in the
absence of a showing of substantial cause why
the reduced value should not be maintained by
Assessor or taxpayer or “other interested party.”
Note this has been added through the downstate
provision rather than a new provision (was to have
been § 16-103). § 16-80 (Amendment 2).
IV. Triennial Reassessment Districts and Reassessment
Schedule.
A. Cook County Board authority over reassessment
districts and the (current) triennial cycle
terminates 1/1/96. § 9-220.
B. Triennial districts and cycle are established in
similar form to those under the current county
ordinance. Id.
V. PTAB Jurisdiction Extended to Cook County
A. Residential property of 6 or less units as of 1996
tax year;
B. All other property as well as of 1997 tax year.
§ 16-160.
C. Note taxpayers may elect PTAB or tax objection,
and taxing bodies may appeal to PTAB, under
original language currently applicable only
downstate.

203a
Appendix H
AN ACT in relation to property taxes.
Be it enacted by the People of the State of Illinois,
represented in the General Assembly:
Section 5. The Property Tax Cede is amended by
changing Sections 4-10, 5-5, 5-10, 5-15, 6-10, 6-20, 6-40,
6-45, 9-5, 9-85, 9-220, 9-260, 9-265, 12-50, 14-10, 14-15,
14-35, 16-5, 16-10, 16-80, 16-95, 16-100, 16-105, 16-110,
16-115, 16-120, 16-125, 16-130, 16-135, 16-140, 16-145,
16-150, 16-155, 16-160, 18-170, 21-110, 21-115, 21-135, 21-150,
21-160, 21-170, 21-175, 23-5, 23-10, 23-15, 23-25, 23-30, and
23-35 and adding Section 32-17 as follows:
(35 ILCS 200/4-10)
Sec. 4-10. Compensation for Certified Illinois
Assessing Officers. Subject to the requirements for
continued training, any supervisor of assessments,
assessor, deputy assessor or member of a board of review
or interim board of review in any county who has earned a
Certified Illinois Assessing Officers Certificate from the
Illinois Property Assessment Institute shall receive from
the State, out of funds appropriated to the Department,
additional compensation of $500 per year.
To receive a Certified Illinois Assessing Officer
certificate, a person shall complete successfully and pass
examinations on a basic course in assessment practice
approved by the Department and conducted by the
Institute and additional courses totaling no less than
60 class hours that are designated and approved by the

204a
Appendix H
Department, on the cost, market and income approaches
to value, mass appraisal techniques, and property tax
administration.
To continue to be elig ible for the additional
compensation, a Certificate Illinois Assessing Officer
must complete successfully a minimum of 15 class hours
requiring a written examination, and the equivalent of one
seminar course of 15 class hours which does not require
a written examination, in each year for which additional
compensation is sought after receipt of the certificate.
The Department shall designate and approve courses
acceptable for additional training, including courses
1n business and computer techniques, and class hours
applicable to each course. The Department shall specify
procedures for certifying the completion of the additional
training.
The courses and training shall be conducted annually
at various convenient locations throughout the State. At
least one course shall be conducted annually in each county
with more than 400,000 inhabitants.
(Source: P.A. 85-974; 88-455.)
(35 ILCS 200/5-5)
Sec. 5-5. Election of board of review: appeals countries
of 3,000,000 or more.
(a) In counties with 3,000,000 or more inhabitants,
on the first Tuesday after the first Monday in November
1994, and every 4 years thereafter, 2 commissioners of the

205a
Appendix H
board of appeals shall be elected to hold office for a term
of 4 years from the first Monday in December following
their election and until January 1, 1996 their respective
successors-are-elected-and-qualified. In case of any
vacancy, the chief judge of the circuit court or any judge
of that circuit designated by the chief judge shall fill the
vacancy by appointment until the next county election
when a successor commissioner shall be elected for the
unexpired term or for the fall term. The commissioners
shall be electors in the particular county at the time of their
election or appointment and shall hold no other lucrative
public office or public employment. Each commissioner
shall receive compensation fixed by the county board,
which shall be paid out of the county treasury and which
shall not be changed during the term for which any
commissioner is elected or appointed. Effective January
1, 1996, the board of appeals is abolished.
The board of appeals shall maintain sufficient
evidentiary records to support all decisions made by the
board of appeals. All records, date, sales/ratio studies,
and other information necessary fro the interim board
of review appointed under subsection (b) to perform its
functions and duties shall be transferred by the board of
appeals to the interim board of review on January 1, 1996.
(b)(1) Effective January 1, 1996, in each county with
3,000,000 or more inhabitants there is created an interim
board of review. The interim board of review shall consist
of 3 members who are residents of the county, appointed
by the members of the General Assembly whose legislative
districts lie, in whole or in part, within a county with

206a
Appendix H
3,000,000 or more inhabitants, in the manner provided in
this subsection, to hold office for a term beginning January
1, 1996 and until the first Monday in December of 1998.
(2) The President of the Senate, the Minority Leader of
the Senate, the Speaker of the House of Representatives,
and the Minority Leader of the House of Representatives
shall each appoint 2 members of the General Assembly
who are residents of a county with 3,000,000 or more
inhabitants to a selection committee. The committee
shall select 4 persons, who are residents of the county,
to be considered for appointment to the interim board
of review. Selections shall be made by the committee by
October 1, 1995. The committee shall establish rules of
conduct for the election of members to the interim board
of review under paragraph (3) of this subsection, which
shall be held no later than December 1, 1995. Action of the
committee shall be taken upon the vote of 5 members of
the committee. If the committee fails to select 4 persons
by October 1, 1995, the Governor shall select 4 persons by
October 15, 1995, not more than 2 of whom are from the
same political party, who are residents of the county to be
considered for appointment to the interim board of review.
(3) Each member of the General Assembly whose
legislative district lies, in whole or in part, within a county
with 3,000,000 or more inhabitants is entitled to vote for
members of the interim board of review, from among the
persons selected under paragraph (2) of this subsection.
Each such member of the General Assembly may cast
the number of votes equal to the number of votes cast
for Governor in the 1994 general election in that portion

207a
Appendix H
of the legislative district of the member of the General
Assembly that lies within a county with 3,000,000 or more
inhabitants. A member of the General Assembly may cast
his or her votes for only one candidate. The 3 persons
receiving the highest number of votes shall be deemed
appointed to the interim board of review shall be filled in
the same manner as original appointments; however, the
selection committee shall select only 2 persons, from the
same political party as the member of the interim board
of review whose vacancy is being filled, for consideration
for appointment and the person receiving the most votes
shall be deemed to be appointed to fill the vacancy. The
chair of the interim board of review shall be selected from
among its members by lot. No member may serve as chair
for consecutive years.
All action of the interim board of review shall be by a
majority vote of its members. Compensation for members
of the interim board of review shall be established by the
county board. The county shall provide suitable offices
for the interim board of review. For the period beginning
January 1, 1996 and ending the first Monday in December
of 1998, any reference in this Code to a board of appeals
shall mean the interim board of review.
(c) In each county with 3,000,000 or more inhabitants,
there is created a board of review. The board of review
shall consist of 3 members, on elected from each election
district in the county at the general election in 1998 to
hold office for a term beginning on the first Monday
in December following their election and until their
respective successors are elected and qualified.

208a
Appendix H
No later than June 1, 1996, the General Assembly
shall establish the boundaries for the 3 election districts
in each county with 3,000,000 or more inhabitants. The
election districts shall be compact, contiguous, and have
substantially the same population based on the 1990
federal decennial census. One district shall be designated
as the first election district, one as the second election
district, and one as the third election district. The member
from each district shall be elected to a term of 4 years.
In the year following each federal decennial census, the
general Assembly shall reapportion the election districts
to reflect the results of the census. The reapportioned
districts shall be compact, contiguous, and contain
substantially the same population. The member from the
first district shall be elected to terms of 4 years, 4 years,
and 2 years. The member from the second district shall
be elected to terms of 4 years, 2 years, and 4 years. The
member from the third district shall be elected to terms
of 2 years, 4 years, and 4 years.
In case of vacancy, the chief judge of the circuit court
or any judge of the circuit court designated by the chief
judge shall fill the vacancy by appointment of a person
from the same political party. If the vacancy is filled with
more than 28 months remaining in the term, the appointed
member shall serve until the next general election, at
which time a member shall be elected to serve for the
remainder of the term. If a vacancy is filled with 28 months
or less remaining in the term, the appointment shall be for
the remainder of the term. The members shall be electors
within their respective election district at the time of their

209a
Appendix H
election or appointment and shall hold no other lucrative
public office or public employment.
Each member shall receive compensation fixed by
the county board, which shall be paid from the county
treasury. Compensation for each member shall be
equitable and shall not be changed during the term for
which that member is elected or appointed. The county
shall provide suitable office space for the board of review.
For the year beginning on the first Monday in
December 1998 and ending the first Monday in December
1999, and every fourth year thereafter, the chair of the
board shall be the member elected from the first district.
For the year beginning the first Monday in December 1999
and ending the first Monday in December 2000, and every
fourth year thereafter, the chair of the board shall be the
member elected from the second district. For the year
beginning the first Monday in December 2000 and ending
the first Monday in December 2001, and every fourth year
thereafter, the chair shall be the member elected from the
third district. For the year beginning the first Monday in
December 2001 and ending the first Monday in December
2002, and every fourth year thereafter, the chair of the
board shall be determined by lot.
On and after the first Monday in December, 1998, any
reference in this Code to a board of appeals shall mean
the board of review created under this subsection. All
action of the board of review shall be by a majority vote
of its members.
(Source: P.A. 80-551; 88-455.)

210a
Appendix H
(35 ILCS 200/5-10)
Sec. 5-10. Oath of office. Each member of the board
of review, interim board of review, or commissioner of
the board of appeals created by this Code shall, before
entering upon the duties of his or her office, take and
subscribe to the following oath:
State of Illinois County of . . . .
I do solemnly swear (or affirm) that I will as (a member
of the board of review) (a commissioner of the board of
appeals faithfully perform all the duties of that office as
required by law; that I will fairly and impartially review
the assessments of all property to the extent authorized
by this Code; that I will correct all assessments which
should be corrected; that I will raise or lower (or in the
case of commissioners of the board of appeals, will direct
the county assessor to change, correct, alter or modify)
assessments as justice may require; and that I will do all
acts necessary and within my authority to procure a full,
fair and impartial assessment of all property.
Dated . . . .
(Source: P.A. 78-387; 88-455.)
(35 ILCS 200/5-15)
Sec. 5-15. Board employees. In counties with 3,000,000
or more inhabitants, the board of appeals (until January
1, 1996, the interim board of review beginning January
1, 1996 and until the first Monday in December 1998,

211a
Appendix H
and the board of review beginning on the first Monday
in December 1998 and thereafter) shall appoint a Chief
Clerk, a Secretary, and a deputy in charge of complaints.
The Board may also employ deputies and other staff
as may be necessary to assist the Board in the proper
discharge of its duties. The Chief Clerk, the Secretary
and the deputies shall have authority to administer oaths
and examine under oath those persons who appear for a
hearing. The Board may assign any matter to a deputy
for preliminary nearing. With respect to applications
for exemption reviewed under Section 16 -130, the
Secretary shall prepare and forward to the Department
a full and complete statement of all the facts together
with documents in each case and shall also forward a
statement of the facts to the county assessor. Except as
provided in Section 9-85, in all other instances the board
shall certify its action and orders to the county assessor
and the county assessor shall carry out the orders under
the direction of the board. Employees of the board of
appeals (until January 1, 1996, the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning on
the first Monday in December 1998 and thereafter) shall
receive compensation fixed by the county board upon the
recommendation of the board of appeals, payable from
the county treasury.
(Source: P.A. 83-1362; 88-455.)
(35 ILCS 200/6-10)
Sec. 6-10. Examination requirement – Counties of
100,000 or more. In any county to which Section 6-5
applies and which has 100,000 or more inhabitants, no

212a
Appendix H
person may serve on the board of review who has not
passed an examination prepared and administered by
the Department to determine his or her competence to
hold the office. The examination shall be conducted by the
Department at some convenient location in the county. The
Department may provide by rule the maximum time that
the name of a person who has passed the examination will
be included on a list of persons eligible for appointment
or election. The county board of any other county may,
by resolution, impose a like requirement in its county. In
counties with less than 100,000 inhabitants, the members
of the board of review shall within one year of taking
office successfully complete a basic course in assessment
practice approved by the Department. In counties with
3,000,000 or more inhabitants, the members of the board
of review or interim board of review shall successfully
complete a basic course in assessment practice, approved
by the Department, within one year after taking office.
(Source: P.A. 87-1189; 88-455; incorporates 88-221; 88-670,
eff. 12-2-94.)
(35 ILCS 200/6-20)
Sec. 6-20. Clerk of the board of review.
(a) In counties with a board of review appointed under
Section 6-5, the clerk of the board of review shall collect
and analyze property transfers and property appraisals,
and pursue other activities the board considers proper
and necessary to aid the board in the determination of
the percentage relationship, for each assessment district,
between the valuations at which locally assessed property

213a
Appendix H
is listed and 33 1/3% of the estimated fair cash value of
such property, or the values determined in accordance
with Sections 10-110 through 10-140, or the percentages
provided by a county ordinance adopted under Section 4
of the Article IX of the Constitution of Illinois.
(b) In counties with 3,000,000 or more inhabitants, the
county assessor shall annually make available to the board
of review or interim board of review information utilized in
the assessment of property, including, but not limited to,
reports generated from the multiple regression equation
and sales/ratio studies, if any. The county assessor shall
make available to the board of review or interim board
of review, upon request by any member of the board,
data used in compilation of the reports and studies. The
Department shall make available to the board of review
or interim board of review sales/ratio studies conducted
by the Department.
(Source: P.A. 86-905; 87-1189; 88-455.)
(35 ILCS 200/6-40)
Sec. 6-40. Election from districts. In all counties
which elect a board of review, except counties with a
county assessor elected under Section 3-45 and except
counties with a board of review elected under Section
5-5, members shall be elected from 3 districts which are
substantially equal in number of inhabitants and, to the
extent practicable, equal in geographic area. On or before
January 1 of the first year following a decennial census
in which board members will be elected, the supervisor
of assessments shall prepare and submit to the county

214a
Appendix H
board a map of the districts, designating each district as
1, 2 or 3. The county board shall adopt the map or make
changes as it deems necessary and adopt the revised
map on or before January 31. If no map is adopted by
January 31, the map initially submitted by the supervisor
of assessments shall constitute the districts from which
members of the board of review shall be elected. As each
term of a member of the board of review expires, a new
member shall be elected from a district, beginning with
district 1 and proceeding through district 3.
(Source: P.A. 86-181; 88-455.)
(35 ILCS 200/6-45)
Sec. 6-45. Abolition of elected board of review. If
any county contains within its limits 3,000,000 or more
inhabitants, as determined by the last federal decennial
or special census, that county shall at once come under
the provisions of this Code relating to counties of that
population, and at the next ensuing regular election of
county officers, a board of appeals and a county assessor
shall be elected, and all provisions of this Code relating
to counties with 3,000,000 or more inhabitants shall than
immediately apply to that county.
In counties having an elected board of review as
provided by law for counties with 150,000 or more but
less than 3,000,000 inhabitants, the county board may
by resolution have submitted to the legal voters of the
county at any regular election, the question of abolishing
the elected board of review. The county board shall certify
the question to the proper election officials, who shall

215a
Appendix H
submit the question to the voters. Such referendum shall
be held and returns made all in the manner now provided
by the general election law and the question shall be in
substantially the following form:
Shall the elected board of			
review be abolished and be
replaced by an appointed board?		

YES
NO

If a majority of the voters voting on the question vote
in favor of the proposition, the elected board of review shall
be abolished to take effect on June 1 following the election.
On that date, all records, books and papers pertaining to
the elected board shall be transferred and delivered by the
board to its successor in office. Thereafter all the powers
and duties conferred upon appointed boards of review
in counties with less than 3,000,000 inhabitants shall be
exercised and performed in such counties so voting, by
appointed boards of review as provided by law for counties
with less than 3,000,000 inhabitants.
(Source: P.A. 81-1489; 88-455.)
(35 ILCS 200/9-5)
Sec. 9-5. Rules. Each county assessor, board of
appeals, interim board of review, and board of review
shall make and publish reasonable rules for the guidance
of persons doing business with them and for the orderly
dispatch of business.
In counties with 3,000,000 or more inhabitants, the
county assessor and board of appeals (until January 1,

216a
Appendix H
1996, the interim board of review beginning January
1, 1996 and ending the first Monday in December 1998,
and the board of review beginning the first Monday in
December 1998 and thereafter), jointly shall make and
prescribe rules for the assessment of property and the
preparation of the assessment books by the township
assessors in their respected townships and for the return
of those books to the county assessor.
(Source: P.A. 76-1322; 88-455.)
(35 ILCS 200/9-85)
Sec. 9-85. Revision of assessments by county assessor
and board of review: Counties of 3,000,000 or more. In
counties with 3,000,000 or more inhabitants, the county
assessor shall have authority annually to review the
assessment books and correct them as appears to be
just; and on complaint in writing in proper form by any
taxpayer, and after affording the taxpayer an opportunity
to be heard thereon, he or she shall do so at any time,
until the assessment is verified. An entry upon the
assessment books does not constitute an assessment until
the assessment is verified. When a notice is to be mailed
under Section 12-55 and the address that appears on the
assessor’s records is the address of a mortgage lender or
the trustee, where title to the property is held in a land
trust, or in any event whenever the notice is mailed by
the assessor to a taxpayer at or in care of the address
of a mortgage lender or a trustee where the title to the
property is held in a land trust, the mortgage lender or
the trustee within 15 days of the mortgage lender’s or the
trustee’s receipt of such notice shall mail a copy of the

217a
Appendix H
notice to each mortgagor of the property referred to in
the notice at the last known address of each mortgagor as
shown on the records of the mortgage lender, or to each
beneficiary as shown on the records of the trustee.
All changes and alternations pursuant to Section 16-95
or Section 16-120 in the assessment of property shall be
subject to revision and entry into the assessment books
by the board of review or interim board of review in the
same manner as the original assessments.
(Source: P.A. 84-222; 88-455.)
(35 ILCS 200/9-220)
Sec. 9-220. Division into assessment districts;
assessment years; counties of 3,000,000 or more.
(a) Notwithstanding any other provision in this Code
to the contrary, until January 1, 1996, the county board
of a county with 3,000,000 or more inhabitants may by
resolution divide the county into any number of assessment
districts. If the county is organized into townships, the
assessment districts shall follow township lines. The
assessment districts shall divide, as near as practicable,
the work of assessing the property in the county into
equal parts but neither the area nor the number of parcels
need be equal in the assessment districts. The resolution
shall number the assessment districts. The resolution
shall number the assessment districts and provide for a
general reassessment of each districts and provide for a
general reassessment of each district at regular intervals
determined by the county board.

218a
Appendix H
(b) Beginning January 1, 1996, in counties with
3,000,000 or more inhabitants, assessment districts shall
be subject to general reassessment according to the
following schedule:
(1) The first assessment district shall be subject
to the general reassessment in 1997 and every 3 years
thereafter.
(2) the second assessment district shall be subject
to general reassessment in 1998 and every 3 years
thereafter.
(3) The third assessment district shall be subject
to general reassessment in 1996 and every 3 years
thereafter.
The boundaries of the 3 assessment districts are
as follows: (i) the first assessment district shall be that
portion of the county located within the boundaries of a
municipality with 1,000,000 or more inhabitants, (ii) the
second assessment district shall be that portion of the
county that lies north of State Route 64 (North Avenue)
and outside the boundaries of a municipality with 1,000,000
or more inhabitants, and (iii) the third assessment districts
shall be that portion of the county that lies south of State
Route 64 (North Avenue) and outside the boundaries of a
municipality with 1,000,000 or more inhabitants.
(Source: P.A. 86-1481; 87-1189; 88-455.)

219a
Appendix H
(35 ILCS 200/9-260)
Sec. 9-260. Assessment of omitted property; counties
of 3,000,000 or more. After signing the affidavit, the county
assessor shall have power, when directed by the board of
appeals (until January 1, 1996, the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter) under
Section 16-148, or on his or her own initiative, to assess
properties which may have been omitted from assessments
for the current year or during any year or years for which
the property was liable to be taxed, and for which the tax
has not been paid, but only on notice and an opportunity
to be heard in the manner and form required by law, and
shall enter the assessments upon the assessment books.
No charge for tax of previous years shall be made against
any property if (a) the property was last assessed as
unimproved, (b) the owner of such property gave notice of
subsequent improvements and requested a reassessment
as required by Section 9-180, and (c) reassessment of
the property was not made within the 16 month period
immediately following the receipt of that notice. The
assessor shall have no power to change the assessment
or alter the assessment books in any other manner or for
any other purpose so as to change or affect the taxes in
that year, except as ordered by the board of appeals. The
county assessor shall make all changes and corrections
ordered by the board of appeals (until January 1, 1996, the
interim board of review beginning January 1, 1996 and
until the first Monday in December 1998, and the board
of review beginning the first Monday in December 1998

220a
Appendix H
and thereafter). The county assessor may for the purpose
of revision by the board of appeals (until January 1, 1996,
the interim board of review beginning January 1, 1996 and
until the first Monday in December 1998, and the board of
review beginning the first Monday in December 1998 and
thereafter) certify the assessment books for any town or
taxing district after or when such books are completed.
(Source: P.A. 84-222; 88-455.)
(35 ILCS 200/9-265)
Sec. 9-265. Omitted property; interest; change in
exempt use or ownership. If any property is omitted in
the assessment of any year or years, so that the taxes,
for which the property was liable, have not been paid, or
if by reason of defective description or assessment, taxes
on any property for any year or years have not been
paid, or if any taxes are refunded under subsection (b)
of Section 14-5 because the taxes were assessed in the
wrong person’s name, the property, when discovered,
shall be listed and assessed by the board of review or,
in counties with 3,000,000 or more inhabitants having
a board of appeals, by the county assessor either on his
or her own initiative or when so directed by the board
of appeals, interim board of review, or board of review.
For purposes of this Section, “defective description or
assessment” includes a description or assessment which
omits all the improvements thereon as a result of which
part of the taxes on the total value of the property as
improved remain unpaid. In the case of property subject
to assessment by the Department, the property shall be
listed and assessed by the Department. All such property

221a
Appendix H
shall be placed on the assessment and tax books. The
arrearages of taxes which might have been assessed, with
10% interest thereon for each year or portion thereof from
2 years after the time the first correct tax bill ought to
have been received, shall be charged against the property
by the county clerk.
When property or acreage omitted by either incorrect
survey or other ministerial assessor error is discovered
and the owner has paid its tax bills as received for the
year or years of omission of the parcel, then the interest
authorized by this Section shall not be chargeable to the
owner. However, nothing in this Section shall prevent the
collection of the principal amount of back taxes due and
owing.
If any property listed as exempt by the chief county
assessment officer has a change in use, a change in
leasehold estate, or a change in titleholder of record
by purchase, grant, taking or transfer, it shall be the
obligation of the transferee to notify the chief county
assessment officer in writing within 30 days of the change.
The notice shall be sent by certified mail, return receipt
requested, and shall include the name and address of the
taxpayer, the legal description of the property, and the
property index number of the property when an index
number exists. If the failure to give the notification results
in the assessing official continuing to list the property
as exempt in subsequent years, the property shall be
considered omitted property for purposes of this Code.
(Source: P.A. 86-180; 88-455.)

222a
Appendix H
(35 ILCS 200/12-50)
Sec. 12-50. Mailed notice to taxpayer after change by
board of review or interim board of review. If final board
of review or interim board of review action regarding
any property, including equalization under Section 16-60
or Section 16-65, results in an increased or decreased
assessment, the board of review shall mail a notice to
the taxpayer, at his or her address as it appears in the
assessment records, whose property is affected by such
action, and in the case of a complaint filed under Section
16-25, to the taxing body filing the complaint. A copy shall
be given to the assessor or chief county assessment office
supervisor of assessments if his or her assessment was
reversed or modified by the board of review. Written notice
shall also be given to any taxpayer who filed a complaint in
writing with to the board of Review and whose assessment
was not changed. The notice shall set forth the assessed
value prior to the board of review action; the assessed
value after final board of review action but prior to any
equalization; and the assessed value as equalized by the
board of review, if the board of review equalizes. This
notice shall state that the value as certified to the county
clerk by the board of review will be the locally assessed
value of the property for that year and each succeeding
year, unless revised in a succeeding year in the manner
provided in this Code. The written notice shall also set
forth specifically the facts upon which the board’s decision
is based and shall also contain the following statement:
“You may appeal this decision to the Property Tax Appeal
Board by filing a petition for review with the Property Tax
Appeal Board within 30 days after this notice is mailed

223a
Appendix H
to you or your agent, or is personally served upon you
or your agent”: except that, in counties with 3,000,000
or more inhabitants the statements shall be included
in the written notice (i) for residential property with 6
units or less beginning with assessments made for the
1996 assessment year and (ii) for all other property in
counties with 3,000,000 or more inhabitants beginning
with assessments made for the 1997 assessment year.
(Source: P.A. 84-1454; 87-1189; 88-455.)
(35 ILCS 200/14-10)
Sec. 14-10. Certificate of correction; counties of
3,000,000 or more. If the county assessor in counties
with 3,000,000 or more inhabitants, at any time prior to
the time the board of appeals (until January 1, 1996, the
interim board of review beginning January 1, 1996 and
until the first Monday in December 1998, and the board of
review beginning the first Monday in December 1998 and
thereafter) is required to complete its work and adjourn
under Section 16-150, certifies to the board that there
is a mistake or error (other than a mistake or error of
judgment) in the valuation or assessment of any property,
or in the entry of any assessment in the assessment
books, the county assessor shall set forth the nature and
cause of the mistake or error. The board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter) shall give the person
affected by the assessment notice an opportunity to be
heard. If the board of appeals (until January 1, 1996, the

224a
Appendix H
interim board of review beginning January 1, 1996 and
until the first Monday in December 1998, and the board
of review beginning the first Monday in December 1998
and thereafter) is satisfied that a mistake or error has
occurred, the majority of the members both commissioners
shall endorse it by signing the certificate and shall order
the assessor to correct the mistake or error.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/14-15)
Sec. 14-15. Certificate of error; counties of 3,000,000
or more.
(a) In counties with 3,000,000 or more inhabitants, if,
at any time before judgment is rendered in any proceeding
to collect or to enjoin the collection of taxes based upon
any assessment of any property belonging to any taxpayer,
the county assessor discovers an error or mistake in the
assessment, the assessor shall execute a certificate setting
forth the nature and cause of the error. The certificate
when endorsed by the county assessor, or when endorsed
by the county assessor and board of appeals (until January
1, 1996, the interim board of review beginning January 1,
1996 and until the first Monday in December 1998, and the
board of review beginning the first Monday in December
1998 and thereafter) where the certificate is executed
for any assessment which was the subject of a complaint
filed in the board of appeals (until January 1, 1996, the
interim board of review beginning January 1, 1996 and
until the first Monday in December 1998, and the board
of review beginning the first Monday in December 1998
and thereafter) for the tax year for which the certificate

225a
Appendix H
is issued, may be received in evidence in any court of
competent jurisdiction. When so introduced in evidence
such certificates shall become a part of the court records,
and shall not be removed from the files except upon the
order of the court.
A certificate executed under this Section may be
issued to the person erroneously assessed. A certificate
executed under this Section or a list of the parcels for
which certificates have been issued or may be presented by
the assessor to the court as an objection in the application
for judgment and order of sale for the year in relation to
which the certificate is made. The State’s Attorney of the
county in which the property is situated shall mail a copy
of any final judgment entered by the court regarding
the certificate to the taxpayer of record for the year in
question.
Any unpaid taxes after the entry of the final judgment
by the court on certificates issued under this Section
may be included in a special tax sale, provided that an
advertisement is published and a notice is mailed to
the person in whose name the taxes were last assessed,
in a form and manner substantially similar to the
advertisement and notice required under Sections 21-110
and 21-135. The advertisement and sale shall be subject to
all provisions of law regulating the annual advertisement
and sale of delinquent property, to the extent that those
provisions may be made applicable.
A certificate of error executed under this Section
allowing homestead exemptions under Sections 15-170 and

226a
Appendix H
15-175 of this Act (formerly Sections 19.23-1 and 19.23-1a
of the Revenue Act of 1939) not previously allowed shall
be given effect by the county treasurer, who shall mark
the tax books and, upon receipt of the following certificate
from the county assessor, shall issue refunds to the
taxpayer accordingly:
“CERTIFICATION
I, . . . . . . . . . . . . . county assessor, hereby certify
that the Certificates of Error set out on the
attached listed have been duly issued to allow
homestead exemptions pursuant to Sections
15-170 and 15-175 of the Property Tax Code
(formerly Sections 19.23-1 and 19.23-1a of the
Revenue Act of 1939) which should have been
previously allowed; and that a certified copy
of the attached list and this certification have
been served upon the county State’s Attorney.”
The county treasurer has the power to mark the tax
books to reflect the issuance of homestead certificates of
error from and including the due date of the tax bill for
the year for which the homestead exemption should have
been allowed until 2 years after the first day of January of
the year after the year for which the homestead exemption
should have been allowed. The county treasurer has the
power to issue refunds to the taxpayer as set forth above
from and including the first day of January of the year
after the year for which the homestead exemption should
have been allowed until all refunds authorized by this
Section have been completed.

227a
Appendix H
The county treasurer has no power to issue refunds
to the taxpayer as set forth above unless the Certification
set out in this Section has been served upon the county
State’s Attorney.
(b) Nothing in subsection (a) of this Section shall
be construed to prohibit the execution, endorsement,
issuance and adjudication of a certificate error if (i) the
annual judgment and order of sale for the tax year in
question is reopened for further proceedings upon consent
of the county collector and county assessor, represented
by the State’s Attorney, and (ii) a new final judgment is
subsequently entered pursuant to the certificate. This
subsection (b) shall be construed as declarative of existing
law and not as a new enactment.
(c) No certificate of error, other than a certificate
to establish an exemption under Section 14-25, shall be
executed for any tax year more than 3 years after the date
on which the annual judgment and order of sale for that
tax year was first entered.
(Source: P.A. 88-225; 88-455; 88-660, eff. 9-16-94; 88-670,
eff. 12-2-94.)
(35 ILCS 200/14-35)
Sec. 14-35. Hearings by county assessor; counties of
3,000,000 or more. In counties, with 3,000,000 or more
inhabitants, the county assessor each year shall sit for
the purpose of revising the assessments. The time of the
sittings shall be set by the county assessor by notice as
herein provided after the assessment books for one or more

228a
Appendix H
townships or taxing districts have been completed. The
assessments for one or more townships or taxing districts
may be revised at any sitting which may be adjourned
from day to day as necessary. At least one week before
each sitting the county assessor shall publish a notice, in
some newspaper of general circulation published in the
county, of the time and place of the sitting, the township or
townships, taxing district or taxing districts for which the
assessments will be considered at the sitting, and the time
within which applications for revisions of assessment may
be made by taxpayers. The county assessor shall, upon
completion of the revision of assessments for any township
or taxing district, deliver the assessment books for the
township or taxing district to the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1998 and until the first Monday in December
1998, and the board of review beginning on the first
Monday in December 1998 and thereafter).
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-5)
Sec. 16-5. Information from assessors to board of
review, interim board of review, and board of appeals.
The chief county assessment officer shall furnish to the
board of review, interim board of review, or board of
appeals all books, papers and information in his or her
office requested by the board to assist it in the proper
discharge of its duties.
(Source: Laws 1939, p. 886; P.A. 88-455.)

229a
Appendix H
(35 ILCS 200/16-10)
Sec. 16-10. Summons by the board of review, interim
board of review, or board of appeals. A board of review,
interim board of review, or board of appeals may summon
any assessor, deputy, or other person to appear before it to
be examined under oath concerning the method by which
any evaluation has been ascertained, and its correctness.
Any person so summoned who fails, without good cause,
to appear or appearing refuses to submit to the inquiry
or answer questions asked by any member of the board,
or any attorney representing the board, shall be guilty
of a petty offense.
(Source: P.A. 78-387; 88-455.)
(35 ILCS 200/Division 3 heading)
Division 3. Board of Review; Counties of 3,000,000 or
more Appeals
(35 ILCS 200/16-95)
Sec. 16-95. Powers and duties of board of appeals or
review; Complaints. In counties with 3,000,000 or more
inhabitants, until January 1, 1996, the board of appeals
in any year shall, on complaint that any property is
overassessed or underassessed, or is exempt, review and
order the assessment corrected.
Beginning January 1, 1996 and until the first Monday
in December 1998, in counties with 3,000,000 or more
inhabitants, the interim board of review, and beginning

230a
Appendix H
the first Monday in December 1998 and thereafter, the
board of review:
(1) shall, upon written complaint or request of any
taxpayer, or any taxing district that has an interest in
the assessment, and upon good cause shown, revise,
correct, alter, or modify any assessment (or part of
an assessment) of any real property; nothing in this
Section, however, shall be construed to require a
taxpayer to file a complaint with the board; and
(2) may, upon written motion of any one or more
members of the board and upon good cause shown,
revise, correct, alter, or modify any assessment (or
part of an assessment) of real property regardless of
whether the taxpayer or owner of the property has
filed a complaint or request with the board.
An assessment shall not be increased until the person
to be affected has been notified and given an opportunity
to be heard. Before making any reduction in assessments
of its own motion, the board shall give notice to the
assessor or chief county assessment officer who certified
the assessment, and give the assessor or chief county
assessment officer an opportunity to be heard thereon.
All taxing districts shall have an opportunity to be heard
on the matter.
(Source: P.A. 83-121; 88-455.)

231a
Appendix H
(35 ILCS 200/16-100)
Sec. 16-100. Correction orders. In counties with
3,000,000 or more inhabitants, the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter) in any year shall order
the county assessor to correct any mistake or error (other
than mistakes or errors of judgment as to the valuation
of any property) in the manner provided in Sections 14-10
and 16-145.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-105)
Sec. 16-105. Time of meeting – Public records. In
counties with 3,000,000 or more inhabitants, the board of
appeals (until January 1, 1996, the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter) shall meet
on or before the second Monday in September in each year
for the purpose of revising the assessment of property as
provided for in this Code. The meeting may be adjourned
from day to day as may be necessary.
All hearings conducted by the board of appeals under
this Code shall be open to the public. All files maintained
by the board relating to the matters specified in Sections
16-95, 16-100, and 16-140 shall be available for public
inspection during regularly office hours. However, only

232a
Appendix H
the actual portions of the income tax return relating to
the property for which a complaint has been filed shall be
a public record. Copies of such records shall be furnished
upon request. The board may charge for the costs of
copying, at 35¢ per page of legal size or smaller and $1
for each larger page.
(Source: P.A. 79-1454; 88-455.)
(35 ILCS 200/16-110)
Sec. 16-110. Notice of meetings – Filing complaints.
In counties with 3,000,000 or more inhabitants, at
least one week before its meeting to revise and correct
assessments, the board of appeals (until January 1, 1996,
the interim board of review beginning January 1, 1996
and until the first Monday in December 1998, and the
board of review beginning the first Monday in December
1998 and thereafter) shall publish a notice of the time
and place of that meeting. The board shall, from time
to time, publish notices which shall specify the date and
place at which complaints may be filed for those townships
or taxing districts for which property assessments have
been completed by the county assessor, and which will
then be considered for revision and correction at that
time. All notices quired by this Section may provide for
a revision and correction at the specified time of one or
more townships or taxing districts. All such notices shall
be published once in at least one newspaper of general
circulation published in the county. The board of appeals
at the time and place fixed, and upon notice as provided
in this Section, may receive and hold hearings on all those
complaints and revise and correct assessments within

233a
Appendix H
those township or taxing districts. Taxpayers shall have
at least 20 days after the date of publication of the notice
within which to file complaints.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-80)
Sec. 16 -80. Reduced assessment of homestead
property. In any county, if the board of review or interim
board of review lowers the assessment of a particular
parcel on which a residence occupied by the owner is
situated, the reduced assessment, subject to equalization,
shall remain in effect for the remainder of the general
assessment period as provided in Sections 9-215 through
9-225, unless the taxpayer, county assessor, or other
interested party can show substantial cause why the
reduced assessment should not remain in effect, or unless
the decision of the board is reversed or modified upon
review.
(Source: P.A. 86-345; 86-413; 86-1028; 86-1481; 88-455.)
(35 ILCS 200/16-115)
Sec. 16-115. Filing complaints. In counties with
3,000,000 or more inhabitants, complaints that any
property is overassessed or underassessed or is exempt
may be made by any taxpayer. All complaints shall be in
writing, identify and describe the particular property,
otherwise comply with the rules in force, be signed by
the complaining party or his or her attorney, and be filed
with the board of appeals (until January 1, 1996, the
interim board of review beginning January 1, 1996 and

234a
Appendix H
until the first Monday in December 1998, and the board of
review beginning the first Monday in December 1998 and
thereafter) in at least duplicate. The board of appeals shall
forward one copy of each complaint to the county assessor.
Complaints by taxpayers and certificates of correction
by the county assessor as provided in this Code shall be
filed with the board of appeals according to townships
on or before the dates specified in the notices given in
Section 16-110.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-120)
Sec. 16-120. Decision on complaints. In counties
with 3,000,000 or more inhabitants, at its meeting for
the purpose of revising and correcting the assessments,
the board of appeals (until January 1, 1996, the interim
board of review beginning January 1, 1996 and until
the first Monday in December 1998, and the board of
review beginning the first Monday in December 1998
and thereafter), upon complaint filed by a taxpayer as
prescribed in this Code, may revise the entire assessment
of any taxpayer, or any part thereof, and correct the same
as shall appear to the board to be just. The assessment of
the property of any taxpayer shall not be increased unless
that taxpayer or his agent shall first have been notified in
writing and been given an opportunity to be heard.
(Source: P.A. 76-2254; 88-455.)

235a
Appendix H
(35 ILCS 200/16-125)
Sec. 16-125. Hearings. In counties with 3,000,000
or more inhabitants, complaints filed with the board of
appeals (until January 1, 1996, the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter) shall be
classified by townships. All complaints shall be docketed
numerically, in the order in which they are presented, as
nearly as possible, in books or computer records kept for
that purpose, which shall be open to public inspection. The
complaints shall be considered by townships until they
have been heard and passed upon by the board.
A hearing upon any complaint shall not be held until the
taxpayer affected and the county assessor have each been
notified and have been given an opportunity to be heard.
All hearings shall be open to the public and the board of
appeals shall sit together and hear the representations of
the interested parties or their representatives. An order
for a correction of any assessment shall not be made unless
both commissioners of the board, or a majority of the
members in the case of a board of review or interim board
of review, concur therein, in which case, an order therefor
shall be made in open session and entered in the records
of the board. When an assessment is ordered corrected,
the board of appeals shall transmit a computer printout
of the results, or make and sign a brief written statement
of the reason for the change and the manner in which the
method used by the assessor in making the assessment
was erroneous, and shall deliver a copy of the statement

236a
Appendix H
to the county assessor. Upon request the board shall hear
any taxpayer in opposition to a proposed reduction in any
assessment.
The board of appeals may destroy or otherwise
dispose of complaints and records pertaining thereto after
the lapse of 10 years from the date of filing.
(Source: P.A. 83-1362; 88-455.)
(35 ILCS 200/16-130)
Sec. 16-130. Exemption procedures; board of appeals;
board of review. Whenever the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter) in any county with
3,000,000 or more inhabitants determines that any
property is or is not exempt from taxation, the decision
of the board shall not be final, except as to homestead
exemptions. Upon filing of any application for an exemption
which would, if approved, reduce the assessed valuation
of any property by more than $100,000, other than a
homestead exemption, the owner shall give timely notice of
the application by mailing a copy of it to any municipality,
school district and community college district in which
such property is situated. Failure of a municipality, school
district or community college district to receive the notice
shall not invalidate any exemption. The board shall give
the municipalities, school districts and community college
districts and the taxpayer an opportunity to be heard. In
all exemption cases other than homestead exemptions,

237a
Appendix H
the secretary of the board of appeals shall comply with
the provisions of Section 5-15. The Department shall
then determine whether the property is or is not legally
liable to taxation. It shall notify the board of appeals of
its decision and the board shall correct the assessment
accordingly, if necessary. The decision of the Department
is subject to review under Sections 8-35 and 8-40. The
extension of taxes on any assessment shall not be delayed
by any proceedings under this paragraph, and, in case the
property is determined to be exempt, any taxes extended
upon the unauthorized assessment shall be abated or, if
already paid, shall be refunded.
(Source: P.A. 86-413; 88-455.)
(35 ILCS 200/16-135)
Sec. 16-135. Omitted property; Notice provisions. In
counties with 3,000,000 or more inhabitants, the owner
of property and the executor, administrator, or trustee
of a decedent whose property has been omitted in the
assessment in any year or years or on which a tax for
which the property was liable has not been paid, and the
several taxing bodies interested therein, shall be given
at least 5 days notice in writing by the board of appeals
(until January 1, 1996, and the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter) or county
assessor of the hearing on the proposed assessments
of the omitted property. The board or assessor shall
have full power to examine the owner, or the executor,
administrator, trustee, legatee, or heirs of the decedent,

238a
Appendix H
or other person concerning the ownership, kind, character,
amount and the value of the omitted property.
If the board determines that the property of any
decedent was omitted from assessment during any year or
years, or that a tax for which the property was liable, has
not been paid, the board shall direct the county assessor
the assess the property. However, if the county assessor,
on his or her own initiative, makes such a determination,
then the assessor shall assess the property. No charge for
tax of previous years shall be made against any property
prior to the date of ownership of the person owning the
property at the time the liability for such omitted tax is
first ascertained. Ownership as used in this Section refers
to bona fide legal and equitable titles or interests acquired
for value and without notice of the tax, as may appear by
deed, deed of trust, mortgage, certificate of purchase or
sale, or other form of contract. No such charge for tax of
previous years shall be made against any property if
(a) the property was last assessed as unimproved,
(b) the owner of the property, gave notice of subsequent
improvements and requested a reassessment as required
by Section 19-180, and
(c) reassessment of the property was not made within
16 months of receipt of that notice.
The assessment of omitted property by the county
assessor may be reviewed by the board of appeals in the
same manner as other assessments are reviewed under

239a
Appendix H
the provisions of this Code and when so reviewed, the
assessment shall not thereafter be subject to review by
any succeeding board.
For the purpose of enforcing the provisions of this
Code, relating to the property omitted from assessment,
the taxing bodies interested therein are hereby empowers
to employ counsel to appear before the board or assessor
(as the case may be) and take all necessary steps to enforce
the assessment on the omitted property.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-140)
Sec. 16-140. Omitted property. In counties with
3,000,000 or more inhabitants, the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter) in any year shall direct
the county assessor, in accordance with Section 16-135,
when he or she fails to do so on his or her own initiative,
to assess all property which has not been assessed, for any
reason, and enter the same upon the assessment books and
to list and assess all property that has been omitted in the
assessment of any year or years. If the tax for which that
property was liable has not been paid or if any property,
by reason of defective description or assessment thereof,
fails to pay taxes for any year or years, the property, when
discovered by the board shall be listed and assessed by the
county assessor. The board may order the county assessor
to make such alterations in the description of property as

240a
Appendix H
it deems necessary. No charge for tax of previous years
shall be made against any property if
(a) the property was last assessed as unimproved,
(b) the ow ner of the property gave notice
of subsequent improvements and requested a
reassessment as required by Section 9-180, and
(c) reassessment of the property was not made
within 16 months of receipt of that notice.
The board of appeals shall hear complaints and revise
assessments of any particular parcel of property of any
person identified and described in a complaint filed with
the board and conforming to the requirements of Section
16-115. The board shall make revisions in no other cases.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-145)
Sec. 16-145. Assessment list charges. In counties with
3,000,000 or more inhabitants, the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter), in revising assessments
in any year, shall require the county assessor to note all
changes in the valuation of property upon an assessment
list and books certified by the county assessor.
(Source: P.A. 83-121; 88-455.)

241a
Appendix H
(35 ILCS 200/16-150)
Sec. 16-150. Certification of assessment books. In
counties with 3,000,000 or more inhabitants, the board of
appeals (until January 1, 1996, the interim board of review
beginning January 1, 1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter) shall, on
or before the annual date for final adjournment as fixed
by this Section, complete its work, and order the county
assessor to make those entries in the assessment books
and lists as may be required to make the assessments
conform with the changes directed to be made therein
by the board of appeals. The county assessor and a
majority of the members commissioners of the board of
appeals shall attach to each of the assessment books in
the possession of the county assessor and the county clerk
an affidavit signed by the county assessor and a majority
of the members commissioners of the board of appeals,
which affidavit shall be in substantially the following form:
State of Illinois
)
			) ss.
County of . . . . . . 	 )
We, and each of us, as county assessor and as members
commissioners of the (board of appeals, interim board of
review, or board of review) of the County of . . . . . in the
State of Illinois, do solemnly swear that the books . . . . in
number . . . . to which this affidavit is attached, contain
a full and complete list of all the property in this county
subject to taxation for the year 19. . so far as we have
been able to ascertain them, and that the assessed value

242a
Appendix H
set down in the proper column opposite the several kinds
and descriptions of property, is, in our opinion, a just
and equal assessment of the property for the purposes
of taxation according to law, and that the footings of the
several columns in these books are correct to the best of
our knowledge and belief.
The final date of adjournment of the board of appeals
shall be 60 days after the date of the last delivery to it of
the assessment books for any township or taxing district.
(Source: P.A. 83-121; 88-455.)
(35 ILCS 200/16-155)
Sec. 16-155. Use of certified assessments. In counties
with 3,000,000 or more inhabitants, the assessments
of property after review by the board of appeals (until
January 1, 1996, the interim board of review beginning
January 1, 1996 and until the first Monday in December
1998, and the board of review beginning the first Monday
in December 1998 and thereafter) shall be certified to the
county clerk and shall be the basis of that clerk’s reports
of assessments to the Department and, as equalized, shall
be used by the county clerk in ascertaining tax rates and
extending taxes.
(Sources: P.A. 83-121; 88-455.)
(35 ILCS 200/16-160)
Sec. 16-160. Property Tax Appeal Board – Process.
In counties with 3,000,000 or more inhabitants, beginning
with assessments made for the 1996 assessment year for
residential property of 6 units or less and beginning with

243a
Appendix H
assessments made for the 1997 assessment year for all
other property, and for all property in any county other
than a county with 3,000,000 or more inhabitants, any
taxpayer dissatisfied with the decision of the board of
review as such decision pertains to the assessment of his
or her property for taxation purposes, or any taxing body
that has an interest in the decision of the board of review
on an assessment made by any local assessment officer,
may, within 30 days after the date of written notice of
the decision of the board of review, appeal the decision to
the Property Tax Appeal Board for review. In any appeal
where the board of review has given written notice of the
hearing to the taxpayer 30 days before the hearing, failure
to appear at the board of review hearing shall be grounds
for dismissal of the appeal unless a continuance is granted
to the taxpayer. If an appeal is dismissed for failure to
appear at a board of review hearing, the Property Tax
Appeal Board shall have no jurisdiction to hear any
subsequent appeal on that taxpayer’s complaint. Such
taxpayer or taxing body, hereinafter called the appellant,
shall file a petition with the clerk of the Property Tax
Appeal Board, setting forth the facts upon which he or
she bases the objection, together with a statement of the
contentions of law which he or she desires to raise, and
the relief requested. If a petition is filed by a taxpayer, the
taxpayer is precluded from filing objections based upon
valuation, as may otherwise be permitted by Sections
21-175 and 23-5. However, any taxpayer not satisfied
with the decision of the board of review as such decision
pertains to the assessment of his or her property need
not appeal the decision to the Property Tax Appeal Board
before seeking relief in the courts.
(Source: P.A. 87-1189; 88-455.)

244a
Appendix H
(35 ILCS 200/18-170)
Sec. 18-170. Enterprise zone abatement. In addition
to the authority to abate taxes under Section 18-165, any
taxing district, upon a majority vote of its governing
authority, may order the county clerk to abate any
portion of its taxes on property, or any class thereof,
located within an Enterprise Zone created under the
Illinois Enterprise Zone Act, and upon which either
new improvements have been constructed or existing
improvements have been renovated or rehabilitated after
December 7, 1982. However, any abatement of taxes on
any parcel shall not exceed the amount attributable to the
construction of the improvements and the renovation or
rehabilitation of existing improvements on the parcel. In
the case of property within a redevelopment area created
under the Tax Increment Allocation Redevelopment
Act, the abatement shall not exceed the amount of taxes
allocable to the taxing district. However, within a county
economic development project area created under the
County Economic Development Project Area Property
Tax Allocation Act, any municipality or county which has
adopted tax increment allocation financing under the Tax
Increment Allocation Redevelopment Act or the County
Economic Development Project Area Tax Increment
Allocation Act may abate any portion of its taxes as
provided in this Section. Any other taxing district within
the county economic development project area may order
any portion or all of its taxes abated as provided above if
the county or municipality which created the tax increment
district has agreed, in writing, to the abatement.

245a
Appendix H
A copy of an abatement order adopted under this
Section shall be delivered to the county clerk and to
the board of review, interim board of review, or board
of appeals not later than July 1 of the assessment year
to be first affected by the order. If it is delivered on or
after that date, it will first affect the taxes extended
on the assessment of the following year. The boord of
review, interim board of review, or board of appeals
shall, each time the assessment books are delivered to
the county clerk, also deliver a list of parcels affected by
the abatement and the assessed value attributable to the
new improvements or to the renovation or rehabilitation
of existing improvements.
(Source: P.A. 86-1388; 88-455.)
(35 ILCS 200/21-110)
Sec. 21-110. Published notice of annual application for
judgment and sale; delinquent taxes. At any time after all
taxes have become delinquent taxes. At any time after all
taxes have become delinquent or are paid under protest
in any year, the Collector shall publish an advertisement,
giving notice of the intended application for judgment
and sale of the delinquent properties, and for judgment
fixing the correct amount of any tax paid under protest.
Except as provided below, the advertisement shall be in
a newspaper published in the township or road district in
which the properties are located. If there is no newspaper
published in the township or road district, then the notice
shall be published in some newspaper in the same county
as the township or road district, to be selected by the
county collector. When the property is in a city with more

246a
Appendix H
than 1,000,000 inhabitants, the advertisement may be in
any newspaper published in the same county. When the
property is in an incorporated town which has superseded
a civil township, the advertisement shall be in a newspaper
published in the incorporated town or if there is no such
newspaper, then in a newspaper published in the county.
The provisions of this Section relating to the time
when the Collector shall advertise intended application
for judgment for sale are subject to modification by the
governing authority of a county in accordance with the
provisions of subsection (c) of Section 21-40.
(Source: P.A. 87-1189; 88-455; 88-518.)
(35 ILCS 200/21-115)
Sec. 21-115. Times of publication of notice. The
advertisement shall be published once at least 10 days
before the day on which judgment is to be applied for, and
shall contain a list of the delinquent properties upon which
the taxes or any part thereof remain due and unpaid, the
names of owners, if known, the total amount due, and the
year or years for which they are due. In counties of less
than 3,000,000 inhabitants, advertisement shall include
notice of the registration requirement for persons bidding
at the sale. Properties upon which taxes have been paid
in full under protest shall not be included in the list. The
collector shall give notice that he or she will apply to the
circuit court on a specified day for judgment against the
properties for the taxes, and costs, and for an order to
sell the properties for the satisfaction of the amount due,
and for a judgment fixing the correct amount of any tax
paid under protest.

247a
Appendix H
The Collector shall also give notice that on the . . . .
Monday next succeeding the date of application all the
properties for the sale of which an order is made, will
be exposed to public sale at a location within the county
designated by the county collector, for the amount of taxes,
and cost due. The advertisement published according
to the provisions of this section shall be deemed to be
sufficient notice of the intended application for judgment
and of the sale of properties under the order of the court,
or for judgment fixing the correct amount of any tax paid
under protest. Notwithstanding the provisions of this
Section and Section 21-110, in the 10 years following the
completion of a general reassessment of property in any
county with 3,000,000 or more inhabitants, made under
an order of the Department, the publication shall be made
not sooner than 10 days nor more than 90 days after the
date when all unpaid taxes on property have become
delinquent.
(Source: P.A. 87-1189; 88-455.)
(35 ILCS 200/21-135)
Sec. 21-135. Mailed notice of application for judgment
and sale. Not less than 15 days before the date of application
for judgment and sale of delinquent properties, the county
collector shall mail, by registered or certified mail, a notice
of the forthcoming application for judgment and sale to the
person shown by the current collector’s warrant book to be
the party in whose name the taxes were last assessed and,
if applicable, to the party specified under Section 15-170.
The notice shall include the intended dates of application
for judgment and sale and commencement of the sale, and

248a
Appendix H
a description of the properties. The county collector must
present proof of the mailing to the court along with the
application for judgment.
In counties with less than 3,000,000 inhabitants, a
copy of this notice shall also be mailed by the county
collector by registered or certified mail to any lienholder
of record who annually requests a copy of the notice. The
failure of the county collector who annually requests a
copy of the notice. The failure of the county collector to
mail a notice or its non-delivery to the lienholder shall not
affect the validity of the judgment.
In counties with 3,000,000 or more inhabitants, notice
shall not be mailed to any person when, under Section
14-15, a certificate of error has been executed by the county
assessor or by both the county assessor and board of
Appeals (until January 1, 1996, the interim board of review
beginning January 1 ,1996 and until the first Monday in
December 1998, and the board of review beginning the
first Monday in December 1998 and thereafter), except as
provided by court order under Section 21-120.
The collector shall collect $10 from the proceeds of
each sale to cover the costs of registered or certified
mailing and the costs of advertisement and publication.
(Source: P.A. 85-1359; 88-455.)
(35 ILCS 200/21-150)
Sec. 21-150. Time of applying for judgment. Except
as otherwise provided in this Section or by ordinance or

249a
Appendix H
resolution enacted under subsection (c) of Section 21-40,
all applications for judgment and order of sale for taxes
and special assessments on delinquent properties and for
judgment fixing the correct amount of any tax paid under
protest shall be made during the month of October. In
those counties which have adopted an ordinance under
Section 21-40, the application for judgment and order of
sale for delinquent taxes or for judgment fixing the correct
amount of any tax paid under protest shall be made in
December. In the 10 years next following the completion
of a general reassessment of property in any county with
3,000,000 or more inhabitants, made under an order of the
Department, applications for judgment and order of sale
and for judgment fixing the correct amount of any tax paid
under protest shall be made as soon as may be and on the
day specified in the advertisement required by Section
21-110 and 21-115. If for any cause the court is not held
on the day specified, the cause shall stand continued, and
it shall be unnecessary to re-advertise the list or notice.
Within 30 days after the day specified for the
application for judgment the court shall hear and
determine the matter. If judgment is rendered, the sale
shall begin on the Monday specified in the notice as
provided in Section 21-115. If the collector is prevented
from advertising and obtaining judgment during the
month of October, the collector may obtain judgment at
any time thereafter; but if the failure arises by the county
collector’s not complying with any of the requirements of
this Code, he or she shall be held on his or her official bond
for the full amount of all taxes and special assessments
charged against him or her. Any failure on the part of the

250a
Appendix H
county collector shall not be allowed as a valid objection
to the collection of any tax or assessment, or to entry of
a judgment against any delinquent properties included
in the application of the county collector, or to the entry
of a judgment fixing the correct amount of any tax paid
under protest.
(Source: P.A. 88-455; 88-518.)
(35 ILCS 200/21-160)
Sec. 21-160. Annual tax judgment, sale, redemption,
and forfeiture record. The collector shall transcribe into
a record prepared for that purpose, and known as the
annual tax judgment, sale, redemption and forfeiture
record, the list of delinquent properties and of properties
upon which taxes have been paid under protest. The
record shall be made out in numerical order, and contain
all the information necessary to be recorded, at least 5
days before the day on which application for judgment is
to be made.
The record shall set forth the name of the owner,
if known; the description of the property; the year or
years for which the tax or, in counties with 3,000,000 or
more inhabitants, the tax or special assessments is, are
due or for which the taxes have been paid under protest,
the amount of taxes paid under protest; the valuation on
which the tax is extended; the amount of the consolidated
and other taxes or in counties with 3,000,000 or more
inhabitants, the consolidated and other taxes and special
assessments; the costs; and the total amount of charges
against the property.

251a
Appendix H
The record shall also be ruled in columns, to show
in counties with 3,000,000 or more inhabitants the
withdrawal of any special assessments from collection
and in all counties to show the amount paid before entry
of judgment; the amount of judgment and a column for
remarks; the amount paid before sale and after entry of
judgment; the amount of the sale; amount of interest or
penalty; amount of cost; amount forfeited to the State;
date of sale; acres or part sold; name of purchaser;
amount of sale and penalty; taxes of succeeding years;
interest and when paid, interest and cost; total amount
of redemption; date of redemption; when deed executed;
by whom redeemed; and a column for remarks or receipt
of redemption money.
The record shall be kept in the office of the county
clerk.
(Source: P.A. 76-2254; 88-455.)
(35 ILCS 200/21-170)
Sec. 21-170. Report of payments and corrections. On
the day on which application for judgment on delinquent
property is applied for, the collector, assisted by the county
clerk, shall post all payments compare and correct the list,
and shall make and subscribe an affidavit, which shall be
substantially in the following form:
State of Illinois
)
			) ss.
County of . . . . . . . )

252a
Appendix H
I . . . . , collector of the county of . . . ., do solemnly
swear (or affirm, as the case may be), that the foregoing
is a true and correct list of the delinquent property within
the county of . . . ., upon which I have been unable to collect
the taxes (and special assessments, interest, and printer’s
fees, if any), charged thereon, as required by law, for the
year or years therein set forth; and of all of the properties
upon which the taxes have been paid under protest, and
that the taxes now remain due and unpaid, to the best of
my knowledge and belief.
Dated . . . . . . . .
The affidavit shall be entered at the end of the list,
and signed by the collector.
(Source: P.A. 76-2254; 88-455.)
(35 ILCS 200/21-175)
Sec. 21-175. Proceedings by court. Defenses to the
entry of judgment against properties included in the
delinquent list shall be entertained by the court only when:
(a) the defense includes a writing specifying the particular
grounds for the objection; and (b) except as otherwise
provided in Sections 14-15, Section 14-25, 23-5, and 23-25,
the taxes to which objection is made are paid under protest
under Section 23-5 and a tax objection complaint is filed
under Section 23-10. Writing is accompanied by an official
original or duplicate receipt of the tax collector showing
that the taxes to which objection is made have been fully
paid under protest. All tax collectors shall furnish the
necessary duplicate receipts without charge.

253a
Appendix H
The court shall hear and determine the matter as
provided in Section 23-45.
If any party objecting is entitled to a refund of all or
any part of a tax paid under protest, the court shall enter
judgment accordingly, and also shall enter judgment for
the taxes, special assessments, interest and penalties as
appear to be due. The judgment shall be considered as a
several judgment against each property or part thereof,
for each kind of tax or special assessment included
therein. The court shall direct the clerk to prepare and
enter an order for the sale of the property against which
judgment is entered. However, if a defense is made that
the property, or any part thereof, is exempt from taxation
and it is demonstrated that a proceeding to determine the
exempt status of the property is pending under Section
16-170 or 16-130 or is being conducted under Section 8-35
or 8-40, the court shall not enter a judgment relating to
that property until the proceedings being conducted under
Section 8-35 or Section 8-40 have terminated.
(Source: P.A. 88-455; 88-642, eff. 9-9-94.)
(35 ILCS 200/23-5)
Sec. 23-5. Payment under protest. Beginning with
the 1994 tax year in counties with 3,000,000 or more
inhabitants and beginning with the 1995 tax year in
all other counties, if any person desires to object under
Section 21-175 to all or any part of a property tax for any
year, for any reason other than that the property is exempt
from taxation and that a proceeding to determine the tax
exempt status of such property is pending under Section

254a
Appendix H
16-70 or Section 16-130 or is being conducted under Section
8-35 or Section 8-40, he or she shall pay all of the tax due
within 60 days from the first penalty date of the final
installment of taxes for that year. Whenever taxes are
paid in compliance with this Section and a tax objection
complaint is filed in compliance with Section 23-10, 100%
of the taxes shall be deemed paid under protest without
the filing of a separate letter of protest with the county
collector. , prior to the collector’s filing of his or her annual
application for judgment and order of sale of delinquent
properties. Each payment shall be accompanied by a
written statement, substantially in the following form:
Payment under protest.
Vol. No. . . . . Item No. . . . (as each appears on the
General Tax Bill). Original amount of tax $. . . . Amount
of payment $ . . . This payment shall be applied to the
taxes of all taxing bodies ratably, subject to refund of
. . . % of the tax, which is objected to on the ground (here
set forth ground of objection) and is, accordingly, made
under protest.
Name of taxpayer . . . . . . . . .
Address . . . . . . . . . . . . . . . . .
The person protesting shall sign the written protest
and present to the collector 2 copies. The collector shall
write or stamp upon the copies the date of receipt, and
sign them, retaining one copy and returning the other to
the person making the payment under protest.

255a
Appendix H
In counties with 3,000,000 or more inhabitants, and in
other counties which have adopted the method provided
for in Section 21-30, any such written protest, whether of
all or any part of a property tax, shall be presented to the
Collector at the time of payment of the last installment of
the tax and at no other time.
(Source: P.A. 87-17; 88-455.)
(35 ILCS 200/23-10)
Sec. 23-10. Tax objections and copies. Beginning
with the 1994 tax year in counties with 3,000,000 or more
inhabitants, and beginning with the 1995 tax year in all
other counties, Once a protest has been filed with the
county collector, in all counties the person paying the
taxes due as provided in Section 23-5 may under protest
shall appear in the next application for judgment and
order of sale and file a tax an objection complaint under
Section 23-15 within 75 days after the first penalty date
of the final installment of taxes for the year in question.
However, in cases in which the complaint is permitted to
be filed without payment under Section 23-5, it must be
filed prior to the entry of judgment under Section 21-175.
In addition, the time specified for payment of the tax
provided in Section 23-5 shall not be construed to delay or
prevent the entry of judgment against, or the sale of, tax
delinquent property if the taxes have not been paid prior to
the entry of judgment under Section 21-175. An objection
to an assessment for any year shall not be allowed by the
court, however, if an administrative remedy was available
by complaint to the board of appeals or board of review
under Section 16-55 or Section 16-115, unless that remedy

256a
Appendix H
was exhausted prior to the filing of the tax objection
complaint. Upon the failure to do so, the protest shall be
waived, and judgment and order of sale entered for any
unpaid balance of taxes.
When any tax protest is filed with the county collector
and an objection complaint is filed with the court in a county
with less than 3,000,000 inhabitants, the plaintiff person
paying under protest shall file 3 copies of the complaint
objection with the clerk of the circuit court. Any complaint
objection or amendment thereto shall contain on the first
page a listing of the taxing districts against which the
complaint objection is directed. Within 10 days after the
complaint objection is filed, the clerk of the circuit court
shall deliver one copy to the State’s Attorney and one copy
to the county clerk, taking their receipts therefor. The
county clerk shall, within 30 days from the last day for the
filing of complaints objections, notify the duly elected or
appointed custodian of funds for each taxing district that
may be affected by the complaint objection, stating that
a complaint an objection has been filed. Any amendment
to a complaint an objection, except any amendment
permitted to be made in open court during the course of
a hearing on the complaint objection, shall also be filed in
triplicate, with one copy delivered to the State’s Attorney
and one copy delivered to the county clerk by the clerk
of the circuit court. The State’s Attorney shall within 10
days of receiving his or her copy of the amendment notify
the duly elected or appointed custodian of funds for each
taxing district whose tax monies may be affected by the
amendment, stating that the amendment has been filed.
The State’s Attorney shall also notify the custodian and

257a
Appendix H
the county clerk in writing of the date, time and place of
any hearing before the court to be held upon the complaint
objection or amended complaint objection not later than
4 days prior to the hearing. The notices provided in this
Section shall be by letter addressed to the custodian or the
county clerk and may be mailed by regular mail, postage
prepaid, postmarked within the required period, but not
less than 4 days before a hearing.
(Source: P.A. 87-17; 88-455.)
(35 ILCS 200/23-15)
Sec. 23-15. Tax objection procedure and hearing.
(a) A tax objection complaint under Section 23-10
shall be filed in the circuit court of the county in which
the subject property is located; provided, however, that
no complaint shall be filed as a class action. The complaint
shall name the county collector as defendant and shall
specify any objections that the plaintiff may have to the
taxes in question. No appearance or answer by the county
collector to the tax objection complaint, nor any further
pleadings, need be filed. Amendments to the complaint
may be made to the same extent which, by law, could be
made in any personal action pending in the court.
(b)(1) The court, sitting without a jury, shall hear
and determine all objections specified to the taxes,
assessments, or levies in question. This Section shall be
construed to provide a complete remedy for any claims
with respect to those taxes, assessments, or levies,
excepting only matters for which an exclusive remedy is

258a
Appendix H
provided elsewhere in this Code.
(2) The taxes, assessments, and levies that are the
subject of the objection shall be presumed correct and
legal, but the presumption is rebuttable. The plaintiff has
the burden of proving any contested matter of fact by clear
and convincing evidence.
(3) Objections to assessments shall be heard de novo
by the court. The court shall grant relief in the cases in
which the objector meets the burden of proof under this
Section and shows an assessment to be incorrect or illegal.
If an objection is made claiming incorrect valuation, the
court shall consider the objection without regard to the
correctness of any practice, procedure, or method of
valuation followed by the assessor, board of appeals, or
board of review in making or reviewing the assessment,
and without regard to the intent or motivation of any
assessing official. The doctrine known as constructive
fraud is hereby abolished for purposes of all challenges
to taxes, assessments, or levies.
(c) If the court orders a refund of any part of the
taxes paid, it shall also order the payment of interest as
provided in Section 23-20. Appeals may be taken from
final judgments as in other civil cases.
(d) This amendatory Act of 1995 shall apply to all tax
objection matters still pending for any tax year, except as
provided in Sections 23-5 and 23-10 regarding procedures
and time limitations for payment of taxes and filing tax
objection complaints. In all counties, when the taxpayer

259a
Appendix H
appears and files objection, the court shall, after first
determining that due notice, if required, has been given
to the taxing district, hear and determine the matter
according to the right of the case and enter judgment
for any part of the taxes, or order a refund of any part of
the taxes paid under protest, with interest as provided
in Section 23-20. The court shall have and exercise
jurisdiction in the matter without requiring proof that the
assessment was not made on the basis of honest judgment
and to the extent case law, including In Re Application of
the County Treasurer (Ford Motor Company), 131 Ill.2d
541 (1989) holds to the contrary, it is overruled. Appeals
may be taken from such orders of the court as in other
cases of objection to judgment and order of sale for taxes.
Proceedings upon objections filed under this Section are
subject to Section 23-30.
When any tax is paid in full and protested as provided
in Section 23-5 before the delinquent taxes are transcribed
into the tax judgment, sale, redemption and forfeiture
record, and the taxpayer appears and files objection, the
collector, within such time as may be fixed by the court,
shall file a transcript from the tax warrant book showing
the tax. The transcript shall be an amendment to the tax
judgment, sale, redemption and forfeiture record, and
the case shall proceed as if the tax had been originally
transcribed therein.
(Source: P.A. 87-17; 88-455; 88-642, eff. 9-9-94.)

260a
Appendix H
(35 ILCS 200/23-25)
Sec. 23-25. Tax exempt property; restriction on tax
objections. No taxpayer may pay under protest as provided
in Section 23-5 or file an objection as provided in Section
21-175 or Section 23-10 on the grounds that the property
is exempt from taxation, or otherwise seek a judicial
determination as to tax exempt status, except as provided
in Section 8-40 and except as otherwise provided in this
Section and Section 14-25 and Section 21-175. Nothing
in this Section shall affect the right of a governmental
agency to seek a judicial determination as to the exempt
status of property for those years during which eminent
domain proceedings were pending before a court, once a
certificate of exemption for the property is obtained by the
governmental agency under Section 8-35 or Section 8-40.
This Section shall not apply to exemptions granted
under Sections 15-165 though 15-180.
The limitation in this Section shall not apply to
court proceedings relating to an exemption for the
1985 assessment year and preceding assessment years.
However, an order entered in any such proceeding shall
not preclude the necessity of applying for an exemption
for 1986 or later assessment years in the manner provided
by Section 16-70 or 16-130.
(Source: P.A. 84-1275; 88-455.)

261a
Appendix H
(35 ILCS 200/23-30)
Sec. 23-30. Conference on tax objection. Following
Upon the filing of an objection under Section 23-10 21175, the court may must, unless the matter has been
sooner disposed of, within 90 days after the filing hold
a conference with between the objector and the State’s
Attorney. If no agreement is reached at the conference,
the court must, upon demand of the taxpayer or the State’s
Attorney, set the matter for hearing within 90 days of
the demand. Compromise agreements on tax objections
reached by conference shall be filed with the court, and the
parties State’s Attorney shall prepare an order covering
the settlement and submit file the order to with the clerk of
the court for entry within 15 days following the conference.
(Source: Laws 1967, p. 230; P.A. 88-455.)
(35 ILCS 200/23-35)
Sec. 23- 35. Tax objection based on budget or
appropriation ordinance. Notwithstanding the provisions
of Section 23-10 21-175, no objection to any property tax
levied by any municipality shall be sustained by any
court because of the forms of any budget or appropriation
ordinance, or the degree of itemization or classification
of items therein, or the reasonableness of any amount
budgeted or appropriated thereby, if:
(a) A tentative budget and appropriation ordinance
was prepared at the direction of the governing body of
the municipality and made conveniently available to public
inspection for at least 30 days prior to the public hearing
specified below and to final action thereon.

262a
Appendix H
(b) At least one public hearing has been held by
the governing body as to the tentative budget and
appropriation ordinance prior to final action thereon, and
notice of the time and place where copies of the tentative
budget and appropriate ordinances are available for
public inspection, and the time and place of the hearing,
has been given by publication in a newspaper published
in the municipality at least 30 days prior to the time of
the hearing, or, if there is no newspaper published in the
municipality, notice of the public hearing has been given
by publication in a newspaper of general circulation in the
municipality; and
(c) The budget and appropriation ordinance finally
adopted is substantially identical, as to the matters to
which objection is made, with the tentative budget and
appropriation ordinance submitted at the public hearing,
unless the taxpayer making the objection has made the
same objection in writing with the same specificity to the
governing body of the municipality prior to the adoption
of the budget and appropriation ordinance.
“Municipality,” as used in this Section, means all
municipal corporations in, and political subdivisions of,
this State except the following: counties; cities, villages
and incorporated towns; sanitary districts created under
the Metropolitan Water Reclamation District Act; forest
preserve districts having a population of 3,000,000 or
more, created under the Cook County Forest Preserve
Park District Act; boards of education of school districts
in cities exceeding 1,000,000 inhabitants; the Chicago Park
District created under the Chicago Park District Act; and

263a
Appendix H
park districts as defined in subsection (b) of Section 1-3
of the Park District Code.
(Source: P.A. 87-895; 88-455.)
(35 ILCS 200/32-17 new)
Sec. 32-17. Severability. The provisions of this
amendatory Act of 1995 are severable under Section 1.31
of the Statute on Statutes.
Section 95. The State Mandates Act is amended by
adding Section 8.19 as follows:
(30 ILCS 805/8.19 new)
Sec. 8.19. Exempt mandate. Notwithstanding Sections
6 and 8 of this Act, no reimbursement by the State is
required for the implementation of any mandate created
by this amendatory Act of 1995.
Section 99. Effective date. This Act takes effect upon
becoming law.

